No.

In the Supreme Court of the United States
CHAD F. WOLF, ACTING SECRETARY
OF HOMELAND SECURITY, ET AL., PETITIONERS
v.
INNOVATION LAW LAB, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
Assistant Attorney General
JEFFREY B. WALL
EDWIN S. KNEEDLER
Deputy Solicitors General
SCOTT G. STEWART
Deputy Assistant Attorney
General
MICHAEL R. HUSTON
AUSTIN L. RAYNOR
Assistants to the Solicitor
General
EREZ REUVENI
ARCHITH RAMKUMAR
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

This case concerns a Department of Homeland Security (DHS) policy, known as the Migrant Protection
Protocols (MPP), which applies to aliens who have no
legal entitlement to enter the United States but who
depart from a third country and transit through Mexico
to reach the United States land border. MPP is an
exercise of DHS’s express authority under the Immigration and Nationality Act (INA), 8 U.S.C. 1101 et seq.,
to return those aliens temporarily to Mexico during the
pendency of their removal proceedings. See 8 U.S.C.
1225(b)(2)(C). The district court issued a universal preliminary injunction barring DHS from implementing
MPP. The court of appeals affirmed. The courts concluded that MPP likely violates the INA and the Administrative Procedure Act (APA), 5 U.S.C. 551 et seq.,
5 U.S.C. 701 et seq.
The questions presented are:
1. Whether MPP is a lawful implementation of the
statutory authority conferred by 8 U.S.C. 1225(b)(2)(C).
2. Whether MPP is consistent with any applicable
and enforceable non-refoulement obligations.
3. Whether MPP is exempt from the APA requirement of notice-and-comment rulemaking.
4. Whether the district court’s universal preliminary injunction is impermissibly overbroad.

(I)

PARTIES TO THE PROCEEDING

Petitioners were the defendants-appellants in the
court of appeals. They are Chad F. Wolf, in his official
capacity as Acting Secretary of Homeland Security;
Kenneth T. Cuccinelli II, Principal Deputy Director,
United States Citizenship and Immigration Services, in
his official capacity as Senior Official Performing the
Duties of Director, United States Citizenship and
Immigration Services; Andrew Davidson, in his official
capacity as Chief of the Asylum Division, United States
Citizenship and Immigration Services; Todd C. Owen,
in his official capacity as Executive Assistant Commissioner, Office of Field Operations, United States Customs and Border Protection; and Matthew Albence, in
his official capacity as Deputy Director and Senior Official Performing the Duties of Director, United States
Immigration and Customs Enforcement.
Respondents are Innovation Law Lab; Central
American Resource Center of Northern California;
Centro Legal de la Raza; University of San Francisco
School of Law Immigration and Deportation Defense
Clinic; Al Otro Lado; Tahirih Justice Center; John Doe;
Gregory Doe; Bianca Doe; Dennis Doe; Alex Doe;
Christopher Doe; Evan Doe; Frank Doe; Kevin Doe;
Howard Doe; and Ian Doe.
RELATED PROCEEDINGS

United States District Court (N.D. Cal.):
Innovation Law Lab v. Nielsen,
No. 19-cv-807 (Apr. 8, 2019)
United States Court of Appeals (9th Cir.):
Innovation Law Lab v. Wolf,
No. 19-15716 (Feb. 28, 2020)
(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 2
Statutory provisions involved ...................................................... 2
Statement:
A. Legal framework ..................................................... 2
B. Factual background ................................................ 6
C. Procedural history ................................................. 10
Reasons for granting the petition:
I. The decision below is incorrect .................................... 15
A. MPP is a lawful exercise of statutory
authority ................................................................. 15
B. MPP is consistent with any applicable and
enforceable non-refoulement obligations ............ 23
C. MPP is exempt from notice-and-comment
rulemaking ............................................................. 29
D. The universal injunction is overbroad ................. 30
II. The decision below warrants review............................ 32
Conclusion ................................................................................... 35
Appendix A — Court of appeals opinion (Feb. 28, 2020) ...... 1a
Appendix B — District court order granting motion for
preliminary injunction (Apr. 8, 2019) ...... 48a
Appendix C — Court of appeals order granting partial
stay pending certiorari (Mar. 4, 2020)..... 84a
Appendix D — Court of appeals order granting motion
for judicial notice (Feb. 28, 2020) ............. 95a
Appendix E — Court of appeals opinion granting stay
pending appeal (May 7, 2019)................... 97a
Appendix F — Court of appeals order denying
reconsideration (May 24, 2019) .............. 127a
Appendix G — Statutory provisions ................................... 128a
Appendix H — Excerpts from administrative record
implementing MPP ................................. 155a
Appendix I — Department of Homeland Security
assessment of MPP (Oct. 30, 2019) ........ 199a
(III)

IV
TABLE OF AUTHORITIES

Cases:

Page

Arizona v. United States, 567 U.S. 387 (2012) ................... 34
Clark v. Martinez, 543 U.S. 371 (2005) ................................. 2
Cruz v. Department of Homeland Sec.,
No. 19-cv-2727, 2019 WL 8139805
(D.D.C. Nov. 21, 2019) ........................................................ 26
Department of Homeland Sec. v. New York,
140 S. Ct. 599 (2020) ........................................................... 34
E-R-M- & L-R-M-, In re, 25 I. & N. Dec. 520
(B.I.A. 2011) .......................................................... 4, 5, 18, 19
Florida Power & Light Co. v. Lorion,
470 U.S. 729 (1985).............................................................. 27
Gill v. Whitford, 138 S. Ct. 1916 (2018) ............................... 31
Jennings v. Rodriguez, 138 S. Ct. 830 (2018) ............ passim
Kiobel v. Royal Dutch Petroleum Co.,
569 U.S. 108 (2013).............................................................. 33
Kucana v. Holder, 558 U.S. 233 (2010) ............................... 22
Lincoln v. Vigil, 508 U.S. 182 (1993) ............................. 29, 30
M-E-V-G-, In re, 26 I. & N. Dec. 227 (B.I.A. 2014) ............ 26
M-S-, In re, 27 I. & N. Dec. 509 (A.G. 2019) ......... 3, 4, 17, 20
National Mining Ass’n v. McCarthy,
758 F.3d 243 (D.C. Cir. 2014) ............................................. 29
Nielsen v. Preap, 139 S. Ct. 954 (2019) ............................... 16
O-F-A-S-, In re, 27 I. & N. 709 (B.I.A. 2019) ...................... 28
Sale v. Haitian Ctrs. Council, Inc.,
509 U.S. 155 (1993).............................................................. 24
Trump v. Hawaii, 138 S. Ct. 2392 (2018) ............................ 34
United States v. Texas, 136 S. Ct. 2271 (2016) ................... 34
Urbina-Dore v. Holder, 735 F.3d 952
(7th Cir. 2013) ...................................................................... 28
Zadvydas v. Davis, 533 U.S. 678 (2001) .............................. 23

V
Constitution, treaties, statutes, and regulations:

Page

U.S. Const. Art. III ............................................................... 30
Convention Against Torture and Other Cruel,
Inhuman or Degrading Treatment or Punishment,
adopted Dec. 10, 1984, S. Treaty Doc. No. 20,
100th Cong., 2d Sess. (1988), 1465 U.N.T.S. 85 ............... 24
art. 3, S. Treaty Doc. No. 100-20, at 20,
1465 U.N.T.S. 114 ...................................................... 25
Convention Relating to the Status of Refugees,
July 28, 1951, 19 U.S.T. 6259, 189 U.N.T.S. 150
(entered into force Apr. 22, 1954)...................................... 23
arts. 2-34, 19 U.S.T. 6264-6276, 189 U.N.T.S.
156-176 ........................................................................ 23
art. 33, 19 U.S.T. 6276, 189 U.N.T.S. 176 ...................... 23
Protocol Relating to the Status of Refugees,
done Jan. 31, 1967, 19 U.S.T. 6223, T.I.A.S. 6577 ............ 23
Administrative Procedure Act,
5 U.S.C. 551 et seq., 5 U.S.C. 701 et seq. ........................... 10
5 U.S.C. 553(b)(A) ..................................................... 11, 29
5 U.S.C. 706(2)(A) ...................................................... 26, 30
Foreign Affairs Reform and Restructuring Act
of 1998, Pub. L. No. 105-277, Div. G, Subdiv. B,
Tit. XXII, § 2242, 112 Stat. 2681-822 to 2681-823 ............ 25
Illegal Immigration Reform and Immigrant
Responsibility Act of 1996, Pub. L. No. 104-208,
Div. C, § 302, 110 Stat. 3009-579 to 3009-584 ................... 20
§ 302(a), 110 Stat. 3009-583 ............................................ 24
§ 305(a)(3), 110 Stat. 3009-602 ........................................ 24
§ 307(a), 110 Stat. 3009-612 to 3009-614 ........................ 24
Immigration and Nationality Act,
8 U.S.C. 1101 et seq. .............................................................. 2
8 U.S.C. 1182(a)(6)(C) ....................................... 3, 21, 128a
8 U.S.C. 1182(a)(7)................................................... 3, 129a

VI
Statutes and regulations—Continued:

Page

8 U.S.C. 1182(d)(5)(A) ....................................................... 5
8 U.S.C. 1225 ...........................................2, 13, 16, 18, 131a
8 U.S.C. 1225(a)(1)................................................... 2, 131a
8 U.S.C. 1225(a)(3)................................................... 2, 132a
8 U.S.C. 1225(b)(1) ........................................ passim, 133a
8 U.S.C. 1225(b)(1)(A)(i) ............................... passim, 133a
8 U.S.C. 1225(b)(1)(A)(ii) ........................................ 4, 133a
8 U.S.C. 1225(b)(1)(B)(ii) ........................................ 4, 134a
8 U.S.C. 1225(b)(2) ............................. 4, 5, 17, 18, 22, 137a
8 U.S.C. 1225(b)(2)(A) ................................... passim, 137a
8 U.S.C. 1225(b)(2)(B) ........................................... 19, 137a
8 U.S.C. 1225(b)(2)(B)(i) ......................................... 5, 137a
8 U.S.C. 1225(b)(2)(B)(ii) ............. 4, 5, 11, 17, 19, 20, 137a
8 U.S.C. 1225(b)(2)(B)(iii) ....................................... 5, 137a
8 U.S.C. 1225(b)(2)(C) ................................... passim, 137a
8 U.S.C. 1226(c)(1) ........................................................... 16
8 U.S.C. 1229a ...............................................3, 4, 5, 7, 9, 22
8 U.S.C. 1229a(a)(2) ................................................. 3, 138a
8 U.S.C. 1229a(c)(4) ........................................... 3, 22, 138a
8 U.S.C. 1231 ...............................................24, 26, 29, 139a
8 U.S.C. 1231 note ........................................................... 25
8 U.S.C. 1231(b)(3)(A) ................................23, 24, 26, 148a
8 U.S.C. 1231(h) ..................................................... 23, 154a
8 U.S.C. 1252(b)(4) .......................................................... 23
8 U.S.C. 1253(h)(1) (Supp. IV 1980)............................... 24
8 C.F.R.:
Section 208.30(f ) ................................................................ 4
Section 235.3(b)(4) ............................................................. 4
Section 1003.1 .................................................................... 3

VII
Miscellaneous:

Page

83 Fed. Reg. 55,934 (Nov. 9, 2018) ............................... 6, 7, 21
84 Fed. Reg. 6811 (Feb. 28, 2019) .......................................... 7
U.S. Customs & Border Protection,
Southwest Border Migration FY 2020,
https://go.usa.gov/xdhSh (last visited Apr. 9, 2020) ........ 33

In the Supreme Court of the United States
No.
CHAD F. WOLF, ACTING SECRETARY
OF HOMELAND SECURITY, ET AL., PETITIONERS
v.
INNOVATION LAW LAB, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of Acting Secretary
of Homeland Security Chad F. Wolf, et al., respectfully
petitions for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Ninth Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra,
1a-47a) is reported at 951 F.3d 1073. The court of
appeals’ order granting in part and denying in part a
stay pending a petition for a writ of certiorari (App.,
infra, 84a-94a) is reported at 951 F.3d 986. The court
of appeals’ order granting a stay pending appeal (App.,
infra, 97a-126a) is reported at 924 F.3d 503. The order
of the district court (App., infra, 48a-83a) is reported at
366 F. Supp. 3d 1110.

(1)

2
JURISDICTION

The judgment of the court of appeals was entered on
February 28, 2020. The jurisdiction of this Court is
invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED

Pertinent statutory provisions are reproduced in the
appendix to this petition. App., infra, 128a-154a.
STATEMENT

This case concerns a Department of Homeland Security (DHS) policy, known as the Migrant Protection
Protocols (MPP), which applies to aliens who have no
legal entitlement to enter the United States but who
depart from a third country and transit through Mexico
to reach the United States land border. MPP is an
exercise of DHS’s express authority under the Immigration and Nationality Act (INA), 8 U.S.C. 1101 et seq.,
to return those aliens temporarily to Mexico during the
pendency of their removal proceedings. See 8 U.S.C.
1225(b)(2)(C).
A. Legal Framework

1. Section 1225 of Title 8 of the United States Code
establishes procedures for DHS to process aliens who
are “applicant[s] for admission” to the United States,
whether they arrive at a port of entry or cross the border unlawfully. 8 U.S.C. 1225(a)(1). 1 An immigration
officer must first inspect the alien to determine whether
he is entitled to be admitted. 8 U.S.C. 1225(a)(3); see
Jennings v. Rodriguez, 138 S. Ct. 830, 836-837 (2018).

Section 1225 refers to the Attorney General, but those functions
have been transferred to the Secretary of Homeland Security. See
Clark v. Martinez, 543 U.S. 371, 374 n.1 (2005).
1

3
Section 1225(b)(2)(A) provides that, if an immigration officer “determines” that an “applicant for admission” is “not clearly and beyond a doubt entitled to be
admitted,” then the alien “shall be detained for a proceeding under section 1229a of this title” to determine
whether he will be removed from the United States.
8 U.S.C. 1225(b)(2)(A); see In re M-S-, 27 I. & N. Dec.
509, 510 (A.G. 2019). Section 1229a, in turn, sets out the
procedures for a “full” removal proceeding, which involves a hearing before an immigration judge with
potential review by the Board of Immigration Appeals
(BIA). See 8 U.S.C. 1229a; 8 C.F.R. 1003.1. In a full
removal proceeding, the government may charge the
alien with any applicable ground of inadmissibility, and
the alien may seek asylum or any other form of
relief or protection from removal to his home country.
See 8 U.S.C. 1229a(a)(2) and (c)(4).
As an alternative to a full removal proceeding, an
immigration officer may also determine whether an
applicant for admission is eligible for, and should be
placed in, the expedited removal process described in
Section 1225(b)(1), which is designed to remove certain
aliens quickly using specialized procedures. See Jennings, 138 S. Ct. at 837; M-S-, 27 I. & N. Dec. at 510.
An alien is generally eligible for expedited removal
when an officer “determines” that he engaged in fraud,
made a willful misrepresentation in an attempt to gain
admission or another immigration benefit, or lacks any
valid entry documents. 8 U.S.C. 1225(b)(1)(A)(i); see
8 U.S.C. 1182(a)(6)(C) and (7). If the officer exercises
prosecutorial discretion to process such an alien
through expedited removal, the alien will be “removed
from the United States without further hearing or
review,” unless he expresses an intention to apply for

4
asylum or a fear of persecution or torture. 8 U.S.C.
1225(b)(1)(A)(i); see 8 C.F.R. 235.3(b)(4). An alien
who does so is referred to an asylum officer to determine whether he has a “credible fear of persecution”
or torture; if so, he “shall be detained for further consideration of the application for asylum.” 8 U.S.C.
1225(b)(1)(B)(ii); see 8 U.S.C. 1225(b)(1)(A)(ii); 8 C.F.R.
235.3(b)(4); see also Jennings, 138 S. Ct. at 842 (observing that aliens in expedited removal are subject to mandatory detention). By regulation, the government has
provided that an alien found to have a credible fear will
be placed in a Section 1229a full removal proceeding.
See 8 C.F.R. 208.30(f ); M-S-, 27 I. & N. Dec. at 512.
2. It is settled that DHS has prosecutorial discretion
to choose whether an alien who is eligible for expedited
removal should be placed in the expedited removal procedure under Section 1225(b)(1) or afforded the full
removal proceeding authorized by Section 1225(b)(2)(A).
See, e.g., In re E-R-M- & L-R-M-, 25 I. & N. Dec. 520,
523 (B.I.A. 2011); App., infra, 67a (district court noting
“well-established law” recognizing DHS’s discretion).
Respondents have accordingly “conceded” in this case
that, even when an alien is “ ‘eligible to be placed in
expedited removal,’ ” DHS has discretion to place the
alien “ ‘in full removal proceedings instead.’ ” App., infra,
67a-68a (citation omitted).
Section 1225(b)(2)(B)(ii) reinforces DHS’s discretion
by clarifying the “overlap” between Sections 1225(b)(1)
and 1225(b)(2). App., infra, 102a. Section 1225(b)(2)(A)
directs full removal proceedings for a broad, general
class: any applicant for admission “not clearly and
beyond a doubt entitled to be admitted.” 8 U.S.C.
1225(b)(2)(A). That broad set encompasses the narrower set of aliens who are also eligible for expedited

5
removal under Section 1225(b)(1)(A)(i) because they
are inadmissible on specified grounds. See Jennings,
138 S. Ct. at 837 (observing that Section 1225(b)(2) is
“broader” than Section 1225(b)(1)). Thus, at first glance,
it might appear that aliens eligible for expedited
removal under Section 1225(b)(1) are also entitled to a
full removal proceeding by Section 1225(b)(2)(A). Section 1225(b)(2)(B)(ii) provides, however, that “[Section
1225(b)(2)(A)] shall not apply to an alien * * * to whom
[Section 1225(b)(1)] applies.” 8 U.S.C. 1225(b)(2)(B)(ii).
Congress thereby “remove[d] any doubt” that aliens
whom DHS exercises discretion to place into expedited
removal are not entitled to full removal proceedings.
App., infra, 103a (citation omitted); see E-R-M-, 25
I. & N. Dec. at 523. 2
3. When DHS places an applicant for admission into
a full removal proceeding under Section 1229a, the alien
is subject to mandatory detention during that proceeding, see 8 U.S.C. 1225(b)(2)(A), except that certain
aliens may be temporarily released on parole “for
urgent humanitarian reasons or significant public benefit,” 8 U.S.C. 1182(d)(5)(A). See Jennings, 138 S. Ct.
at 837. But Congress has also provided in the alternative that, “[i]n the case of an alien described in [Section
1225(b)(2)(A)] who is arriving on land (whether or not
at a designated port of arrival) from a foreign territory
contiguous to the United States, [DHS] may return the
alien to that territory pending a proceeding under section 1229a of this title.” 8 U.S.C. 1225(b)(2)(C). This
contiguous-territory-return authority enables DHS to
avoid keeping aliens arriving on land from Mexico or
Section 1225(b)(2)(A)’s directive that an alien be placed in a full
removal proceeding also does not apply to an alien who is a “crewman” or a “stowaway.” 8 U.S.C. 1225(b)(2)(B)(i) and (iii).
2

6
Canada detained during their full removal proceedings,
and instead to temporarily return those aliens to the
foreign territory from which they just arrived pending
those proceedings. See App., infra, 104a (“Congress’
purpose was to make return to a contiguous territory
available during the pendency of § 1229a removal proceedings.”).
B. Factual Background

1. In 2018, the United States faced a humanitarian,
public safety, and security crisis on our Southwest border as a surge of hundreds of thousands of migrants,
many from the Northern Triangle countries of Central
America (Honduras, El Salvador, and Guatemala),
attempted to cross through Mexico to enter the United
States despite having no lawful basis for admission.
See, e.g., 83 Fed. Reg. 55,934, 55,944-55,945 (Nov. 9,
2018). By the fall of 2018, U.S. officials encountered an
average of approximately 2000 inadmissible aliens per
day at the border. Id. at 55,935.
Many of these inadmissible aliens were enticed to
make the dangerous journey north by smugglers and
human traffickers, who promoted the belief that, if the
migrants simply claimed fear of return to their home
country once they reached the United States (especially
when traveling with children), they could gain release
into the United States interior, even though their asylum claims overwhelmingly lacked merit. See App.,
infra, 175a. In fiscal year 2018, approximately 97,192
aliens in expedited removal were referred for a crediblefear interview because they expressed a fear of persecution or torture in their home country or else an
intention to apply for relief or protection from removal
(as compared to approximately 5000 aliens referred in
fiscal year 2008), and 65% of those were from Northern

7
Triangle countries. 83 Fed. Reg. at 55,945. Yet among
Northern Triangle aliens who claimed fear and were
referred for a Section 1229a proceeding, and whose
cases were completed in fiscal year 2018, they filed an
asylum application only about 54% of the time, and they
were granted asylum in only about nine percent of
cases. Id. at 55,946. In 38% of cases, those aliens did
not even appear for immigration proceedings. Ibid.
Before MPP, detention-capacity constraints or court
orders forced DHS to release tens of thousands of aliens
into the United States, where many disappeared. See
id. at 55,935, 55,946.
2. Amid this crisis, the Secretary of Homeland Security announced MPP in December 2018. App., infra,
179a-182a; see id. at 155a-198a (agency documents
implementing MPP); 84 Fed. Reg. 6811 (Feb. 28, 2019).
The Secretary explained that DHS would exercise its
statutory authority in 8 U.S.C. 1225(b)(2)(C) to “return[ ] to Mexico” certain aliens “arriving in or entering
the United States from Mexico” “illegally or without
proper documentation,” “for the duration of their immigration proceedings.” App., infra, 179a. MPP aims “ ‘to
bring the illegal immigration crisis under control’ ” by,
among other things, alleviating crushing burdens on the
U.S. immigration detention system and reducing “one
of the key incentives” for illegal immigration: the ability of aliens to “stay in our country” during immigration
proceedings “even if they do not actually have a valid
claim to asylum,” and in many cases to “skip their court
dates” and simply “disappear into the United States.”
Id. at 179a-181a.
MPP excludes several categories of aliens: “[u]naccompanied alien children”; “[c]itizens or nationals of Mexico”;
“[a]liens processed for expedited removal”; “[a]liens in

8
special circumstances” (such as returning lawful permanent residents or aliens with known physical or mental
health issues); and “[o]ther aliens at the discretion of
the Port Director.” App., infra, 155a-156a. Even when
an alien is eligible for MPP, the policy does not mandate
return: “[o]fficers, with appropriate supervisory review, retain discretion to process aliens for MPP or
under other procedures (e.g., expedited removal), on a
case-by-case basis.” Id. at 156a.
The Secretary also directed that MPP would be
implemented consistent with non-refoulement principles—i.e., DHS would avoid sending an alien to a country where he will more likely than not be persecuted on
account of a protected ground (race, religion, nationality, membership in a particular social group, or political
opinion) or tortured. App., infra, 170a-172a. “If an alien who is potentially amenable to MPP affirmatively
states that he or she has a fear of persecution or torture
in Mexico, or a fear of return to Mexico, whether before
or after they are processed for MPP or other disposition, that alien will be referred to a [U.S. Citizenship
and Immigration Services] asylum officer for screening
* * * [to] assess whether it is more likely than not that
the alien will face” persecution on account of a protected
ground, or torture, in Mexico. Id. at 157a. If so, then
“the alien may not be” returned to Mexico. Ibid. The
screening interview is “non-adversarial” and conducted
“separate and apart from the general public,” and officers are required to ensure that the alien “understand[s]” both “the interview process” and “that he or
she may be subject to return to Mexico.” Id. at 187a-188a.
If an alien is eligible for MPP and an immigration
officer “determines” that MPP should be applied, the
alien “will be issued a[ ] Notice to Appear (NTA) and

9
placed into Section [1229a full] removal proceedings,”
and then “transferred to await proceedings in Mexico.”
App., infra, 155a. The alien is directed to return to a
port of entry on the appointed date for immigration proceedings. Id. at 157a-158a.
The Secretary further explained that the Government of Mexico has committed to “authorize the temporary entrance” of third-country nationals who are returned pending U.S. immigration proceedings; to “ensure” that returned migrants “have all the rights and
freedoms recognized in the Constitution [of Mexico],
the international treaties to which Mexico is a party,
and its Migration Law”; to accord the migrants “equal
treatment with no discrimination whatsoever and due
respect * * * paid to their human rights”; to permit the
migrants “to apply for a work permit for paid employment”; and to coordinate “access without interference
to information and legal services” for them. App., infra,
169a-170a.
3. DHS began processing aliens under MPP on January 28, 2019, first at a single port of entry and gradually expanding across the Southwest border. See App.,
infra, 3a. During the 14 months that MPP has been
operational, the program has been extremely effective
at reducing the strain on the United States’ immigrationdetention capacity and improving the efficient resolution of asylum applications. See id. at 199a-200a, 205a208a. DHS reports that it has applied MPP to more
than 60,000 aliens who would otherwise have needed to
be detained in the United States or else released into
the interior, and the Executive Office for Immigration
Review reports that immigration judges have issued
more than 32,000 orders of removal. The program has
also become a crucial component of the United States’

10
diplomatic efforts in coordination with the governments
of Mexico and other countries to deter illegal immigration. See id. at 204a-205a, 208a-211a. 3
C. Procedural History

1. In February 2019, respondents brought this suit
in the Northern District of California challenging MPP
on various grounds and seeking a preliminary injunction. Respondents are 11 aliens who were returned to
Mexico under MPP, and six organizations that provide
legal services to migrants. App., infra, 54a.
In April 2019, the district court issued a universal
preliminary injunction barring DHS from “continuing
to implement or expand” MPP. App., infra, 83a; see id.
at 48a-83a. The court found it likely that MPP is not
authorized by the INA; that MPP uses inadequate nonrefoulement procedures; and that those procedures
should have been adopted through notice-and-comment
rulemaking under the Administrative Procedure Act
(APA), 5 U.S.C. 551 et seq., 5 U.S.C. 701 et seq. App.,
infra, 63a-79a. The court declined to stay its injunction
pending appeal, though it briefly delayed the injunction’s effective date. Id. at 82a-83a. The government
promptly appealed and moved the court of appeals for a
stay pending further proceedings.
2. a. In May 2019, after issuing an administrative
stay and holding oral argument, the court of appeals
In response to the public health emergency caused by the
COVID-19 virus, government agencies have implemented temporary measures that may impact aliens’ ability to arrive at, enter, or
be introduced into the United States, or that impact the conduct of
immigration proceedings. Some of those temporary measures
impact aliens processed through MPP. The government’s response
to the emergency is fluid, and measures attributable to the emergency are not at issue in this case.
3

11
stayed the injunction pending appeal in a per curiam
opinion joined in full by Judges O’Scannlain and Watford. App., infra, 97a-107a.
The stay panel first explained that the INA authorizes
MPP: because MPP applies to aliens like the individual
respondents here who “are not ‘clearly and beyond a
doubt entitled to be admitted,’ they fit the description
in § 1225(b)(2)(A) and thus seem to fall within the sweep
of § 1225(b)(2)(C)”—the provision that authorizes return to the contiguous foreign territory from which the
aliens arrived. App., infra, 102a. The stay panel rejected respondents’ argument that, because the individual respondents here were eligible for expedited removal (though none of them was placed in expedited removal), they were exempted from contiguous-territory
return by 8 U.S.C. 1225(b)(2)(B)(ii), which provides that
“[Section 1225(b)(2)(A)] shall not apply to an alien * * *
to whom [Section 1225(b)(1)] applies.” The function of
Section 1225(b)(2)(B)(ii), the panel explained, is to clarify that, when an alien is actually placed in expedited
removal proceedings under Section 1225(b)(1), the
directive in Section 1225(b)(2)(A) to afford an alien a full
removal proceeding does not apply. App., infra, 102a105a. Because none of the respondents was placed in expedited removal, Section 1225(b)(1) was not “applie[d]”
to any of them. Id. at 104a.
The stay panel next explained that MPP is exempt
from notice-and-comment rulemaking as a “general
statement[ ] of policy,” 5 U.S.C. 553(b)(A), because it
guides immigration officers’ authority to “designate
applicants for return [to Mexico] on a discretionary
case-by-case basis.” App., infra, 106a.
The stay panel additionally found that the other relevant factors supported a stay. App., infra, 106a-107a.

12
DHS made a “strong showing” that it would “suffer
irreparable harm” if the injunction barred “one of the
few congressionally authorized measures available to
process the approximately 2,000 migrants who [were]
currently arriving at the Nation’s southern border on a
daily basis.” Id. at 106a. And although respondents
claimed irreparable harm from being forced to wait for
their removal proceedings in Mexico, those fears were
“reduced somewhat by the Mexican government’s commitment[s]” to them. Id. at 106a-107a. The stay panel
was also “hesitant to disturb” MPP’s role as a “compromise amid ongoing diplomatic negotiations between the
United States and Mexico.” Id. at 107a.
Judge Watford, in addition to joining the panel opinion in full, issued a separate concurrence. App., infra,
107a-111a. He agreed that the INA authorizes MPP, id.
at 107a, but expressed concern that, in some cases, MPP
might be arbitrary and capricious in its implementation
of non-refoulement principles, because DHS does not
ask every alien considered for MPP whether they fear
return to Mexico, id. at 108a-110a. In Judge Watford’s
view, some aliens who have reason to fear persecution
or torture in Mexico may not raise that fear with
an immigration officer. Id. at 109a. Judge Watford
observed, however, that such a claim could not justify
the district court’s injunction and could support only
much more tailored relief, such as a direction to DHS to
modify its non-refoulement procedures. Id. at 110a111a.
Judge Fletcher disagreed with the majority’s conclusion that MPP is consistent with the INA, but nevertheless “concurr[ed] only in the result” granting a stay.
App., infra, 111a-126a.

13
b. On February 28, 2020, the court of appeals affirmed
the district court’s injunction in an opinion by Judge
Fletcher joined by Judge Paez. App., infra, 1a-43a. The
panel majority first found that all respondents have justiciable claims, and that the stay panel’s conclusions
were not binding on it. Id. at 4a-5a, 10a-11a.
Next, the panel majority rejected the statutory analysis of Judges O’Scannlain and Watford in its entirety,
and instead adopted the reasoning of Judge Fletcher’s
prior opinion. App., infra, 12a-25a. The panel majority
construed Section 1225 to divide “ ‘applicants for admission’ ” into “separate” categories of “§ (b)(1) applicants”
and “§ (b)(2) applicants,” and to provide that contiguousterritory return is “available only for § (b)(2) applicants.” Id. at 15a-20a. The panel majority also reasoned that an alien is exclusively a “(b)(1) applicant” so
long as he was eligible to be placed into expedited
removal proceedings, even if he (like the individual
respondents here) was never placed into expedited
removal and was instead afforded a full removal proceeding. Id. at 15a-18a.
The panel majority additionally held that MPP “does
not comply with [the United States’] treaty-based nonrefoulement obligations codified at 8 U.S.C. § 1231(b).”
App., infra, 12a; see id. at 25a-38a. The panel majority
did not clearly identify any specific flaw in MPP’s procedures, but it appeared to object to DHS’s policy decision not to ask every alien considered for MPP whether
they fear return to Mexico, reasoning that migrants are
unlikely to “volunteer” that fear to an immigration officer.
Id. at 30a-31a. The panel majority also quoted various
declarations from individual respondents claiming that
they faced “violence and threats of violence in Mexico,”
which the panel concluded were largely “directed at the

14
declarants because they were non-Mexican.” Id. at 31a;
see id. at 31a-35a.
The panel majority noted the district court’s conclusion (App., infra, 77a-78a) that MPP’s non-refoulement
procedures should likely have been adopted through
notice-and-comment rulemaking, but it declined to
reach that question. Id. at 12a.
Finally, the panel majority held that the other preliminary injunction factors favored respondents, who
the panel believed risk substantial harm in Mexico while
awaiting their immigration proceedings. App., infra,
38a-39a. The panel majority also explained its view that
a universal injunction is appropriate because this case
was brought under the APA and “implicat[es] immigration policy.” Id. at 39a-42a.
Judge Fernandez dissented, App., infra, 43a-47a,
reasoning that the stay panel’s conclusions in its prior
published opinion were “both the law of the circuit and
the law of the case.” Id. at 43a.
c. The government filed an emergency motion in the
court of appeals renewing its request for a stay of the
injunction pending review by this Court. The merits
panel stayed the injunction outside the territory of the
Ninth Circuit pending a petition for a writ of certiorari,
but otherwise denied a stay over the dissent of Judge
Fernandez. App., infra, 84a-94a.
3. This Court then stayed the district court’s injunction in full pending further proceedings in this Court.
Wolf v. Innovation Law Lab, No. 19A960 (Mar. 11,
2020).
REASONS FOR GRANTING THE PETITION

This Court’s review is warranted because the decision below wrongly and severely impairs the Executive’s express contiguous-territory-return authority,

15
which the Secretary implemented to manage the large
influx of aliens arriving on our border with no lawful
basis for admission. During the 14 months that MPP
has been in operation, it has been enormously effective:
it has enabled DHS to avoid detaining or releasing into
the interior more than 60,000 migrants during removal
proceedings, and has dramatically curtailed the number
of aliens approaching or attempting to cross the Southwest border. The program has been an indispensable
tool in the United States’ efforts, working cooperatively
with the governments of Mexico and other countries, to
address the migration crisis by diminishing incentives
for illegal immigration, weakening cartels and human
smugglers, and enabling DHS to better focus its
resources on legitimate asylum claims. This Court
therefore should grant the petition for a writ of certiorari and reverse the judgment of the court of appeals.
I. THE DECISION BELOW IS INCORRECT

The courts below erred in holding that MPP is likely
unlawful and in enjoining the government from implementing it nationwide. MPP is a lawful exercise of
DHS’s express authority conferred by Congress; it is
consistent with any applicable and enforceable nonrefoulement obligations; it is exempt from the APA’s
notice-and-comment requirement; and in any event the
district court’s injunction is vastly overbroad.
A. MPP Is A Lawful Exercise Of Statutory Authority

1. As Judges O’Scannlain and Watford explained in
the per curiam opinion granting a stay, App., infra,
98a-105a, MPP is lawful because it applies to aliens, like
the individual respondents here, who fall within the
plain text of Section 1225(b)(2)(C). That provision
authorizes return to a contiguous foreign territory,

16
“pending a proceeding under section 1229a,” of “an
alien described in subparagraph (A) who is arriving on
land (whether or not at a designated port of arrival)
from a foreign territory contiguous to the United
States.” 8 U.S.C. 1225(b)(2)(C).
The individual respondents here were all placed in a
full removal “proceeding under section 1229a.” 8 U.S.C.
1225(b)(2)(C). And each respondent is “an alien described in subparagraph (A).” Ibid.; cf. Nielsen v. Preap,
139 S. Ct. 954, 965 (2019) (construing the phrase “an
alien described in [8 U.S.C. 1226(c)(1)]” to refer to the
“salient identifying features” of aliens in the referenced
subsection) (citation omitted). Section 1225(b)(2)(A) provides in full that, “[s]ubject to subparagraphs (B) and
(C), in the case of an alien who is an applicant for admission, if the examining immigration officer determines
that an alien seeking admission is not clearly and
beyond a doubt entitled to be admitted, the alien shall
be detained for a proceeding under section 1229a of this
title.” 8 U.S.C. 1225(b)(2)(A). There is no dispute that
each respondent here is an “applicant for admission”
who was determined by DHS not to be “clearly and
beyond a doubt entitled to be admitted” to the United
States. 8 U.S.C. 1225(b)(2)(A). And it is also undisputed that each respondent “arrive[d] on land * * *
from a foreign territory contiguous to the United
States,” namely, Mexico. 8 U.S.C. 1225(b)(2)(C). The
Secretary’s statutory contiguous-territory-return authority therefore applies to respondents by its express
terms. See App., infra, 101a-102a.
2. The merits panel’s contrary rationale (App.,
infra, 15a-25a) does not withstand scrutiny. The panel
majority construed Section 1225 to divide all “ ‘appli-

17
cants for admission’ ” into two “entirely separate categor[ies]”: “§ (b)(1) applicants” and “§ (b)(2) applicants.” Id. at 15a-17a (citation omitted). The panel then
reasoned that, if any alien was eligible to be placed
into the expedited removal process under Section
1225(b)(1)—even if that alien was never placed into
expedited removal (as the individual respondents here
were not)—then he is exclusively a “§ (b)(1) applicant”
who may not “be subjected to a procedure specified for
a § (b)(2) applicant,” id. at 17a-18a, including contiguousterritory return, id. at 19a-20a. The panel believed that
the bright-line distinction that it perceived between
“§ (b)(1) applicants” and “§ (b)(2) applicants” was supported by 8 U.S.C. 1225(b)(2)(B)(ii), which provides that
“[s]ubparagraph (A) shall not apply to,” among others,
“an alien * * * to whom paragraph (1) applies.” See
App., infra, 15a, 21a-22a. And the panel also believed
that this Court’s decision in Jennings v. Rodriguez,
138 S. Ct. 830 (2018), and the Attorney General’s decision in In re M-S-, 27 I. & N. Dec. 509 (2019), both recognized that distinction “explicitly.” App., infra, 21a;
see id. at 16a-17a. That reasoning is flawed in multiple
respects.
a. At the outset, the panel majority fundamentally
misunderstood the structure of this section of the INA,
which is not based on differentiating “§ (b)(1) applicants” from “§ (b)(2) applicants.” App., infra, 15a.
Aliens do not separately apply for admission (or anything else) under either Section 1225(b)(1) or 1225(b)(2).
Rather, those subsections describe different procedures
that DHS can use to process and remove aliens who are
not entitled to be admitted to the United States. See
Jennings, 138 S. Ct. at 837. As an alternative to full

18
removal proceedings, Section 1225(b)(1) provides a procedure that DHS may elect to use, at its discretion,
to quickly remove inadmissible aliens who lack any
valid documents, present fraudulent documents, or
make material misrepresentations. See ibid. Thus,
contrary to the panel majority’s view (App., infra,
18a-20a), contiguous-territory return is discussed only
in Section 1225(b)(2) because, if DHS expeditiously
removes an alien using the Section 1225(b)(1) procedure, then DHS has no need to return him to the foreign
territory from which he arrived pending removal proceedings. See id. at 104a (stay panel reasoning similarly). Contiguous-territory return enables DHS to
avoid detaining aliens like respondents, who are placed
in full removal proceedings, during those proceedings.
See ibid.
Next, the panel majority compounded its structural
error by concluding that any alien who is merely eligible
for expedited removal is solely a “§ (b)(1) applicant”
who cannot be “subjected to a procedure specified” in
Section 1225(b)(2). App., infra, 17a-20a. Section 1225
does not, however, set up immutably fixed categories of
aliens; rather, Congress preserved DHS’s inherent
prosecutorial discretion to choose whether to apply Section 1225(b)(1)’s expedited removal procedure to a particular alien, or whether instead to treat that alien as an
“applicant for admission” who is “not clearly and
beyond a doubt entitled to” admission and afford him a
full removal proceeding under 8 U.S.C. 1225(b)(2)(A).
The BIA has recognized DHS’s discretion not to treat
aliens like the individual respondents here as aliens to
whom Section 1225(b)(1) applies, even though DHS
could have used the expedited removal procedure in
their cases. See In re E-R-M- & L-R-M-, 25 I. & N.

19
Dec. 520, 523 (2011). And respondents have conceded
that point. See App., infra, 67a-68a. That discretion
is fatal to the panel majority’s statutory analysis.
Because DHS had discretion not to place respondents
into expedited removal, and instead to afford them full
removal “proceeding[s] under section 1229a,” 8 U.S.C.
1225(b)(2)(A), DHS had corresponding authority to
return them to the contiguous foreign territory from
which they arrived “pending [those] proceeding[s],”
8 U.S.C. 1225(b)(2)(C).
b. The panel majority also misunderstood the modest role in this statute for Section 1225(b)(2)(B)(ii),
which does not affect contiguous-territory return. As
the stay panel explained (App., infra, 103a), Section
1225(b)(2)(B)(ii) clarifies the ambiguity that might otherwise arise from the fact that Section 1225(b)(2)(A)
directs a full removal proceeding for any applicant
for admission who is “not clearly and beyond a doubt
entitled to be admitted,” 8 U.S.C. 1225(b)(2)(A)—a class
that by its terms includes aliens who can be removed
pursuant to the expedited procedure under Section
1225(b)(1). See Jennings, 138 S. Ct. at 837. Section
1225(b)(2)(B)(ii) provides that if an alien is actually
placed into expedited removal—i.e., if “paragraph (1)
applies” to him—then Section 1225(b)(2)(A)’s mandate
of a full removal proceeding “shall not apply” to him,
8 U.S.C. 1225(b)(2)(B)(ii). See E-R-M-, 25 I. & N. Dec. at
523 (Section 1225(b)(2)(B)(ii) means that aliens “subject
to expedited removal under [Section 1225(b)(1)(A)(i)]
are not entitled to a [Section 1229a full removal] proceeding.”). Congress added Section 1225(b)(2)(B) to
the INA at the same time it created the expedited removal procedure, and the legislative history nowhere
suggests that Congress intended that subsection to

20
limit contiguous-territory-return authority. See Illegal
Immigration Reform and Immigrant Responsibility Act
of 1996 (IIRIRA), Pub. L. No. 104-208, Div. C, § 302,
110 Stat. 3009-579 to 3009-584.
Relatedly, aliens like the individual respondents
here are not aliens “to whom paragraph (1) applies,”
8 U.S.C. 1225(b)(2)(B)(ii), because as the stay panel
observed (App., infra, 104a), DHS did not apply Section
1225(b)(1)’s expedited removal procedure to any of
them. Section 1225(b)(1) applies only when an immigration officer both determines that an alien is eligible and
concludes that he should be processed through expedited removal. See 8 U.S.C. 1225(b)(1)(A)(i); M-S-,
27 I. & N. Dec. at 510. But in respondents’ cases, officers exercising their conceded discretion concluded that
Section 1225(b)(1)’s expedited removal procedure should
not apply. Here again, the merits panel’s acknowledgement (App., infra, 17a) that DHS acted lawfully by
affording respondents a full removal “proceeding under
section 1229a,” 8 U.S.C. 1225(b)(2)(A), cannot be reconciled with its conclusion (App., infra, 22a) that “[Section
1225(b)(2)(A)] shall not apply” to them, 8 U.S.C.
1225(b)(2)(B)(ii). Section 1225(b)(2)(A) is the provision
that authorizes a full removal proceeding for an applicant for admission.
c. Contrary to the panel majority’s suggestion, this
Court’s decision in Jennings and the Attorney General’s decision in M-S- both support the lawfulness of
MPP. The Attorney General expressly endorsed DHS’s
discretion not to apply Section 1225(b)(1) to an alien
who is eligible for expedited removal, and instead to
place that alien in a full removal proceeding as authorized by Section 1225(b)(2)(A). See M-S-, 27 I. & N. Dec.

21
at 510 (“[I]f the alien is inadmissible on one of two specified grounds and meets certain additional criteria,
DHS may place him in either expedited or full proceedings.”). And nothing in Jennings casts doubt on that
discretion. The panel majority invoked (App., infra,
16a) this Court’s statement that “Section 1225(b)(2)
* * * serves as a catchall provision that applies to all
applicants for admission not covered by § 1225(b)(1).”
Jennings, 138 S. Ct. at 837. But that is simply an
observation that Section 1225(b)(2)(A)’s requirement of
a full removal proceeding applies to any alien seeking
admission who is not placed in Section 1225(b)(1)’s
expedited removal procedure. Ibid. And that is precisely how MPP works: aliens in MPP are not placed in
expedited removal; they are afforded full removal proceedings, and are returned to Mexico instead of being
placed in detention during their proceedings.
d. Finally, the reading of the statute advocated by
respondents and adopted by the panel majority makes
no practical sense. It would bar DHS from using
contiguous-territory-return authority for any alien
even potentially subject to expedited removal—a massive class among inadmissible aliens. See 8 U.S.C.
1225(b)(1)(A)(i); cf. 83 Fed. Reg. at 55,944 (“[T]hroughout [fiscal year] 2018, approximately 234,534 aliens who
presented at a port of entry or were apprehended at the
border were referred to expedited-removal proceedings.”). Respondents have never plausibly explained
why Congress would have wanted the acts that subject
an alien to the possibility of expedited removal—one of
which is attempting to commit fraud on the U.S. immigration system, 8 U.S.C. 1225(b)(1)(A)(i); 8 U.S.C.
1182(a)(6)(C)—to limit the availability of contiguousterritory return.

22
In an effort to bridge that gap, the panel majority
reasoned that “§ (b)(1)” is for “asylum applicants” who
Congress would not want returned to a contiguous foreign territory, whereas Section 1225(b)(2) is for “some
* * * extremely undesirable applicants,” such as aliens
who are inadmissible because they are “spies, terrorists, alien smugglers, and drug traffickers.” App., infra,
23a-24a; see id. at 15a-16a. But the statute decisively
refutes both of those suggestions. The difference between Sections 1225(b)(1) and 1225(b)(2) does not turn
on whether an alien intends to seek asylum, and the subsections have nothing whatsoever to do with separating
“undesirable” aliens from others. Rather, Section
1225(b)(1) was created to “expedite removal of aliens
lacking a legal basis to remain in the United States.”
Kucana v. Holder, 558 U.S. 233, 249 (2010). If an applicant for admission arrives without valid entry documents or attempts to pass fraudulent documents, he is
eligible for expedited removal irrespective of whether
he intends to seek asylum, and even if he would also be
inadmissible based on, for example, a connection to terrorism or drug trafficking. Conversely, if a particular
applicant for admission is not eligible for expedited
removal proceedings, that alien is still expressly allowed to seek asylum in a full removal proceeding under
Section 1229a. See 8 U.S.C. 1229a(c)(4). The statutory
text thus proves that Congress did not create any
asylum-seeker exception to contiguous-territory return. It makes far more sense to understand Congress’s
purpose as the stay panel did: contiguous-territory
return is available as an alternative to detention for
aliens like respondents who are awaiting full removal
proceedings. See App., infra, 104a.

23
B. MPP Is Consistent With Any Applicable
Enforceable Non-Refoulement Obligations

And

The merits panel additionally concluded that MPP
violates the United States’ non-refoulement obligations,
invoking international law through the INA. App.,
infra, 25a. That is incorrect.
1. The United States is a party to the Protocol
Relating to the Status of Refugees (Protocol), done Jan.
31, 1967, 19 U.S.T. 6223, T.I.A.S. 6577, which incorporates Articles 2 through 34 of the Convention Relating
to the Status of Refugees (Convention), July 28, 1951,
19 U.S.T. 6259, 6264-6276, 189 U.N.T.S. 150, 156-176
(entered into force Apr. 22, 1954). See App., infra, 26a.
Article 33 of the Convention imposes a non-refoulement
obligation on contracting parties. Ibid. But the Protocol is not self-executing and provides no private right of
action. So the panel majority instead reasoned that
MPP violates 8 U.S.C. 1231(b)(3)(A), which provides
that “[t]he [Secretary] may not remove an alien to a
country if the Attorney General [or the Secretary]
decides that the alien’s life or freedom would be threatened in that country” on account of a protected ground.
See App., infra, 27a, 29a-30a. That provision alone cannot be a basis for enjoining MPP, however, because the
statute expressly precludes any private right of action.
See 8 U.S.C. 1231(h) (“Nothing in this section shall be
construed to create any substantive or procedural right
or benefit that is legally enforceable by any party
against the United States or its agencies or officers.”). 4
Section 1231(h) does not bar an alien from invoking other provisions for review of certain immigration orders. See 8 U.S.C.
1252(b)(4). Respondents’ claim also does not concern alleged detention without statutory authority. See Zadvydas v. Davis, 533 U.S.
678, 687 (2001).
4

24
In any event, as the text of Section 1231(b)(3)(A)
makes clear, it pertains only to the permanent removal
of an alien, not temporary return to the contiguous foreign territory from which the alien just arrived pending
proceedings to determine whether he will be removed
permanently. The text of the INA uses removal and
return differently, including in the very provisions at
issue here. Compare, e.g., 8 U.S.C. 1225(b)(1)(A)(i) (using “remove[ ]”), with 8 U.S.C. 1225(b)(2)(C) (using “return”).
Respondents have observed that the predecessor to
Section 1231 stated that the Attorney General shall not
“deport or return” any alien to a country where he
would face a threat of persecution. Resps. C.A. Br. 31;
see 8 U.S.C. 1253(h)(1) (Supp. IV 1980). But the former
Section 1253(h)(1)’s reference to “deport or return” was
designed to encompass “deportation and exclusion proceedings,” Sale v. Haitian Ctrs. Council, Inc., 509 U.S.
155, 174 (1993)—both of which are now covered by the
term “removal.” Moreover, Congress replaced the
phrase “deport or return” with “remove[ ]” in the same
legislation that created contiguous-territory-return
authority. See IIRIRA §§ 302(a), 305(a)(3), 307(a),
110 Stat. 3009-583, 3009-602, 3009-612 to 3009-614. If
Congress had intended Section 1231’s limitations on removal to also limit contiguous-territory return, it would
have said so. Instead, Congress afforded the Secretary
broad discretion in the exercise of contiguous-territoryreturn authority, providing that “the [Secretary] may
return [an eligible] alien.” 8 U.S.C. 1225(b)(2)(C) (emphasis added). 5
Article 3 of the Convention Against Torture and Other Cruel,
Inhuman or Degrading Treatment or Punishment (CAT), adopted
5

25
2. In all events, MPP is fully consistent with nonrefoulement principles. Under MPP, aliens amenable
to return to Mexico may raise a fear of return to that
country at any time they are in the United States
and have that fear evaluated by an asylum officer.
App., infra, 157a. The assessment interview is “nonadversarial,” and officers are required to ensure that
the alien “understand[s]” both “the interview process”
and “that he or she may be subject to return to Mexico.”
Id. at 187a-188a. No Mexican nationals are amenable to
return under MPP; the program applies only to thirdcountry nationals who traveled through Mexico en route
to the United States. Id. at 155a. DHS reasonably
determined that the temporary return of those aliens to
the contiguous country from which they just arrived
implicates appreciably less risk of persecution on account of a protected ground or torture than does the
permanent removal of an alien to the home country
from which he fled. See id. at 211a-212a (DHS assessment finding that, after nine months of MPP’s operation, “the vast majority of those third-country aliens
who express[ed] fear of return to Mexico [were] not

Dec. 10, 1984, S. Treaty Doc. No. 20, 100th Cong., 2d Sess. (1988),
1465 U.N.T.S. 85, prohibits removal of an alien to a territory where
he is more likely than not to suffer torture. See S. Treaty Doc.
No. 100-20, at 20, 1465 U.N.T.S. 114. But neither the district court
nor the merits panel held that MPP should be enjoined based on
CAT or the regulations implementing it pursuant to the Foreign
Affairs Reform and Restructuring Act of 1998, Pub. L. No. 105-277,
Div. G, Subdiv. B, Title XXII, § 2242, 112 Stat. 2681-822 to 2681-823,
codified at 8 U.S.C. 1231 note. Regardless, under MPP, DHS provides screening for aliens who claim fear of torture. See App., infra,
187a.

26
found to be more likely than not to be tortured or persecuted on account of a protected ground there”). And
as the stay panel noted, the prospect of persecution or
torture is further “reduced somewhat by the Mexican
government’s commitment to honor its internationallaw obligations” to aliens returned under MPP. Id. at
106a. 6
The merits panel declined to specify what it found
inadequate about MPP’s non-refoulement procedures.
That is unsurprising, because neither Section 1231 nor
the Protocol (even assuming they apply here) mandates
particular procedures. Instead, Section 1231 provides
that “the [Secretary of Homeland Security] may not
remove an alien to a country if the Attorney General
[or the Secretary] decides that the alien’s life or freedom
would be threatened in that country,” 8 U.S.C.
1231(b)(3)(A) (emphasis added), and the Protocol leaves
implementation to the contracting states, cf. In re
M-E-V-G-, 26 I. & N. Dec. 227, 248 (B.I.A. 2014). The
panel majority failed to identify any specific required
procedures because there are no specific required procedures.
Nevertheless, the panel majority suggested that
immigration officers must ask every applicant for
admission whether he fears returning to Mexico before
effectuating a return. App., infra, 11a-12a. But there
Because the Secretary implemented MPP consistent with nonrefoulement principles, respondents cannot show that MPP is arbitrary and capricious in violation of the APA, 5 U.S.C. 706(2)(A).
Contra App., infra, 108a-110a (Watford, J., concurring). In any
event, Congress has deprived courts of jurisdiction to review any
APA challenge to the Secretary’s voluntarily adopted procedures.
See Cruz v. Department of Homeland Sec., No. 19-cv-2727, 2019 WL
8139805, at *4 (D.D.C. Nov. 21, 2019).
6

27
is no legal basis or programmatic warrant for that
requirement. See id. at 215a-217a (DHS assessment of
MPP after nine months of operation). No relevant
source of law requires questioning every alien in this
context. And as explained, all aliens subject to MPP
have the opportunity (and every incentive) to express a
fear of return to Mexico, which triggers an interview by
an asylum officer. See id. at 157a. Aliens can raise that
fear at any time they are in the United States, including
“before or after they are processed for MPP or other
disposition,” or during or in transit to immigration proceedings. Id. at 157a-158a. There is accordingly no
meaningful barrier to an alien’s asserting a fear of
return to Mexico, and thousands of them have done so,
though most ultimately have not shown they will more
likely than not experience persecution or torture in
Mexico. See id. at 212a. DHS’s experience with nonrefoulement screenings in other contexts indicates that
asking every MPP-amenable alien about fear of return
to Mexico would serve primarily to generate even more
false positives. See id. at 215a-217a.
The panel majority reached a contrary conclusion
based largely on declarations submitted by various
individual respondents waiting in Mexico. App., infra,
31a-35a. As a threshold matter, the panel majority
erred in considering this material outside the administrative record when assessing the legality of MPP. See
Florida Power & Light Co. v. Lorion, 470 U.S. 729,
743-744 (1985) (“The task of the reviewing court is to
apply the appropriate APA standard of review to the
agency decision based on the record the agency presents to the reviewing court.”) (citation omitted); App.,
infra, 55a n.4 (district court noting that respondents
“stipulate[d] to having the present motion adjudicated

28
based on the administrative record presented by [the
government]”).
In any event, those declarations have never been
tested by the government or the courts, and most
reflect little more than a speculative fear of future harm.
The small number of anecdotal incidents recounted by
the panel in which respondents claim to have suffered
actual harm in Mexico, see, e.g., App., infra, 33a (describing robbery of a cellphone), cannot justify a universal injunction of MPP overall. And more generally,
respondents’ allegations largely fail to demonstrate the
elements of a non-refoulement claim, including persecution on account of a protected ground—as opposed to
generalized criminal conduct—that was committed by
the Mexican Government or by private actors whom the
Mexican Government was unwilling or unable to control. See In re O-F-A-S-, 27 I. & N. 709, 720-723 (B.I.A.
2019); see also Urbina-Dore v. Holder, 735 F.3d 952,
952-953 (7th Cir. 2013). Respondents’ isolated allegations of harm are inadequate to impugn DHS’s discretionary judgment that non-refoulement principles are
appropriately implemented in this context by applying
MPP only to non-Mexican nationals and by preserving
multiple opportunities for aliens to express a fear of return to Mexico. 7

The panel majority also cited declarations from certain individual respondents alleging that individual immigration officers failed
to follow MPP’s procedures in their cases. App., infra, 35a-36a.
Even crediting those untested and self-serving assertions, errors by
individual officers cannot support a universal injunction against
MPP itself.
7

29
C. MPP
Is
Exempt
Rulemaking

From

Notice-And-Comment

Although the merits panel declined to reach the
question, see App., infra, 12a, the district court suggested that MPP’s non-refoulement procedures should
have been adopted through notice-and-comment rulemaking, reasoning that MPP is a departure from “the
existing procedures and regulations of [8 U.S.C.
1231(b)(3)].” Id. at 77a-78a. For the reasons discussed
above, see pp. 23-24, supra, Section 1231 does not apply
to contiguous-territory return, so the core premise of
the district court’s analysis was incorrect, and the injunction cannot be sustained on that ground.
In addition, as the stay panel correctly recognized
(App., infra, 106a), MPP qualifies as a “general statement[ ] of policy” that is exempt from the APA’s noticeand-comment requirement. 5 U.S.C. 553(b)(A). A statement of policy “advise[s] the public prospectively of the
manner in which the agency proposes to exercise a discretionary power.” Lincoln v. Vigil, 508 U.S. 182, 197
(1993) (citation omitted). That is exactly what MPP
does: it does not “purport[ ] to impose legally binding
obligations or prohibitions on regulated parties,” but
explains how the Secretary “will exercise [his] broad
enforcement discretion” under Section 1225(b)(2)(C).
National Mining Ass’n v. McCarthy, 758 F.3d 243, 251252 (D.C. Cir. 2014) (Kavanaugh, J.); see App., infra,
172a (“This memorandum is not intended to, and does
not, create any right or benefit, substantive or procedural, enforceable at law or in equity.”). Moreover,
MPP does not require immigration officers to return
any particular alien. An alien who is “amenable to the
[MPP] process” will be returned only if an officer “in an

30
exercise of discretion * * * determines [that the alien]
should be subject to [MPP].” App., infra, 155a.
Respondents contend that notice and comment were
required for MPP because, even if MPP in general qualifies as a statement of policy, MPP’s non-refoulement
procedures in particular are “mandatory.” Resps. C.A.
Br. 42 (emphasis omitted). That argument misunderstands the APA. A set of procedures that an agency
establishes as one component of a discretionary policy
simply advises how the agency “proposes to exercise
[its] discretionary power,” here, under Section
1225(b)(2)(C), without imposing enforceable obligations
on the agency itself or on regulated parties. Lincoln,
508 U.S. at 197 (citation omitted).
D. The Universal Injunction Is Overbroad

The merits panel further erred by affirming a nationwide preliminary injunction that bars the government
from implementing MPP with respect to any alien. If
this Court were to uphold the substance of the decision
below, it should nevertheless hold that both Article III
of the Constitution and traditional limitations on the
equitable jurisdiction of the federal courts generally bar
a district court from enjoining enforcement of a governmental policy against all persons, rather than limiting
relief to the plaintiffs before it. See Gov’t Br. at 42-46,
Trump v. Pennsylvania, cert. granted, No. 19-454.
The panel majority reasoned that a universal injunction was proper because the APA provides for a reviewing court to “hold unlawful and set aside agency action
* * * not in accordance with law,” 5 U.S.C. 706(2)(A),
and because “cases implicating immigration policy have
a particularly strong claim for uniform relief.” App.,
infra, 39a-42a. That reasoning is unsound. For the rea-

31
sons explained in the government’s brief in Pennsylvania, the panel’s construction of the APA is inconsistent
with the meaning of the “set aside” phrase at the time
Congress enacted it, and other textual features confirm
that the APA does not authorize an injunction like the
one the district court issued here. See Gov’t Br. at
48-50, Pennsylvania, supra (No. 19-454); Nicholas Bagley & Samuel L. Bray Amicus Br. at 12-13, Pennsylvania, supra (No. 19-454). In addition, respect for the
government’s interest in consistent enforcement of the
immigration laws requires leaving MPP intact, with
individualized exceptions for plaintiffs who can establish irreparable injury from what a court has found to
be a violation of their own rights.
The organizational respondents contend (Resps.
C.A. Br. 55-56) that only a universal injunction of MPP
can remedy their asserted injuries. But the organizations do not have any “legally protected interest” in the
application of the contiguous-territory-return procedure to inadmissible aliens. Gill v. Whitford, 138 S. Ct.
1916, 1929 (2018) (citation omitted). Contrary to the
panel majority’s conclusion (App., infra, 4a-5a), an
advocacy organization does not suffer judicially cognizable harm that enables it to challenge procedures
applicable to individual aliens under the INA simply
because a governmental regulation makes it more difficult for the organization to accomplish its own purposes.
And to the extent that the respondent organizations
have a cognizable injury at all, it could be remedied by
a narrower injunction limited to specifically identified
aliens who the organizations can credibly establish are
their clients.

32
II. THE DECISION BELOW WARRANTS REVIEW

This case raises questions of enormous legal and
practical significance. The Ninth Circuit’s judgment
“takes off the table one of the few congressionally
authorized measures available to process” the vast
numbers of migrants arriving at our Nation’s Southwest border. App., infra, 106a. Before MPP, U.S. officials encountered an average of approximately 2000
inadmissible aliens at the southern border each day, and
the rate at which those aliens claimed fear of return to
their home countries surged exponentially. See pp. 6-7,
supra. That huge influx imposed enormous burdens on
the United States immigration system, even though the
vast majority of the aliens lacked meritorious claims for
asylum. See ibid.
In the 14 months that MPP has been operational, it
has played a critical role in addressing this crisis. By
returning migrants to Mexico to await their immigration proceedings—in cooperation with the Mexican Government, which has permitted the aliens to remain, see
p. 9, supra—MPP has dramatically eased the strain on
the United States’ immigration-detention system and
reduced the ability of inadmissible aliens to abscond
into the interior. See App., infra, 205a-208a. MPP also
discourages aliens from attempting illegal entry or
making unmeritorious asylum claims in the hope of
staying inside the United States, thereby permitting
the government to better focus its resources on individuals who legitimately qualify for relief or protection
from removal. See ibid. In February 2020, for example,
the number of aliens either apprehended or deemed inadmissible at the Southwest border was down roughly

33
40,000 from February 2019. 8 The judgment below, if
allowed to stand, would deprive the government and the
American people of these benefits, and would severely
burden the government as it strives to process the tens
of thousands of aliens who are likely to resume attempts
to cross the Southwest border with no legal basis for
admission.
In addition, the Ninth Circuit’s ruling threatens
damage to the bilateral relationship between the United
States and Mexico, and thus constitutes a major and
“unwarranted judicial interference in the conduct of
foreign policy.” Kiobel v. Royal Dutch Petroleum Co.,
569 U.S. 108, 116 (2013). Migration has been the subject
of substantial discussion between the two countries and
is a key topic of ongoing concern in their relationship.
See App., infra, 204a-205a; Gov’t Appl. for Stay App.
132a, Wolf, supra (No. 19A960) (declaration of U.S. Ambassador to Mexico). The unchecked flow of third-country
migrants through Mexico to the United States strains
both countries’ resources and produces significant public safety risks—not only to the citizens of Mexico and
the United States, but also to the migrants themselves,
who may be targeted by human smugglers. See ibid.
MPP has played a key role in joint efforts to address the
crisis, but the ruling below would upset those efforts
and undermine Mexican confidence in U.S. foreign policy commitments. See ibid.; see also App., infra, 107a
(court of appeals stay panel was “hesitant to disturb”
MPP “amid ongoing diplomatic negotiations between
the United States and Mexico”).
The court of appeals also reached erroneous conclusions about the enforceability and scope of nonU.S. Customs & Border Protection, Southwest Border Migration FY 2020, https://go.usa.gov/xdhSh (last visited Apr. 9, 2020).
8

34
refoulement protections, effectively fashioning a federal common-law requirement that immigration officers
affirmatively ask applicants for admission whether they
fear return to a contiguous territory other than their
home country. That requirement has no basis in law.
And the district court’s APA holding only compounds
this error by requiring non-refoulement procedures—
which merely implement the Secretary’s broad Section
1225(b)(2)(C) discretionary authority—to be promulgated through notice and comment.
Finally, the absence of a conflict in the courts of appeals does not counsel against certiorari here, because
if the district court’s universal injunction were left in
place, it would greatly diminish the prospect that any
conflict could arise. See Department of Homeland Sec.
v. New York, 140 S. Ct. 599, 601 (2020) (Gorsuch, J., concurring in the grant of stay) (noting that a “single”
nationwide injunction means “the policy goes on ice—
possibly for good”); Trump v. Hawaii, 138 S. Ct. 2392,
2425 (2018) (Thomas, J., concurring) (noting that universal injunctions “prevent[ ] legal questions from percolating through the federal courts”). This Court has
granted writs of certiorari multiple times to address
“important questions” of “federal power” over “the law
of immigration and alien status.” Arizona v. United
States, 567 U.S. 387, 394 (2012); see Hawaii, supra;
United States v. Texas, 136 S. Ct. 2271 (2016) (per
curiam). The same course is warranted here.

35
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
Assistant Attorney General
JEFFREY B. WALL
EDWIN S. KNEEDLER
Deputy Solicitors General
SCOTT G. STEWART
Deputy Assistant Attorney
General
MICHAEL R. HUSTON
AUSTIN L. RAYNOR
Assistants to the Solicitor
General
EREZ REUVENI
ARCHITH RAMKUMAR
Attorneys

APRIL 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 19-15716
D.C. No. 3:19-cv-00807-RS
INNOVATION LAW LAB; CENTRAL AMERICAN
RESOURCE CENTER OF NORTHERN CALIFORNIA;
CENTRO LEGAL DE LA RAZA; UNIVERSITY OF SAN
FRANCISCO SCHOOL OF LAW IMMIGRATION AND
DEPORTATION DEFENSE CLINIC; AL OTRO LADO;
TAHIRIH JUSTICE CENTER, PLAINTIFFS-APPELLEES
v.
CHAD WOLF, ACTING SECRETARY OF HOMELAND
SECURITY, IN HIS OFFICIAL CAPACITY;
U.S. DEPARTMENT OF HOMELAND SECURITY;
KENNETH T. CUCCINELLI, ACTING DIRECTOR,
U.S. CITIZENSHIP AND IMMIGRATION SERVICES, IN
HIS OFFICIAL CAPACITY; ANDREW DAVIDSON, ACTING
CHIEF OF ASYLUM DIVISION, U.S. CITIZENSHIP AND
IMMIGRATION SERVICES, IN HIS OFFICIAL CAPACITY;
UNITED STATES CITIZENSHIP AND IMMIGRATION
SERVICES; TODD C. OWEN, EXECUTIVE ASSISTANT
COMMISSIONER, OFFICE OF FIELD OPERATIONS,
U.S. CUSTOMS AND BORDER PROTECTION, IN HIS
OFFICIAL CAPACITY; U.S. CUSTOMS AND BORDER
PROTECTION; MATTHEW T. ALBENCE, ACTING
DIRECTOR, U.S. IMMIGRATION AND CUSTOMS
ENFORCEMENT, IN HIS OFFICIAL CAPACITY;
U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT,
DEFENDANTS-APPELLANTS

(1a)

2a
Argued and Submitted: Oct. 1, 2019
San Francisco, California
Filed:

Feb. 28, 2020

Appeal from the United States District Court
for the Northern District of California
Richard Seeborg, District Judge, Presiding
OPINION

Before:
FERDINAND F. FERNANDEZ, WILLIAM A.
FLETCHER, and RICHARD A. PAEZ, Circuit Judges.
W. FLETCHER, Circuit Judge:
Plaintiffs brought suit in district court seeking an injunction against the Government’s recently promulgated Migrant Protection Protocols (“MPP”), under
which non-Mexican asylum seekers who present themselves at our southern border are required to wait in
Mexico while their asylum applications are adjudicated.
The district court entered a preliminary injunction setting aside the MPP, and the Government appealed.
We affirm.
I.

Background

In January 2019, the Department of Homeland Security (“DHS”) promulgated the MPP without going
through notice-and-comment rulemaking. The MPP
provides that non-Mexican asylum seekers arriving at
our southern border be “returned to Mexico for the duration of their immigration proceedings, rather than either being detained for expedited or regular removal

3a
proceedings or issued notices to appear for regular removal proceedings.” Innovation Law Lab v. Nielsen,
366 F. Supp. 3d 1110, 1114 (N.D. Cal. 2019) (quotation
marks omitted). The MPP does not apply to certain
groups, including “unaccompanied alien children,” “aliens processed for expedited removal,” “aliens with
known physical [or] mental health issues,” “returning
[Legal Permanent Residents] seeking admission,” and
“aliens with an advance parole document or in parole
status.”
DHS issued guidance documents to implement the
MPP. Under this guidance, asylum seekers who cross
the border and are subject to the MPP are given a Notice to Appear in immigration court and returned to
Mexico to await their court date. Asylum seekers may
re-enter the United States to appear for their court
dates. The guidance instructs officials not to return
any alien who will more likely than not suffer persecution if returned to Mexico. However, this instruction
applies only to an alien “who affirmatively states that he
or she has a fear of persecution or torture in Mexico, or
a fear of return to Mexico.” Officers are not instructed
to ask aliens whether they fear returning to Mexico. If
an asylum officer determines, based on an alien’s volunteered statement, that he or she will more likely than
not suffer persecution in Mexico, the alien is not subject
to return to Mexico under the MPP.
The MPP went into effect on January 28, 2019. It
was first implemented at the San Ysidro, California,
port of entry and was later expanded across the entire
southern border.
The MPP has had serious adverse consequences for
the individual plaintiffs. Plaintiffs presented evidence

4a
in the district court that they, as well as others returned
to Mexico under the MPP, face targeted discrimination,
physical violence, sexual assault, overwhelmed and corrupt law enforcement, lack of food and shelter, and practical obstacles to participation in court proceedings in
the United States. The hardship and danger to individuals returned to Mexico under the MPP have been
repeatedly confirmed by reliable news reports. See,
e.g., Zolan Kanno-Youngs & Maya Averbuch, Waiting
for Asylum in the United States, Migrants Live in Fear
in Mexico, N.Y. TIMES (Apr. 5, 2019), https://www.
nytimes.com/2019/04/05/us/politics/asylum-united-statesmigrants-mexico.html; Alicia A. Caldwell, Trump’s
Return-to-Mexico Policy Overwhelms Immigration Courts,
WALL STREET J. (Sept. 5, 2019), https://www.wsj.com/
articles/trumps-return-to-mexico-policy-overwhelmsimmigration-courts-11567684800; Mica Rosenberg, et al.,
Hasty Rollout of Trump Immigration Policy Has ‘Broken’
Border Courts, REUTERS (Sept. 10, 2019), https://www.
reuters.com/article/us-usa-immigration-courts-insight/
hasty-rollout-of-trump-immigration-policy-has-brokenborder-courts-idUSKCN1VV115; Mireya Villareal, An
Inside Look at Trump’s “Remain in Mexico” Policy,
CBS NEWS (Oct. 8, 2019), https://www.cbsnews.com/
news/remain-in-mexico-donald-trump-immigrationpolicy-nuevo-laredo-mexico-streets-danger-migrants2019-10-08/.
The organizational plaintiffs have also suffered serious adverse consequences. The MPP has substantially
hindered the organizations’ “ability to carry out their
core mission of providing representation to aliens seeking admission, including asylum seekers,” Innovation
Law Lab, 366 F. Supp. 3d at 1129, and has forced them

5a
to divert resources because of increased costs imposed
by the MPP.
The Government has not argued in this court that either the individual or organizational plaintiffs lack
standing under Article III, but we have an independent
obligation to determine our jurisdiction under Article
III. The individual plaintiffs, all of whom have been returned to Mexico under the MPP, obviously have Article
III standing. The organizational plaintiffs also have
Article III standing. The Government conceded in the
district court that the organizational plaintiffs have Article III standing based on East Bay Sanctuary Covenant v. Trump, 932 F.3d 742, 765-67 (9th Cir. 2018),
given their decreased ability to carry out their core
missions as well as the diversion of their resources,
both caused by the MPP. See Innovation Law Lab,
366 F. Supp. at 1120-22. Because East Bay Sanctuary
Covenant was a decision by a motions panel on an emergency stay motion, we are not obligated to follow it as
binding precedent. See discussion, infra, Part III.
However, we are persuaded by its reasoning and hold
that the organizational plaintiffs have Article III standing.
II.

Proceedings in the District Court

Plaintiffs filed suit in district court seeking an injunction, alleging, inter alia, that the MPP is inconsistent
with the Immigration and Nationality Act (“INA”), specifically 8 U.S.C. §§ 1225(b) and 1231(b), and that they
have a right to a remedy under 5 U.S.C. § 706(2)(A).
Section 706(2)(A) provides, “The reviewing court shall
. . . hold unlawful and set aside agency action, find-

6a
ings, and conclusions found to be . . . arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.” (Internal numbering omitted.)
The district court held that plaintiffs had shown a
likelihood of success on the merits of their claim that the
MPP is inconsistent with § 1225(b). Id. at 1123. The
Government contended that the MPP is authorized by
§ 1225(b)(2). Plaintiffs argued, however, that they are
arriving aliens under § 1225(b)(1) rather than under
§ 1225(b)(2). They pointed out that there is a contiguous territory return provision in § (b)(2) but no such provision in § (b)(1). The district court agreed with plaintiffs:
On its face, . . . the contiguous territory return
provision may be applied to aliens described in subparagraph (b)(2)(A).
Pursuant to subparagraph
(b)(2)(B), however, that expressly excludes any alien
“to whom paragraph [(b)](1) applies.”
Id. (emphasis in original). The court concluded, “Applying the plain language of the statute, [the individual
plaintiffs] simply are not subject to the contiguous territory return provision.” Id.
The district court also held that plaintiffs had shown
a likelihood of success on the merits of their claim that
the MPP violates § 1231(b)(3), the statutory implementation of the United States’ treaty-based nonrefoulement obligations. The district court held that
“plaintiffs have shown they are more likely than not to
prevail on the merits of their contention that defendants
adopted the MPP without sufficient regard to refoulement issues.” Id. at 1127. In so holding, the district court noted that the MPP does not instruct asylum

7a
officers to ask asylum seekers whether they fear returning to Mexico. Rather, “the MPP provides only for review of potential refoulement concerns when an alien ‘affirmatively’ raises the point.” Id. The court further
held that it was more likely than not that the MPP should
have been adopted through notice-and-comment rulemaking with respect to the non-refoulement aspects of
the MPP. Id. at 1128.
With respect to the individual plaintiffs, the district
court found that “[w]hile the precise degree of risk and
specific harms that plaintiffs might suffer in this case
may be debatable, there is no real question that it includes the possibility of irreparable injury, sufficient to
support interim relief in light of the showing on the merits.” Id. at 1129. With respect to the organizational
plaintiffs, the court found that they had “shown a likelihood of harm in terms of impairment of their ability to
carry out their core mission of providing representation
to aliens seeking admission, including asylum seekers.”
Id. Finally, the court held that the balance of equities
and the public interest support the issuance of a preliminary injunction. Id.
Relying on a decision of our court, the district court
issued a preliminary injunction setting aside the MPP.
The court noted:
[D]efendants have not shown the injunction in this
case can be limited geographically. This is not a
case implicating local concerns or values. There is
no apparent reason that any of the places to which
the MPP might ultimately be extended have interests
that materially differ from those presented in San
Ysidro.

8a
Id. at 1130.
III.

Proceedings Before the Motions Panel

The district court issued its preliminary injunction on
April 8, 2019. The Government filed an appeal on April
10 and the next day requested an emergency stay pending appeal. In accordance with our regular procedures, our April motions panel heard the Government’s
request for an emergency stay. The motions panel
held oral argument on the stay on April 24. In three
written opinions, the panel unanimously granted the
emergency stay on May 7. Innovation Law Lab v.
McAleenan, 924 F.3d 503 (9th Cir. 2019).
In a per curiam opinion, the motions panel disagreed,
by a vote of two to one, with the district court’s holding
that plaintiffs were likely to succeed in their statutory
argument that the MPP is inconsistent with 8 U.S.C.
§ 1225(b). Id. at 508-09. The panel majority stated its
legal conclusion in tentative terms, writing that it was
“doubtful that subsection (b)(1) [of § 1225] ‘applies’ to
[plaintiffs.]” Id. at 509 (emphasis added).
Judge Watford concurred in the per curiam opinion
but wrote separately to express concern that the MPP
is arbitrary and capricious because it lacks sufficient
non-refoulement protections. Id. at 511 (Watford, J.,
concurring). Judge Watford expressed concern that
asylum officers do not ask asylum applicants whether
they have a fear of returning to Mexico: “One suspects
the agency is not asking an important question during
the interview process simply because it would prefer not
to hear the answer.” Id. Judge Watford concluded,
“DHS’s policy is virtually guaranteed to result in some

9a
number of applicants being returned to Mexico in violation of the United States’ non-refoulement obligations.”
Id.
Judge Fletcher concurred only in the result. He
wrote separately, arguing that the MPP was inconsistent with 8 U.S.C. § 1225(b). Id. at 512 (W. Fletcher,
J., concurring in the result). In his view, asylum seekers subject to the MPP are properly characterized as
applicants under § 1225(b)(1) rather than § 1225(b)(2),
and are thus protected against being returned to Mexico
pending adjudication of their applications.
Judge
Fletcher emphasized the preliminary nature of the
emergency stay proceedings before the motions panel,
writing, “I am hopeful that the regular argument panel
that will ultimately hear the appeal, with the benefit of
full briefing and regularly scheduled argument, will be
able to see the Government’s arguments for what they
are—baseless arguments in support of an illegal policy[.]” Id. at 518.
IV.

Standard of Review

When deciding whether to issue a preliminary injunction, a district court considers whether the requesting
party has shown “that he is likely to succeed on the merits, that he is likely to suffer irreparable harm in the absence of preliminary relief, that the balance of equities
tips in his favor, and that an injunction is in the public
interest.” Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7, 20 (2008). Likelihood of success on the merits is a threshold inquiry and the most important factor.
See, e.g., Edge v. City of Everett, 929 F.3d 657, 663 (9th
Cir. 2019).

10a
We review a grant of a preliminary injunction for
abuse of discretion. See, e.g., United States v. California, 921 F.3d 865, 877 (9th Cir. 2019). “The district
court’s interpretation of the underlying legal principles,
however, is subject to de novo review and a district court
abuses its discretion when it makes an error of law.”
Sw. Voter Registration Educ. Project v. Shelley, 344 F.3d
914, 918 (9th Cir. 2003) (en banc).
V.
A.

Likelihood of Success on the Merits
Effect of the Motions Panel’s Decision

A preliminary question is whether a merits panel is
bound by the analysis of a motions panel on a question
of law, performed in the course of deciding an emergency request for a stay pending appeal. On that question, we follow East Bay Sanctuary Covenant v. Trump,
Nos. 18-17274 and 18-17436 (9th Cir. 2020), argued on
the same day as this case, in which we held that a motions panel’s legal analysis, performed during the course
of deciding an emergency motion for a stay, is not binding on later merits panels. Such a decision by a motions panel is “a probabilistic endeavor,” “doctrinally
distinct” from the question considered by the later merits panel, and “issued without oral argument, on limited
timelines, and in reliance on limited briefing.” Id. at
21-22, 20. “Such a predictive analysis should not, and
does not, forever bind the merits of the parties’ claims.”
Id. at 22. At oral argument in this case, the Government acknowledged “that law of the circuit treatment
does not apply to [the motion’s panel’s decision].” The
Government later reiterated that it was “not advocating
for law of the circuit treatment.” The Government
“agree[d] that that is inappropriate in the context of a
motions panel decision.”

11a
Even if, acting as a merits panel, we may be bound in
some circumstances by a decision by a motions panel on
a legal question, we would in any event not be bound in
the case now before us. Two of the three judges on the
motions panel disagreed in part with the Government’s
legal arguments in support of the MPP. Further, the
motions panel’s per curiam opinion did not purport to
decide definitively the legal questions presented to it in
the emergency stay motion. The per curiam spoke in
terms of doubt and likelihood, rather than in terms of
definitive holdings. Innovation Law Lab, 924 F.3d at
509; see also supra I.C.2. Indeed, Judge Fletcher, who
concurred in granting the emergency stay, specifically
addressed the effect of the legal analysis of the motions
panel and expressed the hope that the merits panel, with
the benefit of full briefing and argument, would decide
the legal questions differently.
B.

Questions on the Merits

Plaintiffs challenge two aspects of the MPP. First,
they challenge the requirement that asylum seekers return to Mexico and wait there while their applications
for asylum are adjudicated. They contend that this requirement is inconsistent with the INA, as amended in
1996 by the Illegal Immigration Reform and Immigrant
Responsbility Act (“IIRIRA”). Second, in the alternative, they challenge the failure of asylum officers to ask
asylum seekers whether they fear being returned to
Mexico. They contend that this failure is inconsistent with
our treaty-based non-refoulement obligations.
They
contend, further, that with respect to non-refoulement,
the MPP should have been adopted only after noticeand-comment rulemaking.

12a
We address these challenges in turn. We conclude
that plaintiffs have shown a likelihood of success on their
claim that the return-to-Mexico requirement of the
MPP is inconsistent with 8 U.S.C. § 1225(b). We further conclude that plaintiffs have shown a likelihood of
success on their claim that the MPP does not comply
with our treaty-based non-refoulement obligations codified at 8 U.S.C. § 1231(b). We do not reach the question whether they have shown a likelihood of success on
their claim that the anti-refoulement aspect of the MPP
should have been adopted through notice-and-comment
rulemaking.
1.

Return to Mexico

The essential feature of the MPP is that non-Mexican
asylum seekers who arrive at a port of entry along the
United States’ southern border must be returned to
Mexico to wait while their asylum applications are adjudicated. Plaintiffs contend that the requirement that
they wait in Mexico is inconsistent with 8 U.S.C.
§ 1225(b). The government contends, to the contrary,
that the MPP is consistent with § 1225(b).
The relevant text of § 1225 is as follows:
(a)

Inspection
(1) Aliens treated as applicants for admission

An alien present in the United States who
has not been admitted . . . shall be deemed
for purposes of this chapter an applicant for admission.
. . .

13a
(b)

Inspection of applicants for admission
(1) Inspection of aliens arriving in the United
States and certain other aliens who have
not been admitted or paroled
(A)

Screening
(i) In general

If an immigration officer determines that an alien . . . who is arriving in the United States . . . is
inadmissible
under
section
1182(a)(6)(C) or 1182(a)(7) of this title,
the officer shall order the alien removed from the United States without
further hearing or review unless the alien indicates either an intention to apply for asylum under section 1158 of
this title or a fear of persecution.
(ii) Claims for asylum

If an immigration officer determines that an alien . . . is inadmissible under section 1182(a)(6)(C) or
1182(a)(7) of this title and the alien indicates either an intention to apply for
asylum under section 1158 of this title
or a fear of persecution, the officer
shall refer the alien for an interview by
an asylum officer under subparagraph
(B).
. . .

14a
(B)

Asylum interviews

. . .
(ii) Referral of certain aliens

If the [asylum] officer determines
at the time of the interview that an alien has a credible fear of persecution
. . . , the alien shall be detained for
further consideration of the application
for asylum.
. . .
(2) Inspection of other aliens
(A)

In general

Subject to subparagraphs (B) and (C),
in the case of an alien who is an applicant
for admission, if the examining immigration officer determines that an alien seeking admission is not clearly and beyond a
doubt entitled to be admitted, the alien
shall be detained for a proceeding under
section 1229a of this title.
(B)

Exception

Subparagraph (A) shall not apply to an
alien—
(i)

who is a crewman

(ii) to whom paragraph (1) applies, or
(iii) who is a stowaway.

15a
(C)

Treatment of aliens arriving from
contiguous territory

In the case of an alien described in subparagraph (A) who is arriving on land
(whether or not at a designated port of arrival) from a foreign territory contiguous
to the United States, the Attorney General
may return the alien to that territory
pending a proceeding under section 1229a
of this title.
There are two categories of “applicants for admission” under § 1225. § 1225(a). First, there are applicants described in § 1225(b)(1). Second, there are applicants described in § 1225(b)(2).
Applicants described in § 1225(b)(1) are inadmissible
based on either of two grounds, both of which relate to
their documents or lack thereof. Applicants described
in § 1225(b)(2) are in an entirely separate category. In
the words of the statute, they are “other aliens.”
§ 1225(b)(2) (heading).
Put differently, again in
the words of the statute, § (b)(2) applicants are applicants “to whom paragraph [(b)](1)” does not apply.
§ 1225(b)(2)(B)(ii). That is, § (b)(1) applicants are
those who are inadmissible on either of the two grounds
specified in that subsection. Section (b)(2) applicants
are all other inadmissible applicants.
Section (b)(1) applicants are more numerous than
§ (b)(2) applicants, but § (b)(2) is a broader category in
the sense that § (b)(2) applicants are inadmissible on
more grounds than § (b)(1) applicants. Inadmissable
applicants under § (b)(1) are aliens traveling with fraudulent documents (§ 1182(a)(6)(C)) or no documents

16a
(§ 1182(a)(7)). By contrast, inadmissable applicants under § (b)(2) include, inter alia, aliens with “a communicable disease of public health significance” or who are
“drug abuser[s] or addict[s]” (§ 1182(a)(1)(A)(i), (iv)); aliens who have “committed . . . a crime involving
moral turpitude” or who have “violat[ed] . . . any
law or regulation . . . relating to a controlled substance” (§ 1182(a)(2)(A)(i)); aliens who “seek to enter the
United States . . . to violate any law of the United
States relating to espionage or sabotage,” or who have
“engaged in a terrorist activity” (§ 1182(a)(3)(A), (B));
aliens who are “likely
. . .
to become a public
charge” (§ 1182(a)(4)(A)); and aliens who are alien
“smugglers” (§ 1182(a)(6)(E)).
The Supreme Court recently distinguished § (b)(1)
and § (b)(2) applicants, stating unambiguously that they
fall into two separate categories:
[A]pplicants for admission fall into one of two categories, those covered by § 1225(b)(1) and those covered by § 1225(b)(2). Section 1225(b)(1) applies to
aliens initially determined to be inadmissible due to
fraud, misrepresentation, or lack of valid documentation. . . . Section 1225(b)(2) is broader. It serves
as a catchall provision that applies to all applicants
for admission not covered by § 1225(b)(1).
Jennings v. Rodriguez, 138 S. Ct. 830, 837 (2018) (emphasis added) (citations omitted).
Even more recently, the Attorney General of the
United States, through the Board of Immigration Appeals, drew the same distinction and briefly described
the procedures applicable to the two categories:

17a
Under section 235 of the Act [8 U.S.C. § 1225], all aliens “arriv[ing] in the United States” or “present in
the United States [without having] been admitted”
are considered “applicants for admission,” who
“shall be inspected by immigration officers.” INA
§ 235(a)(1), (3). [8 U.S.C. § 1225(a)(1), (3).] In most
cases, those inspections yield one of three outcomes.
First, if an alien is “clearly and beyond a doubt entitled to be admitted,” he will be permitted to enter, or
remain in, the country without further proceedings.
Id. § 235(b)(2)(A). [8 U.S.C. § 1225(b)(2)(A).] Second, if the alien is not clearly admissible, then, generally, he will be placed in “proceeding[s] under section 240 [8 U.S.C. § 1229a]” of the Act—that is, full
removal proceedings. Id. Third, if the alien is inadmissible on one of two specified grounds and meets
certain additional criteria, DHS may place him in either expedited or full proceedings. Id. § 235(b)(1)(A)(i)
[8 U.S.C. § 1225(b)(1)(A)(i)]; see Matter of E-R-M- &
L-R-M-, 25 I&N Dec. 520, 524 (BIA 2011).
Matter of M-S-, 27 I. & N. Dec. 509, 510 (BIA April 16,
2019).
The procedures specific to the two categories of applicants are outlined in their respective subsections.
To some extent, the statutorily prescribed procedures
are the same for both categories. If a § (b)(1) applicant
passes his or her credible fear interview, he or she will
be placed in regular removal proceedings under 8 U.S.C.
§ 1229a. See 8 C.F.R. § 208.30(f ). A § (b)(1) applicant
may also be placed directly into regular removal proceedings under § 1229a at the discretion of the Government. See Matter of E-R-M- & L-R-M-, 25 I. & N. Dec.
520, 522 (BIA 2011). A § (b)(2) applicant who is “not

18a
clearly and beyond a doubt entitled to be admitted” is
automatically placed in regular removal proceedings under § 1229a. See § 1225(b)(2)(A).
Both § (b)(1) and § (b)(2) applicants can thus be
placed in regular removal proceedings under § 1229a,
though by different routes. But the fact that an applicant is in removal proceedings under § 1229a does not
change his or her underlying category. A § (b)(1) applicant does not become a § (b)(2) applicant, or vice
versa, by virtue of being placed in a removal proceeding
under § 1229a.
However, the statutory procedures for the two categories are not identical. Some of the procedures are
exclusive to one category or the other. For example, if
a § (b)(1) applicant fails to pass his or her credible fear
interview, he or she may be removed in an expedited
proceeding without a regular removal proceeding under
§ 1229a. See § 1225(b)(1)(A), (B). There is no comparable procedure specified in § (b)(2) for expedited removal of a § (b)(2) applicant. Further, in some circumstances a § (b)(2) applicant may be “returned” to a “territory contiguous to the United States” pending his
or her regular removal proceeding under § 1229a. See
§ 1225(b)(2)(C). There is no comparable “return” procedure specified in § 1225(b)(1) for a § (b)(1) applicant.
The statutory question posed by the MPP is whether
a § (b)(1) applicant may be “returned” to a contiguous
territory under § 1225(b)(2)(C). That is, may a § (b)(1)
applicant be subjected to a procedure specified for a
§ (b)(2) applicant? A plain-meaning reading of § 1225(b)
—as well as the Government’s longstanding and consistent practice up until now—tell us that the answer is
“no.”

19a
There is nothing in § 1225(b)(1) to indicate that a
§ (b)(1) applicant may be “returned” under § 1225(b)(2)(C).
Section (b)(1)(A)(i) tells us with respect to § (b)(1) applicants that an “officer shall order the alien removed
. . . without further hearing or review unless the alien
indicates either an intention to apply for asylum . . .
or a fear of persecution.” Section (b)(1)(A)(ii) tells us
that § (b)(1) applicants who indicate an intention to apply for asylum or a fear of persecution “shall” be referred by the immigration officer to an “asylum officer”
for an interview. The remainder of § 1225(b)(1) specifies what happens to a § (b)(1) applicant depending on
the determination of the asylum officer—either expedited removal or detention pending further consideration. § 1225(b)(1)(B)(ii)-(iii). There is nothing in
§ 1225(b)(1) stating, or even suggesting, that a § (b)(1)
applicant is subject to the “return” procedure of
§ 1225(b)(2)(C).
Nor is there anything in § 1225(b)(2) to indicate that
a § (b)(1) applicant may be “returned” under § 1225(b)(2)(C).
Taking § 1225(b)(2) subparagraph by subparagraph, it
provides as follows. Subparagraph (A) tells us that unless a § (b)(2) applicant is “clearly and beyond a doubt
entitled to be admitted,” she or he “shall be detained”
for a removal proceeding under § 1229a. § 1225(b)(2)(A).
Subparagraph (A) is “[s]ubject to subparagraphs (B)
and (C).” Id. Subparagraph (B) tells us that subparagraph (A) does not apply to three categories of aliens—
“crewm[e]n,” § (b)(1) applicants, and “stowaway[s].”
§ 1225(b)(2)(B). Finally, subparagraph (C) tells us that
a § (b)(2) applicant who arrives “on land . . . from a
foreign territory contiguous to the United States,” instead of being “detained” under subparagraph (A) pending his or her removal proceeding under § 1229a, may be

20a
“returned” to that contiguous territory pending that
proceeding. § 1225(b)(2)(C). Section (b)(1) applicants are mentioned only once in § 1225(b)(2), in subparagraph (B)(ii). That subparagraph specifies that subparagraph (A)—which automatically entitles § (b)(2) applicants to regular removal proceedings under § 1229a—
does not apply to § (b)(1) applicants.
The “return-to-a-contiguous-territory” provision of
§ 1225(b)(2)(C) is thus available only for § (b)(2) applicants. There is no plausible way to read the statute
otherwise. Under a plain-meaning reading of the text,
as well as the Government’s longstanding and consistent
practice, the statutory authority upon which the Government now relies simply does not exist.
The Government nonetheless contends that § (b)(2)(C)
authorizes the return to Mexico not only of § (b)(2) applicants, but also of § (b)(1) applicants. The Government makes essentially three arguments in support of
this contention. None is persuasive.
First, the Government argues that § (b)(1) applicants
are a subset of § (b)(2) applicants. Blue Brief at 35.
Under the Government’s argument, there are § (b)(1)
applicants, defined in § (b)(1), and there are § (b)(2) applicants, defined as all applicants, including § (b)(2) and
§ (b)(1) applicants. The Government argues that DHS,
in its discretion, can therefore apply the procedures
specified in § (b)(2) to a § (b)(1) applicant. That is, as
stated in its brief, the Government has “discretion to
make the initial ‘determin[ation]’ whether to apply section 1225(b)(1) or section 1225(b)(2) to a given alien.”
Blue Brief at 30.

21a
The Government’s argument ignores the statutory
text, the Supreme Court’s opinion in Jennings, and the
opinion of its own Attorney General in Matter of M-S-.
The text of § 1225(b) tells us that § (b)(1) and § (b)(2) are
separate and non-overlapping categories.
In Jennings, the Supreme Court told us explicitly that § (b)(1)
and § (b)(2) applicants fall into separate and nonoverlapping categories. In Matter of M-S-, the Attorney General wrote that applicants are subject to different procedures depending on whether they are § (b)(1)
or § (b)(2) applicants.
Second, the Government argues that § (b)(2)(B)(ii) allows DHS, in its discretion, to “apply” to a § (b)(1) applicant either procedures described in § (b)(1) or those described in § (b)(2). The Government’s second argument is necessitated by its first. To understand the
Government’s second argument, one must keep in mind
that § (b)(2)(A) automatically entitles a § (b)(2) applicant
to a regular removal hearing under § 1229a. But we
know from § (b)(1) that not all § (b)(1) applicants are entitled to a removal hearing under § 1229a. Having argued that § (b)(2) applicants include not only § (b)(2) but
also § (b)(1) applicants, the Government needs some way
to avoid giving regular removal proceedings to all
§ (b)(1) applicants. The best the Government can do is
to rely on § (b)(2)(B)(ii), which provides: “Subparagraph (A) shall not apply to an alien . . . to whom
paragraph [(b)](1) applies.” § 1225(b)(2)(B)(ii) (emphasis added).
The Government thus argues that
§ (b)(2)(B)(ii) allows DHS, in its discretion, to “apply,”
or not apply, § (b)(2)(A) to a § (b)(1) applicant.
The Government misreads § (b)(2)(B)(ii). Subparagraph (B) tells us, “Subparagraph (A) shall not apply to

22a
an alien—(i) who is a crewman, (ii) to whom paragraph
[(b)](1) applies, or (iii) who is a stowaway.” The function of § (b)(2)(B)(ii) is to make sure that we understand
that the automatic entitlement to a regular removal
hearing under § 1229a, specified in § (b)(2)(A) for a
§ (b)(2) applicant, does not apply to a § (b)(1) applicant.
However, the Government argues that § (b)(2)(B)(ii) authorizes the Government to perform an act. That act is
to “apply” the expedited removal procedures of § (b)(1)
to some of the aliens under § (b)(2), as the Government
defines § (b)(2) applicants.
There is a fatal syntactical problem with the Government’s argument. “Apply” is used twice in the same
sentence in § (b)(2)(B)(ii). The first time the word is
used, in the lead-in to the section, it refers to the application of a statutory section (“Subparagraph (A) shall
not apply”). The second time the word is used, it is
used in the same manner, again referring to the application of a statutory section (“to whom paragraph [(b)](1)
applies”). When the word is used the first time, it tells
us that subparagraph (A) shall not apply. When the
word is used the second time, it tells us to whom subparagraph (A) shall not apply: it does not apply to applicants to whom § (b)(1) applies. The word is used in the
same manner both times to refer to the application of
subparagraph (A). The word is not used the first time
to refer to the application of a subparagraph (A), and the
second time to an action by DHS.
The Government’s third argument is based on the
supposed culpability of § (b)(1) applicants. We know
from § (b)(2)(A) that § (b)(2) applicants are automatically entitled to full removal proceedings under § 1229a.
However, § (b)(2) applicants may be returned to Mexico

23a
under § (b)(2)(C) to await the outcome of their removal
hearing under § 1229a. It makes sense for the Government, in its discretion, to require some § (b)(2) applicants to remain in Mexico while their asylum applications are adjudicated, for some § (b)(2) applicants are
extremely undesirable applicants. As discussed above,
§ (b)(2) applicants include spies, terrorists, alien smugglers, and drug traffickers.
When the Government was before the motions panel
in this case, it argued that § (b)(1) applicants are more
culpable than § (b)(2) applicants and therefore deserve
to be forced to wait in Mexico while their asylum applications are being adjudicated. In its argument to the
motions panel, the Government compared § (b)(1) and
§ (b)(2) applicants, characterizing § (b)(2) applicants as
“less-culpable arriving aliens.” The Government argued that returning § (b)(2), but not § (b)(1), applicants
to a contiguous territory would have “the perverse effect
of privileging aliens who attempt to obtain entry to the
United States by fraud . . . over aliens who follow
our laws.”
The Government had it exactly backwards. Section
(b)(1) applicants are those who are “inadmissible under
section 1182(a)(6)(C) or 1182(a)(7)” of Title 8. These
two sections describe applicants who are inadmissible
because they lack required documents rather than because they have a criminal history or otherwise pose a
danger to the United States. Section 1182(a)(6)(C), entitled “Misrepresentation,” covers, inter alia, aliens using fraudulent documents. That is, it covers aliens who
travel under false documents and who, once they arrive
at the border or enter the country, apply for asylum.

24a
Section 1182(a)(7), entitled “Documentation requirements,” covers aliens traveling without documents. In
short, § (b)(1) applies to bona fide asylum applicants,
who commonly have fraudulent documents or no documents at all. Indeed, for many such applicants, fraudulent documents are their only means of fleeing persecution, even death, in their own countries. The structure of § (b)(1), which contains detailed provisions for
processing asylum seekers, demonstrates that Congress
recognized that § (b)(1) applicants may have valid asylum claims and should therefore receive the procedures
specified in § (b)(1).
In its argument to our merits panel, the Government
made a version of the same argument it had made earlier
to the motions panel. After referring to (but not describing) § (b)(2) applicants, the Government now argues in its opening brief:
Section 1225(b)(1), meanwhile, reaches, among other
classes of aliens, those who engage in fraud or willful
misrepresentations in an attempt to deceive the
United States into granting an immigration benefit.
See 8 U.S.C. § 1182(a)(6)(C). Plaintiffs have not explained why Congress would have wanted that class
of aliens to be exempt from temporary return to Mexico while their full removal proceedings are ongoing.
Blue Brief at 37-38 (emphasis in original).
We need not look far to discern Congress’s motivation in authorizing return of § (b)(2) applicants but not
§ (b)(1) applicants. Section (b)(2)(C) was added to
IIRIRA late in the drafting process, in the wake of Matter of Sanchez-Avila, 21 I. & N. Dec. 444 (BIA 1996).
Sanchez-Avila was a Mexican national who applied for

25a
entry as a “resident alien commuter” but who was
charged with being inadmissible due to his “involvement
with controlled substances.” Id. at 445. See 8 U.S.C.
§ 1182(a)(2)(A)(i) (§ (b)(2) applicants include aliens who
have “violat[ed] . . . any law or regulation . . .
relating to a controlled substance”). In order to prevent aliens like Sanchez-Avila from staying in the
United States during the pendency of their guaranteed
regular removal proceeding under § 1229a, as they
would otherwise have a right to do under § (b)(2)(A),
Congress added § 1225(b)(2)(C). Congress had specifically in mind undesirable § (b)(2) applicants like
Sanchez-Avila. It did not have in mind bona fide asylum seekers under § (b)(1).
We therefore conclude that plaintiffs have shown a
likelihood of success on the merits of their claim that the
MPP is inconsistent with 8 U.S.C. § 1225(b).
2.

Refoulement

Plaintiffs claim that the MPP is invalid in part, either
because it violates the United States’ treaty-based antirefoulement obligations, codified at 8 U.S.C. § 1231(b)(3)(A),
or because, with respect to refoulement, the MPP was
improperly adopted without notice-and-comment rulemaking. Our holding that plaintiffs are likely to succeed on their claim that the MPP is invalid in its entirety
because it is inconsistent with § 1225(b) makes it unnecessary to decide plaintiffs’ second claim. We nonetheless address it as an alternative ground, under which we
hold the MPP invalid in part.
Refoulement occurs when a government returns aliens to a country where their lives or liberty will be threatened on account of race, religion, nationality, membership

26a
of a particular social group, or political opinion. The
United States is obliged by treaty and implementing statute, as described below, to protect against refoulement of
aliens arriving at our borders.
Paragraph one of Article 33 of the 1951 United Nations Convention Relating to the Status of Refugees, entitled, “Prohibition of expulsion or return (‘refoulement’),”
provides:
No Contracting State shall expel or return (“refouler”) a refugee in any manner whatsoever to the
frontiers of territories where his life or freedom
would be threatened on account of his race, religion,
nationality, membership of a particular social group
or political opinion.
The United States is not a party to the 1951 Convention,
but in 1968 we acceded to the United Nations Protocol
Relating to the Status of Refugees, Jan. 31, 1967. INS
v. Stevic, 467 U.S. 407, 416 (1984). “The Protocol
bound parties to comply with the substantive provisions
of Articles 2 through 34 of the United Nations Convention Relating to the Status of Refugees.” Id. Twelve
years later, Congress passed the Refugee Act of 1980,
implementing our obligations under the 1967 Protocol.
“If one thing is clear from the legislative history of the
. . . entire 1980 Act, it is that one of Congress’ primary purposes was to bring United States refugee law
into conformance with the 1967 United Nations Protocol
Relating to the Status of Refugees.” INS v. CardozaFonseca, 480 U.S. 421, 436 (1987). The 1980 Act included, among other things, a provision designed to implement Article 33 of the 1951 Convention. After recounting the history behind 8 U.S.C. § 1253(h)(1), part

27a
of the 1980 Act, the Supreme Court characterized that section as “parallel[ing] Article 33,” the anti-refoulement provision of the 1951 Convention.
INS v. AguirreAguirre, 526 U.S. 415, 427 (1999).
Section 1253(h)(1) provided, in relevant part, “The
Attorney General shall not deport or return any alien
. . . to a country if the Attorney General determines
that such alien’s life or freedom would be threatened in
such country on account of race, religion, nationality,
membership of a particular social group, or political
opinion.” Id. at 419 (emphasis added). The current
version is § 1231(b)(3)(A): “[T]he Attorney General
may not remove an alien to a country if the Attorney
General decides that the alien’s life or freedom would be
threatened in that country because of the alien’s race,
religion, nationality, membership in a particular social
group, or political opinion.” (Emphasis added.) The
words “deport or return” in the 1980 version of the section were replaced in 1996 by “remove” as part of a general statutory revision under IIRIRA. Throughout
IIRIRA, “removal” became the new all-purpose word,
encompassing “deportation,” “exclusion,” and “return”
in the earlier statute. See, e.g., Salgado-Diaz v. Gonzales, 395 F.3d 1158, 1162 (9th Cir. 2005) (“IIRIRA eliminated the distinction between deportation and exclusion
proceedings, replacing them with a new, consolidated
category—‘removal.’ ”).
Plaintiffs point out several features of the MPP that,
in their view, provide insufficient protection against refoulement.
First, under the MPP, to stay in the United States
during the pendency of removal proceedings under
§ 1229a, the asylum seeker must show that it is “more

28a
likely than not” that he or she will be persecuted in Mexico. More-likely-than-not is a high standard, ordinarily
applied only after an alien has had a regular removal
hearing under § 1229a. By contrast, the standard ordinarily applied in screening interviews with asylum officers at the border is much lower. Aliens subject to expedited removal need only establish a “credible fear” in
order to remain in the United States pending a hearing
under § 1229a. §§ 1225(b)(1)(A)(ii), 1225(b)(1)(B)(ii).
Credible fear requires only that the alien show a “significant possibility” of persecution. § 1225(b)(1)(B)(v).
Second, under the MPP, an asylum seeker is not entitled to advance notice of, and time to prepare for, the
hearing with the asylum officer; to advance notice of the
criteria the asylum officer will use; to the assistance of a
lawyer during the hearing; or to any review of the asylum officer’s determination. By contrast, an asylum
seeker in a removal proceeding under § 1229a is entitled
to advance notice of the hearing with sufficient time to
prepare; to advance notice of the precise charge or
charges on which removal is sought; to the assistance of a
lawyer; to an appeal to the Board of Immigration Appeals;
and to a subsequent petition for review to the court of
appeals.
Third, an asylum officer acting under the MPP does
not ask an asylum seeker whether he or she fears returning to Mexico. Instead, asylum seekers must volunteer, without any prompting, that they fear returning.
By contrast, under existing regulations, an asylum officer conducting a credible fear interview is directed “to
elicit all relevant and useful information bearing on
whether the applicant has a credible fear of persecution
or torture.” 8 C.F.R. § 208.30(d). The asylum officer

29a
is specifically directed to “determine that the alien has
an understanding of the credible fear determination
process.” § 208.30(d)(2).
The Government disagrees with plaintiffs based on
two arguments. The Government first argues briefly
that § 1231(b)(3)(A) does not encompass a general antirefoulement obligation. It argues that the protection
provided by § 1231(b)(3)(A) applies to aliens only after
they have been ordered removed to their home country
at the conclusion of a regular removal proceeding under
§ 1229a. It writes:
Section 1231(b)(3) codifies a form of protection from
removal that is available only after an alien is adjudged removable.
See 8 U.S.C. § 1231(b)(3);
8 C.F.R. 1208.16(a). Aliens subject to MPP do not
receive a final order of removal to their home country
when they are returned (temporarily) to Mexico, and
so there is no reason why the same procedures would
apply. . . .
Blue Brief at 41 (emphasis in original).
The Government reads § 1231(b)(3)(A) too narrowly.
Section 1231(b)(3)(A) does indeed apply to regular removal proceedings under § 1229a, as evidenced, for example, by 8 C.F.R. § 1208.16(a) (discussing, inter alia,
the role of the Immigration Judge). But its application
is not limited to such proceedings. As described above,
and as recognized by the Supreme Court, Congress intended § 1253(h)(1), and § 1231(b)(3)(A) as its recodified
successor, to “parallel” Article 33 of the 1951 Convention. Aguirre-Aguirre, 526 U.S. at 427. Article 33 is
a general anti-refoulement provision, applicable whenever an alien might be returned to a country where his

30a
or her life or freedom might be threatened on account of
a protected ground. It is not limited to instances in
which an alien has had a full removal hearing with significant procedural protections, as would be the case under § 1229a.
The Government’s second argument is that the MPP
satisfies our anti-refoulement obligations by providing a
sufficiently effective method of determining whether aliens fear, or have reason to fear, returning to Mexico.
In its brief, the Government contends that asylum seekers who genuinely fear returning to Mexico have “every
incentive” affirmatively to raise that fear during their
interviews with asylum officers, and that Mexico is not a
dangerous place for non-Mexican asylum seekers. The
Government writes:
[N]one of the aliens subject to MPP are Mexican nationals fleeing Mexico, and all of them voluntarily
chose to enter and spend time in Mexico en route to
the United States. Mexico, moreover, has committed to adhering to its domestic and international obligations regarding refugees. Those considerations
together strongly suggest that the great majority of
aliens subject to MPP are not more likely than not to
face persecution on a protected ground or torture, in
Mexico. In the rare case where an MPP-eligible alien does have a substantial and well-grounded basis
for claiming that he is likely to be persecuted in Mexico, that alien will have every incentive to raise that
fear at the moment he is told that he will be returned.
Blue Brief at 45. However, the Government points to
no evidence supporting its speculations either that aliens, unprompted and untutored in the law of refoulement,

31a
will volunteer that they fear returning to Mexico, or that
there is little danger to non-Mexican aliens in Mexico.
The Government further asserts, again without supporting evidence, that any violence that returned aliens
face in Mexico is unlikely to be violence on account of a
protected ground—that is, violence that constitutes persecution. The Government writes:
[T]he basic logic of the contiguous-territory-return
statute is that aliens generally do not face persecution on account of a protected status, or torture, in
the country from which they happen to arrive by
land, as opposed to the home country from which they
may have fled. (International law guards against
torture and persecution on account of a protected
ground, not random acts of crime or generalized violence.)
Blue Brief at 40-41 (emphasis in original).
Plaintiffs, who are aliens returned to Mexico under
the MPP, presented sworn declarations to the district
court directly contradicting the unsupported speculations of the Government.
Several declarants described violence and threats of
violence in Mexico. Much of the violence was directed
at the declarants because they were non-Mexican—that
is, because of their nationality, a protected ground under asylum law. Gregory Doe wrote in his declaration:
I did not feel safe at Benito Juarez [a migrant shelter] because the neighbors kept trying to attack the
migrant community. The people who lived near the
shelter tried to hurt us because they did not want us
in their country. . . .

32a
At El Barretal [another migrant shelter], I felt a
little more secure because we had a high wall surrounding us. Even so, one night someone threw a
tear gas bomb into the shelter. When I tried to
leave the shelter, people in passing cars would often
yell insults at me like “get out of here, you pinches
Hondurans,” and other bad words that I do not want
to repeat.
Alex Doe wrote:
I know from personal experience and from the news
that migrants have a bad name here and that many
Mexicans are unhappy that so many of us are here.
I have frequently been insulted by Mexicans on the
street. . . . [O]ther asylum seekers and I had to
flee Playas [a neighborhood in Tijuana] in the middle
of the night because a group of Mexicans threw
stones at us and more people were gathering with
sticks and other weapons to try to hurt us.
Christopher Doe wrote:
The Mexican police and many Mexican citizens believe that Central Americans are all criminals.
They see my dark skin and hear my Honduran accent, and they automatically look down on me and label me as a criminal. I have been stopped and questioned by the Mexican police around five or six times,
just for being a Honduran migrant. During my
most recent stop, the police threatened to arrest me
if they saw me on the street again.
. . .
I have also been robbed and assaulted by Mexican
citizens. On two occasions, a group of Mexicans

33a
yelled insults, threw stones, and tried to attack me
and a group of other Caravan members.
Howard Doe wrote:
I was afraid to leave the house [where I was staying] because I had seen in the news that migrants like
myself had been targeted. While I was in Tijuana,
two young Honduran men were abducted, tortured
and killed.
. . .
On Wednesday, January 30, 2019, I was attacked
and robbed by two young Mexican men. They
pulled a gun on me from behind and told me not to
turn around. They took my phone and told me that
they knew I was Honduran and that if they saw me
again, they would kill me. Migrants in Tijuana are
always in danger[.]
Some of the violence in Mexico was threatened by
persecutors from the aliens’ home countries, and much
of that violence was on account of protected grounds—
political opinion, religion, and social group. Gregory
Doe wrote:
I am also afraid the Honduran government will find
me in Mexico and harm me. Even outside the country, the Honduran government often works with
gangs and criminal networks to punish those who oppose their policies. I am afraid that they might
track me down.
Dennis Doe, who had fled the gang “MS-13” in Honduras, wrote:
In Tijuana, I have seen people who I believe are MS13 gang members on the street and on the beach.

34a
They have tattoos that look like MS-13 tattoos . . .
and they dress like MS-13 members with short
sleeved button up shirts. I know that MS-13 were
searching for people who tried to escape them with at
least one of the caravans. This makes me afraid
that the people who were trying to kill me in Honduras will find me here.
Alex Doe, who had fled Honduras to escape the gang
“Mara 18” because of his work as a youth pastor and organizer, wrote:
I am also afraid that the Mara 18 will find me here in
Mexico. I am afraid that the Mara 18 might send
someone to find me or get information from someone
in the caravan. The Mara 18 has networks throughout Central America, and I have heard that their
power and connections in Mexico are growing.
Kevin Doe, who fled MS-13 because of his work as an
Evangelical Christian minister, wrote:
[When I was returned to Mexico from the United
States], I was met by a large group of reporters with
cameras. I was afraid that my face might show up
in the news. . . . I was afraid that the MS-13
might see my face in the news. They are a powerful,
ruthless gang and have members in Tijuana too.
Ian Doe wrote:
I am not safe in Mexico. I am afraid that the people
who want to harm me in Honduras will find me here.
I have learned from the news that there are members
of Central American gangs and narcotraffickers that
are present here in Mexico that could find and kill

35a
me. Honduran migrants like me are very visible because of our accents and the way that we look, and it
would not be hard for them to find me here.
Several declarants described interviews by asylum
officers in which they were not asked whether they
feared returning to Mexico. Gregory Doe wrote, “The
officer never asked me if I was afraid of being in Mexico
or if anything bad had happened to me here [in Mexico].”
Christopher Doe wrote:
I don’t remember [the officer] asking if I was afraid
to live in Mexico while waiting for my asylum hearing. If she had asked, I would have told her about
being stopped by the Mexican police and attacked by
Mexican citizens. I would also have told her I am
afraid that the people who threatened me in Honduras could find me in Mexico. . . .
Kevin Doe wrote:
The officer who was doing the talking couldn’t understand me, and I could not understand him very well
because he was rushing me through the interview and
I didn’t fully understand his Spanish. The interview
lasted about 4 or 5 minutes. . . . He never asked
me if I was afraid of returning to Mexico.
Two declarants wrote that asylum officers actively
prevented them from stating that they feared returning
to Mexico. Alex Doe wrote:
When I tried to respond and explain [why I had left
Honduras] the officer told me something like, “you
are only going to respond to the questions that I ask
you, nothing more.” This prevented me from providing additional information in the interview apart

36a
from the answers to the questions posed by the officer.
Dennis Doe wrote:
I was not allowed to provide any information other
than the answers to the questions I was asked. I expected to be asked more questions and to have the
opportunity to provide more details. But the interview was fairly short, and lasted only about 30
minutes. . . .
No one asked me if I was afraid to return to Mexico,
if I had received threats in Mexico, or if I had felt safe
in Mexico.
Two declarants did succeed in telling an asylum officer that they feared returning to Mexico, but to no
avail. Frank Doe wrote:
He never asked me if I was afraid of returning to
Mexico. At one point, I had to interrupt him to explain that I didn’t feel safe in Mexico. He told me
that it was too bad. He said that Honduras wasn’t
safe, Mexico wasn’t safe, and the U.S. isn’t safe either.
Howard Doe wrote:
I told the asylum officer that I was afraid [of returning to Mexico]. I explained that I’d been kidnapped
for fifteen days by Los Zetas in Tuxtla Gutierrez,
Chiapas, [Mexico], and that I’d managed to escape.
. . . Migrants in Tijuana are always in danger, and
I am especially afraid because the Zetas torture people who escape them.

37a
Despite having told their asylum officers that they
feared returning, Frank Doe and Howard Doe were returned to Mexico.
This evidence in the record is enough—indeed, far
more than enough—to establish that the Government’s
speculations have no factual basis. Amici in this case
have filed briefs bolstering this already more-thansufficient evidence. For example, Amnesty International USA, the Washington Office on Latin America,
the Latin America Working Group, and the Institute for
Women in Migration submitted an amicus brief referencing many reliable news reports corroborating the
stories told by the declarants. We referenced several
of those reports earlier in our opinion.
Local 1924 of the American Federation of Government Employees, a labor organization representing
“men and women who operate USCIS Asylum PreScreening Operation, which has been responsible for a
large part of USCIS’s ‘credible fear’ and ‘reasonable
fear’ screenings, and for implementing [the MPP],” also
submitted an amicus brief. Local 1924 Amicus Brief at
1. Local 1924 writes in its brief:
Asylum officers are duty bound to protect vulnerable
asylum seekers from persecution. However, under
the MPP, they face a conflict between the directives
of their departmental leaders to follow the MPP and
adherence to our Nation’s legal commitment to not
returning the persecuted to a territory where they
will face persecution. They should not be forced to
honor departmental directives that are fundamentally contrary to the moral fabric of our Nation and
our international and domestic legal obligations.

38a
Id. at 24.
Based on the Supreme Court’s conclusion that Congress intended in § 1253(h)(1) (the predecessor to
§ 1231(b)(3)(B)) to “parallel” the anti-refoulement provision of Article 33 of the 1951 Convention, and based on
the record in the district court, we conclude that plaintiffs have shown a likelihood of success on the merits
of their claim that the MPP does not comply with the
United States’ anti-refoulement obligations under
§ 1231(b). We need not, and do not, reach the question
whether the part of the MPP challenged as inconsistent
with our anti-refoulement obligations should have been
adopted through notice-and-comment rulemaking.
VI.

Other Preliminary Injunction Factors

In addition to likelihood of success on the merits, a
court must consider the likelihood that the requesting
party will suffer irreparable harm, the balance of the equities, and the public interest in determining whether a
preliminary injunction is justified. Winter, 555 U.S. at
20. “When the government is a party, these last two
factors merge.” Drakes Bay Oyster Co. v. Jewell,
747 F.3d 1073, 1092 (9th Cir. 2014) (citing Nken v.
Holder, 556 U.S. 418, 435 (2009)).
There is a significant likelihood that the individual
plaintiffs will suffer irreparable harm if the MPP is not
enjoined. Uncontested evidence in the record establishes that non-Mexicans returned to Mexico under the
MPP risk substantial harm, even death, while they await
adjudication of their applications for asylum.
The balance of equities favors plaintiffs. On one
side is the interest of the Government in continuing to
follow the directives of the MPP.
However, the

39a
strength of that interest is diminished by the likelihood,
established above, that the MPP is inconsistent with
8 U.S.C. §§ 1225(b) and 1231(b). On the other side is
the interest of the plaintiffs. The individual plaintiffs
risk substantial harm, even death, so long as the directives of the MPP are followed, and the organizational
plaintiffs are hindered in their ability to carry out their
missions.
The public interest similarly favors the plaintiffs.
We agree with East Bay Sanctuary Covenant:
On the one hand, the public has a “weighty” interest
“in efficient administration of the immigration laws
at the border.” Landon v. Plasencia, 459 U.S. 21,
34 (1982). But the public also has an interest in ensuring that “statutes enacted by [their] representatives” are not imperiled by executive fiat. Maryland v. King, 567 U.S. 1301, 1301 (2012) (Roberts,
C.J., in chambers).
932 F.3d at 779 (alteration in original).
VII.

Scope of the Injunction

The district court issued a preliminary injunction setting aside the MPP—that is, enjoining the Government
“from continuing to implement or expand the ‘Migrant
Protection Protocols’ as announced in the January 25,
2018 DHS policy memorandum and as explicated in
further agency memoranda.” Innovation Law Lab,
366 F. Supp. 3d at 1130. Accepting for purposes of argument that some injunction should issue, the Government objects to its scope.
We recognize that nationwide injunctions have become increasingly controversial, but we begin by noting
that it is something of a misnomer to call the district

40a
court’s order in this case a “nationwide injunction.”
The MPP operates only at our southern border and directs the actions of government officials only in the four
States along that border. Two of those states (California and Arizona) are in the Ninth Circuit. One of those
states (New Mexico) is in the Tenth Circuit. One of
those states (Texas) is in the Fifth Circuit. In practical
effect, the district court’s injunction, while setting aside
the MPP in its entirety, does not operate nationwide.
For two mutually reinforcing reasons, we conclude
that the district court did not abuse its discretion in setting aside the MPP.
First, plaintiffs have challenged the MPP under
the Administrative Procedure Act (“APA”). Section
706(2)(A) of the APA provides that a “reviewing court
shall . . . hold unlawful and set aside agency action
. . . not in accordance with law.” We held, above,
that the MPP is “not in accordance with” 8 U.S.C.
§ 1225(b). Section 706(2)(A) directs that in a case
where, as here, a reviewing court has found the agency action “unlawful,” the court “shall . . . set aside [the]
agency action.” That is, in a case where § 706(2)(A) applies, there is a statutory directive—above and beyond
the underlying statutory obligation asserted in the
litigation—telling a reviewing court that its obligation is
to “set aside” any unlawful agency action.
There is a presumption (often unstated) in APA cases
that the offending agency action should be set aside in
its entirety rather than only in limited geographical areas. “[W]hen a reviewing court determines that agency
regulations are unlawful, the ordinary result is that
rules are vacated—not that their application to the individual petitioners is proscribed.” Regents of the Univ.

41a
of Cal. v. U.S. Dep’t of Homeland Sec., 908 F3d 476, 511
(9th Cir. 2018) (internal quotation marks omitted).
“When a court determines that an agency’s action failed
to follow Congress’s clear mandate the appropriate remedy is to vacate that action.” Cal. Wilderness Coalition v. U.S. Dep’t of Energy, 631 F.3d 1072, 1095 (9th
Cir. 2011); see also United Steel v. Mine Safety & Health
Admin., 925 F.3d 1279, 1287 (D.C. Cir. 2019) (“The ordinary practice is to vacate unlawful agency action.”);
Gen. Chem. Corp. v. United States, 817 F.2d 844, 848
(D.C. Cir. 1987) (“The APA requires us to vacate the
agency’s decision if it is ‘arbitrary, capricious, an abuse
of discretion, or otherwise not in accordance with law.
. . . ”).
Second, cases implicating immigration policy have a
particularly strong claim for uniform relief. Federal
law contemplates a “comprehensive and unified” immigration policy. Arizona v. United States, 567 U.S. 387,
401 (2012). “In immigration matters, we have consistently recognized the authority of district courts to enjoin unlawful policies on a universal basis.” E. Bay
Sanctuary Covenant, 932 F.3d at 779. We wrote in Regents of the University of California, 908 F.3d at 511,
“A final principle is also relevant: the need for uniformity in immigration policy. . . . Allowing uneven
application of nationwide immigration policy flies in the
face of these requirements.” We wrote to the same effect in Hawaii v. Trump, 878 F.3d 662, 701 (9th Cir.
2017), rev’d on other grounds, 138 S. Ct. 2392 (2018):
“Because this case implicates immigration policy, a nationwide injunction was necessary to give Plaintiffs a
full expression of their rights.” The Fifth Circuit, one
of only two other federal circuits with states along our
southern border, has held that nationwide injunctions

42a
are appropriate in immigration cases. In sustaining a
nationwide injunction in an immigration case, the Fifth
Circuit wrote, “[T]he Constitution requires ‘an uniform
Rule of Naturalization’; Congress has instructed that
‘the immigration laws of the United States should be enforced vigorously and uniformly’; and the Supreme
Court has described immigration policy as ‘a comprehensive and unified system.’ ” Texas v. United States,
809 F.3d 134, 187-88 (5th Cir. 2015) (emphasis in original; citations omitted).
In Washington v. Trump,
847 F.3d 1151 (9th Cir. 2017), we relied on the Fifth Circuit’s decision in Texas to sustain the nationwide scope
of a temporary restraining order in an immigration case.
We wrote, “[W]e decline to limit the geographic scope of
the TRO. The Fifth Circuit has held that such a fragmented immigration policy would run afoul of the constitutional and statutory requirement for uniform immigration law and policy.” Id. at 1166-67.
Conclusion
We conclude that the MPP is inconsistent with
8 U.S.C. § 1225(b), and that it is inconsistent in part with
8 U.S.C. § 1231(b). Because the MPP is invalid in its
entirety due to its inconsistency with § 1225(b), it should
be enjoined in its entirety. Because plaintiffs have successfully challenged the MPP under § 706(2)(A) of the
APA, and because the MPP directly affects immigration
into this country along our southern border, the issuance of a temporary injunction setting aside the MPP
was not an abuse of discretion.

43a
We lift the emergency stay imposed by the motions
panel, and we affirm the decision of the district court.
AFFIRMED.

FERNANDEZ, Circuit Judge, dissenting:
I respectfully dissent from the majority opinion because I believe that we are bound by the published decision in Innovation Law Lab v. McAleenan (Innovation
I), 924 F.3d 503 (9th Cir. 2019) (per curiam).
More specifically, we are bound by both the law of the
circuit and the law of the case. Of course, the rules that
animate the former doctrine are not the same as those
that animate the latter. See Gonzalez v. Arizona,
677 F.3d 383, 389 n.4 (9th Cir. 2012) (en banc).
As we have said: “Circuit law . . . binds all
courts within a particular circuit, including the court of
appeals itself. Thus, the first panel to consider an issue
sets the law not only for all the inferior courts in the circuit, but also future panels of the court of appeals.”
Hart v. Massanari, 266 F.3d 1155, 1171 (9th Cir. 2001).
Moreover: “Once a panel resolves an issue in a precedential opinion, the matter is deemed resolved, unless
overruled by the court itself sitting en banc, or by the
Supreme Court.” Id. (footnote omitted). Published
opinions are precedential. See id. at 1177; see also
Gonzalez, 667 F.3d at 389 n.4. That remains true, even
if some later panel is satisfied that “arguments have
been characterized differently or more persuasively by
a new litigant,” 1 or even if a later panel is convinced that
United States v. Ramos-Medina, 706 F.3d 932, 939 (9th Cir.
2013).
1

44a
the earlier decision was “incorrectly decided” and “needs
reexamination.” 2 And those rules are not mere formalities to be nodded to and avoided. Rather, “[i]nsofar as
there may be factual differences between the current
case and the earlier one, the court must determine
whether those differences are material to the application of the rule or allow the precedent to be distinguished on a principled basis.” Hart, 266 F.3d at 1172.
In this case, there are no material differences—in fact,
the situation before this panel is in every material way
the same as that before the motions panel. Furthermore, there is no doubt that motions panels can publish
their opinions, 3 even though they do not generally do so. 4
Once published, there is no difference between motions
panel opinions and other opinions; all are entitled to be
considered with the same principles of deference by ensuing panels. Thus, any hesitation about whether they
should be precedential must necessarily come before the
panel decides to publish, not after. As we held in Lair
v. Bullock, 798 F.3d 736 (9th Cir. 2015):
Lair contended at oral argument that a motions
panel’s decision cannot bind a merits panel, and as a
result we are not bound by the motions panel’s analysis in this case. Not so. We have held that motions panels can issue published decisions. . . .
[W]e are bound by a prior three-judge panel’s pub-

Naruto v. Slater, 888 F.3d 418, 425 n.7 (9th Cir. 2018).
See 9th Cir. Gen. Order 6.3(g)(3)(ii); see also id. at 6.4(b).
4
See Haggard v. Curry, 631 F.3d 931, 933 n.1 (9th Cir. 2010) (per
curiam).
2
3

45a
lished opinions, and a motions panel’s published opinion binds future panels the same as does a merits
panel’s published opinion.
Id. at 747 (citations omitted). Therefore, the legal determinations in Innovation I are the law of the circuit.
We have explained the law of the case doctrine as “a
jurisprudential doctrine under which an appellate court
does not reconsider matters resolved on a prior appeal.”
Jeffries v. Wood, 114 F.3d 1484, 1488-89 (9th Cir. 1997)
(en banc), overruled on other grounds by Gonzalez,
677 F.3d at 389 n.4. While we do have discretion to decline application of the doctrine, “[t]he prior decision
should be followed unless: (1) the decision is clearly erroneous and its enforcement would work a manifest injustice, (2) intervening controlling authority makes reconsideration appropriate, or (3) substantially different
evidence was adduced at a subsequent trial.” Id. at
1489 (internal quotation marks and footnote omitted). 5
We have also indicated that, in general, “our decisions
at the preliminary injunction phase do not constitute the
law of the case,” 6 but that is principally because the matter is at the preliminary injunction stage and a further
development of the factual record as the case progresses
to its conclusion may well require a change in the result. 7
The majority seems to add a fourth exception, that is, motions
panel decisions never constitute the law of the case. That would be
strange if they can constitute the law of the circuit, which they can.
6
Ranchers Cattlemen Action Legal Fund United Stockgrowers of
Am. v. U.S. Dep’t of Agric., 499 F.3d 1108, 1114 (9th Cir. 2007); see
also Stormans, Inc. v. Wiesman, 794 F.3d 1064, 1074, 1076 n.5 (9th
Cir. 2015); Ctr. for Biological Diversity v. Salazar, 706 F.3d 1085,
1090 (9th Cir. 2013).
7
See Ctr. for Biological Diversity, 706 F.3d at 1090.
5

46a
Even so, decisions “on pure issues of law . . . are
binding.” Ranchers Cattlemen, 499 F.3d at 1114. Of
course, the case at hand has not progressed beyond the
preliminary injunction stage. It is still at that stage,
and the factual record has not significantly changed between the record at the time of the decision regarding
the stay motion and the current record. Therefore, as
I see it, absent one of the listed exceptions, which I do
not perceive to be involved here, the law of the case doctrine would also direct that we are bound by much of the
motions panel’s decision in Innovation I.
Applying those doctrines:
(1) The individuals and the organizational plaintiffs
are not likely to succeed on the substantive claim that
the Migrant Protection Protocols directive (the MPP)
was not authorized by 8 U.S.C. § 1225(b)(2)(C). Innovation I, 924 F.3d at 506-09.
(2) The individuals and organizational plaintiffs are
not likely to succeed on their procedural claim that the
MPP’s adoption violated the notice and comment provisions of the Administrative Procedure Act. See 5 U.S.C.
§ 553(b), (c); Innovation I, 924 F.3d at 509-10.
(3) As the motions panel determined, due to the errors in deciding the issues set forth in (1) and (2), the
preliminary injunction lacks essential support and cannot stand. Thus, we should vacate and remand.
(4) I express no opinion on whether the district
court could issue a narrower injunction targeting the
problem identified by Judge Watford, that is, the dearth

47a
of support for the government’s unique rule 8 that an alien processed under the MPP must spontaneously proclaim his fear of persecution or torture in Mexico. See
Innovation I, 924 F.3d at 511-12 (Watford, J., concurring)
Thus, I respectfully dissent.

Cf. 8 C.F.R. § 235.3(b)(2)(i). That regulation describes information which must be provided to an alien facing expedited removal,
including a Form I-867AB; the A portion of the pair of forms explains
that the United States provides protection for those who face persecution or torture upon being sent home, and the B portion requires
asking specific questions about whether the alien fears that kind of
harm. See U.S. Immigration & Naturalization Serv., Forms I-867A
& I-867B, reprinted in 9 Charles Gordon et al., Immigration Law &
Procedure app. B, at 102-05 (2019).
8

48a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 19-cv-00807-RS
INNOVATION LAW LAB, ET AL., PLAINTIFFS
v.
KIRSTJEN NIELSEN, ET AL., DEFENDANTS
Filed:

Apr. 8, 2019

ORDER GRANTING MOTION
FOR PRELIMINARY INJUNCTION

I.

INTRODUCTION

In January of this year, the Department of Homeland
Security (“DHS”) began implementing a new policy regarding non-Mexican asylum seekers arriving in the
United States from Mexico. 1 Denominated the “Migrant Protection Protocols” (“MPP”), the policy calls for
such persons, with certain exceptions, to be “returned to
Mexico for the duration of their immigration proceedings,” rather than either being detained for expedited or

The policy is administered by DHS sub-agencies Citizenship
and Immigration Services (“CIS”), Customs and Border Protection
(“CBP”), and Immigration and Customs Enforcement (“ICE”)).
The defendants named in this action are those agencies, and certain of their officials (collectively “DHS” or “the Government”).
1

49a
regular removal proceedings, or issued notices to appear for regular removal proceedings. This case presents two basic questions: (1) does the Immigration
and Nationalization Act authorize DHS to carry out the
return policy of the MPP, and; (2) even assuming Congress has authorized such returns in general, does the
MPP include sufficient safeguards to comply with DHS’s
admitted legal obligation not to return any alien to a territory where his or her “life or freedom would be threatened”? In support of their motion for a preliminary injunction, the plaintiffs have sufficiently shown the answer to both questions is “no.”
First, the statute that vests DHS with authority in
some circumstances to return certain aliens to a “contiguous territory” cannot be read to apply to the individual
plaintiffs or others similarly situated. Second, even assuming the statute could or should be applied to the individual plaintiffs, they have met their burden to enjoin
the MPP on grounds that it lacks sufficient protections
against aliens being returned to places where they face
undue risk to their lives or freedom. Accordingly, plaintiffs’ motion for a preliminary injunction will be granted. 2
To be clear, the issue in this case is not whether it
would be permissible for Congress to authorize DHS to
return aliens to Mexico pending final determinations as
to their admissibility. Nor does anything in this decision imply that DHS would be unable to exercise any
such authority in a legal manner should it provide adequate safeguards. Likewise, the legal question is not
Plaintiffs’ motion was filed as an application for a temporary
restraining order. In response to a court scheduling order, the parties stipulated to deem plaintiffs’ motion as one for a preliminary
injunction, which now has been fully briefed and heard.
2

50a
whether the MPP is a wise, intelligent, or humane policy, or whether it is the best approach for addressing the
circumstances the executive branch contends constitute
a crisis. Policy decisions remain for the political branches of government to make, implement, and enforce.
Rather, this injunction turns on the narrow issue of
whether the MPP complies with the Administrative Procedures Act (“APA”). The conclusion of this order is
only that plaintiffs are likely to show it does not, because
the statute DHS contends the MPP is designed to enforce does not apply to these circumstances, and even if
it did, further procedural protections would be required
to conform to the government’s acknowledged obligation to ensure aliens are not returned to unduly dangerous circumstances.
Furthermore, nothing in this order obligates the government to release into the United States any alien
who has not been legally admitted, pursuant to a fullyadjudicated asylum application or on some other basis.
DHS retains full statutory authority to detain all aliens
pending completion of either expedited or regular
removal proceedings.
See Jennings v. Rodriguez,
138 S. Ct. 830 (2018).
II.

BACKGROUND

In December of 2018, the Secretary of the DHS,
Kirstjen Nielsen, announced adoption of the MPP,
which she described as a “historic action to confront
illegal immigration.” See December 20, 2018 press release, “Secretary Kirstjen M. Nielsen Announces Historic Action to Confront Illegal Immigration,” Administrative Record (“AR”) 16-18. DHS explained that pur-

51a
suant to the MPP, “the United States will begin the process of invoking Section 235(b)(2)(C) of the Immigration
and Nationality Act.” Id. DHS asserted that under
the claimed statutory authority, “individuals arriving in
or entering the United States from Mexico—illegally or
without proper documentation—may be returned to
Mexico for the duration of their immigration proceedings.” Id.
In January of 2019, DHS issued a further press release regarding the implementation of the MPP. See
“Migrant Protection Protocols,” AR 11-15. In a paragraph entitled “What Gives DHS the Authority to Implement MPP?” the press release asserts:
Section 235 of the Immigration and Nationality Act
(INA) addresses the inspection of aliens seeking to
be admitted into the U.S. and provides specific procedures regarding the treatment of those not clearly
entitled to admission, including those who apply for
asylum. Section 235(b)(2)(C) provides that “in the
case of an alien . . . who is arriving on land
(whether or not at a designated port of arrival) from
a foreign territory contiguous to the U.S.,” the Secretary of Homeland Security “may return the alien to
that territory pending a [removal] proceeding under
§ 240” of the INA.
The positions taken in press releases reflect contemporaneous policy memoranda. On January 25, 2018,
Secretary Nielsen issued a memorandum stating:
[T]he United States will begin the process of implementing Section 235(b)(2)(C) . . . with respect to
non-Mexican nationals who may be arriving on land
(whether or not at a designated port of entry) seeking

52a
to enter the United States from Mexico illegally or
without proper documentation.
DHS Memorandum, AR 7-10; see also CIS Policy Memorandum, January 28, 2019, “Guidance for Implementing Section 235(b)(2)(C) of the Immigration and Nationality Act and the Migrant Protection Protocols. AR
2271-2275.
Thus, it is undisputed that the MPP represents a legal exercise of defendants’ authority regarding treatment of alien applicants for admission if and only if section 235(b)(2)(C) of the Immigration and Nationality Act
applies to the individual plaintiffs and those similarly
situated. Section 235(b)(2)(C) is codified at 8 U.S.C.
§ 1225(b)(2)(C) and will hereafter be referred to as the
“contiguous territory return provision.”
It is similarly undisputed that prior to adoption of the
MPP, aliens applying for asylum at a port of entry on
the U.S.-Mexico border were either placed in expedited
removal proceedings pursuant subparagraph (1) of
8 U.S.C. § 1225(b), or in defendants’ discretion were
placed in regular removal proceedings described in
8 U.S.C. § 1229a. There also is no apparent dispute
that aliens placed directly into regular removal proceedings frequently were permitted to remain in the United
States during the pendency of those proceedings, and
were not detained in custody. In announcing the MPP,
Secretary Nielsen asserted the new policy is intended to
address a purported problem of aliens “trying to game
the system” by making groundless asylum claims and
then “disappear[ing] into the United States, where many
skip their court dates.” See December 20, 2018 press release, AR 16.

53a
Although the contiguous territory return provision
has existed in the statute for many years, the extent to
which it has previously been utilized is unclear in the
present record. While the provision theoretically could
be applied with respect to aliens arriving from either
Mexico or Canada, the focus of the MPP is aliens transiting through Mexico, who originated from other countries. When this suit was filed, the MPP had been implemented only at the San Ysidro port of entry on the
California-Mexico border. Defendants have since advised that it has now been extended to the Calexico port
of entry, also on the California-Mexico border, and to El
Paso, Texas. Indications are that it will be further extended unless enjoined.
The CIS Policy Memorandum providing guidance for
implementing the MPP specifically addresses the issue
of aliens who might face persecution if returned to Mexico. Under that guidance, aliens who, unprompted, express a fear of return to Mexico during processing will
be referred to an asylum officer for interview. CIS
Policy Memorandum, AR 2273. The asylum officer’s
determination, however, is not reviewable by an immigration judge. Id at 2274. Although DHS insists this
policy satisfies all obligations the United States has under
domestic and international law to avoid “refoulement”—
the forcible return of prospective asylum seekers to
places where they may be persecuted—there is no dispute that the procedural protections are less robust than
those available in expedited removal proceedings, or
those that apply when a decision is made that an alien is
subject to removal at the conclusion of regular removal
proceedings.

54a
Plaintiffs in this action are eleven individuals who
were “returned” to Mexico under the MPP, and six nonprofit organizations that provide legal services and advocacy related to immigration issues. 3 Plaintiffs’ claims
in this action are brought under the Administrative Procedures Act and international law, although the preliminary injunction is sought only under the former.
III.
A.

LEGAL STANDARD

Injunctions

An application for preliminary injunctive relief requires the plaintiff to “establish that he is likely to succeed on the merits, that he is likely to suffer irreparable
harm in the absence of preliminary relief, that the balance of equities tips in his favor, and that an injunction
is in the public interest.” Winter v. N.R.D.C., Inc.,
555 U.S. 7, 21-22 (2008). The Ninth Circuit has clarified, however, that courts in this Circuit should still evaluate the likelihood of success on a “sliding scale.” Alliance for Wild Rockies v. Cottrell, 632 F.3d 1127, 1134
(9th Cir. 2011) (“[T]he ‘serious questions’ version of the
sliding scale test for preliminary injunctions remains viable after the Supreme Court’s decision in Winter.”).
As quoted in Cottrell, that test provides that, “[a] preliminary injunction is appropriate when a plaintiff
demonstrates . . . that serious questions going to
the merits were raised and the balance of hardships tips
sharply in the plaintiff’s favor,” provided, of course, that
“plaintiffs must also satisfy the other [Winter] factors”
including the likelihood of irreparable harm. Id. at
1135.
The unopposed motion of the individual plaintiffs to proceed in
this litigation under pseudonyms (Dkt. No. 4) is granted.
3

55a
B.

The APA

Under section 706 of the APA, a reviewing court must
“hold unlawful and set aside agency action, findings, and
conclusions found to be . . . arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance with
law; contrary to constitutional right, power, privilege, or
immunity; in excess of statutory jurisdiction, authority,
or limitations, or short of statutory right; [or] without
observance of procedure required by law.” 5 U.S.C.
§ 706(2)(A)-(D). Accordingly, the decision-making process that ultimately leads to the agency action must be
“logical and rational.” Allentown Mack Sales & Serv.,
Inc. v. NLRB, 522 U.S. 359, 374 (1998). Courts should
be careful, however, not to substitute their own judgment for that of the agency. Suffolk Cty. v. Sec’y of Interior, 562 F.2d 1368, 1383 (2d Cir. 1977). Ultimately,
a reviewing court may uphold agency action “only on the
grounds that the agency invoked when it took the action.” Michigan v. EPA, 135 S. Ct. 2699, 2710 (2015).
Post hoc rationalizations may not be considered.
American Textile Mfrs. Inst., Inc. v. Donovan, 452 U.S.
490, 539 (1981). In evaluating APA claims, courts typically limit their review to the Administrative Record existing at the time of the decision. Sw. Ctr. for Biological Diversity v. U.S. Forest Service, 100 F.3d 1443, 1450
(9th Cir. 1996); accord Ranchers Cattlemen Action Legal Fund United Stockgrowers of Am. v. U.S. Dep’t of
Agric., 499 F.3d 1108, 1117 (9th Cir. 2007). 4
Here, plaintiffs submit substantial evidence outside the administrative record, which defendants move to strike and which plaintiffs
move separately to deem admitted. The parties agree extra-record
evidence is admissible for limited purposes, including to support
standing or a showing of irreparable harm. Plaintiffs stipulate to
4

56a
IV.
A.

DISCUSSION

Justiciability

At the threshold, defendants oppose plaintiffs’ motion for preliminary relief by arguing their claims simply
are not justiciable. Defendants advance several interrelated points. First, defendants contend the central
issue is fundamentally one of prosecutorial discretion,
and therefore immune from judicial review. Were
plaintiffs in fact challenging a policy decision to place
them in regular removal proceedings as opposed to expedited removal proceedings, that argument might be
viable.
As discussed below, however, plaintiffs concede DHS
has such discretion, and none of their claims in this action rest on a contrary position. Rather, the complaint
here alleges the statute on which defendants rely simply
does not confer on DHS the powers it claims to be exercising under the MPP. While defendants are free to
argue they have discretion under the statute to adopt
and enforce the MPP, whether or not they actually do is
a justiciable question.
Next, defendants contend several different sections
of the INA preclude judicial review. Defendants first
cite 8 U.S.C. § 1252(g), which provides that “[e]xcept as

having the present motion adjudicated based on the administrative
record presented by defendants, without waiving their right to challenge the completeness of that record at a later junction. This order relies only on matters in the administrative record or which the
parties otherwise agree may be considered. Further rulings on
specific aspects of the motions to strike and to admit accordingly
need not be addressed at this juncture.

57a
provided in this section . . . no court shall have jurisdiction to hear any cause or claim by or on behalf of
any alien arising from the decision or action by the [Secretary] to commence proceedings.” Defendants argue
that provision is “designed to give some measure of protection to . . . discretionary determinations” like
“the initiation or prosecution of various stages in the deportation process,” and so bars claims “attempt[ing] to
impose judicial constraints upon prosecutorial discretion.” Reno v. Am.-Arab Anti-Discrimination Comm.,
525 U.S. 471, 485 n.9 (1999). This argument, however,
turns on the conclusion that if DHS has discretion to apply the contiguous return provision to persons in the circumstances of the individual plaintiffs, its decisions to
return or not return any particular alien under any such
authority, might not be subject to review.
Defendants next invoke 8 U.S.C. § 1252(a), which
provides, in part, “[n]otwithstanding any other provision of law,” “no court shall have jurisdiction to review
. . . any other decision or action of the . . . Secretary of Homeland Security the authority for which is
specified under this subchapter to be in the discretion of
the . . . Secretary.” As defendants admit, however, this provision applies when the relevant decision is
“specified by statute to be in the discretion of the” the
Secretary. Kucana v. Holder, 558 U.S. 233, 248 (2010).
The very point of dispute in this action is whether section 1225(b)(2)(C) applies such that DHS has such discretion, or not. That threshold question is justiciable.
Defendants further argue 8 U.S.C. § 1252(a) and (e)
jointly preclude review. As noted, § 1252(a) does not
foreclose examination of whether application of the con-

58a
tiguous territory return provision to the named plaintiffs is legally correct. Defendants also assert section
1252(a)(2)(A) provides that no court shall have jurisdiction, except as permitted in section 1252(e), to review
“procedures and policies adopted by the [Secretary] to
implement the provisions of section 1225(b)(1).” To the
extent that is a new argument, it fails because plaintiffs
in this action are not challenging the discretionary decision to refrain from placing them in expedited removal under 1225(b)(1), and are instead litigating what the consequences of placing them in section 1229a proceedings
should or should not be.
The final issue is the potential applicability of section
1252(e)(3).
That subparagraph provides no court,
other than the United States District Court for the District of Columbia, has jurisdiction to review “determinations under section 1225(b) of this title and its implementation,” including “whether such a . . . written
policy directive, written policy guideline, or written procedure issued by or under the authority of the [Secretary] to implement such section, is not consistent with
applicable provisions of this subchapter or is otherwise
in violation of law.” 8 U.S.C. § 1252(e)(3)(A). On its
face, this provision arguably requires plaintiffs’ claims
to proceed exclusively in the District of Columbia. In
light of that concern, the parties were invited to provide
further briefing after the hearing on the motion for preliminary relief. See Dkt. No. 68.
Plaintiffs argue section 1252(e)(3) is intended only to
invest jurisdiction in the district court of the District of
Columbia to hear systemic challenges specifically addressing the expedited removal scheme. Thus, plaintiffs argue, the provision’s reference to “determinations

59a
under section 1225(b) of this title and its implementation,”
rather than “determinations under section 1225(b)(1)”
should be seen as nothing more than a “scrivener’s error.”
The question is close, because section 1252(e)(3) otherwise would appear to describe the issues presented in
this case quite well. As noted, it expressly refers to review of issues such as, “whether such a regulation, or a
written policy directive, written policy guideline, or
written procedure issued by or under the authority of
the Attorney General to implement such section, is not
consistent with applicable provisions of this subchapter
or is otherwise in violation of law.” That lines up neatly
with the main thrust of plaintiffs’ argument here—that
contrary to defendants’ claim the MPP merely addresses when discretion should be exercised to apply the
contiguous territory return provision, by definition the
provision in fact does not apply to plaintiffs.
Nevertheless, plaintiffs have the better argument
that section 1252(e)(3) should not be read to require
them to bring these claims in the District of Columbia.
Although statutory titles and headings are not dispositive, they are instructive. See Fla. Dep’t of Revenue v.
Piccadilly Cafeterias, Inc., 554 U.S. 33, 47, 128 S. Ct.
2326 (2008) (“To be sure, a subchapter heading cannot
substitute for the operative text of the statute . . .
[T]he title of a statute . . . cannot limit the plain
meaning of the text. Nonetheless, statutory titles and
section headings are tools available for the resolution of
a doubt about the meaning of a statute.”) (internal quotations and citations omitted).
Here, section 1252 as a whole is entitled, “Judicial review of orders of removal,” and most of its provisions are

60a
focused on issues relating to review of individual decisions to remove an alien. More to the point in question
here, subparagraph (e) is entitled “Judicial review of orders under section 1225(b)(1)” (emphasis added).
Other sub-subparagraphs of (e) explicitly indicate that
they are applicable to challenges to determinations
made under 1225(b)(1). See § 1252(e)(1)(A) (“ . . . in
accordance with section 1225(b)(1) . . . ); § 1252(e)(2)
(“any determination made under section 1225(b)(1).
. . . ”); § 1252(e)(4)(A) (“ . . . an alien who was not
ordered removed under section 1225(b)(1) of this title”);
§ 1252(e)(5) (“ . . . an alien has been ordered removed under section 1225(b)(1) of this title”).
Given that sub-subparagraphs (1), (2), (4), and (5) of
8 U.S.C § 1252(e) all expressly invoke section 1225(b)(1),
the mere fact that § 1252(e)(3) fails to state “1225(b)(1)”
instead of only “1225(b)” is too thin a reed on which to
conclude that jurisdiction of this action lies exclusively
in the federal court of the District of Columbia. The
omission of “(1)” may or may not constitute a “scrivener’s error,” in the traditional sense of that phrase, but
it is not a basis to disregard the clear import of the structure of section 1252 and subparagraph (e).
Challenges to “validity of the system” undeniably are
subject to section 1252(e)(3), and therefore arguably
subject to exclusive jurisdiction in the District of Columbia. 5 In context, however, “the system” should be understood as a reference to the expedited removal procedure authorized under section 1225(b)(1). There can
Plaintiffs contend that even where section 1252(e)(3) applies and
permits jurisdiction in the District of Columbia, it does not preclude
jurisdiction elsewhere. While that proposition appears dubious at
best, the question need not be decided here.
5

61a
be no dispute that this action is not a challenge to that
“system.” Rather, plaintiffs acknowledge both that they
are subject to expedited removal and that DHS has discretion to place them instead into regular removal proceedings under 8 U.S.C. § 1229a. Indeed, in essence,
plaintiffs are arguing that because they are subject to
expedited removal, they should at a minimum have the
protections they would enjoy under that regime, either
by being exempt from contiguous territorial return,
and/or by having additional procedural and substantive
protections against being sent to places in which they
would not be safe from persecution.
Accordingly, this action is not a challenge to the “system” of expedited removal. Given the overall structure
of section 1252(e), the most reasonable construction of
subparagraph (3) is that it applies only to such challenges.
See Porter v. Nussle, 534 U.S. 516, 528,
122 S. Ct. 983 (2002). (“The placement of § 1146(a)
within a subchapter expressly limited to postconfirmation matters undermines Piccadilly’s view that § 1146(a)
covers preconfirmation transfers.”).
As a result,
whether presented as a jurisdictional issue or one of
venue, 8 U.S.C. § 1252(e)(3) is not a bar to the particular
claims plaintiffs present in this forum. 6
Defendants also seek a discretionary transfer under 28 U.S.C.
§ 1404 to the Southern District of California. Although the MPP
was first implemented at a border crossing point in that district,
defendants have not shown that the balance of factors applicable
under § 1404 warrant a transfer. Plaintiffs’ choice of forum is
supported by the institutional plaintiffs’ presence in this district
and is therefore entitled to deference. The issues in the litigation
largely involve legal questions not tied to any district and/or federal policy decisions not made in or limited to the Southern District
of California. The motion to transfer is therefore denied.
6

62a
B.

Standing

In a footnote, defendants assert “[t]he organizational
Plaintiffs lack standing because they lack a ‘judicially
cognizable interest in the prosecution or nonprosecution
of another.’ ” Opposition at 10, n.5. (quoting Linda
R.S. v. Richard D., 410 U.S. 614, 619 (1973)). Defendants concede, however, that their standing arguments
are foreclosed by the holding in East Bay Sanctuary
Covenant v. Trump, 909 F.3d 1219, 1240 (9th Cir. 2018),
where the Ninth Circuit held that similarly situated organizational plaintiffs have organizational standing premised on a diversion of resources caused by the challenged
government actions. See id. at 1242.
Defendants state they “respectfully disagree with
that ruling” and question standing only to preserve their
rights on appeal. Nevertheless, to the extent defendants argue East Bay Sanctuary is factually distinguishable, their position is not persuasive. It is true, as defendants point out, that East Bay involved a different
statutory provision, and that standing may turn on
whether a plaintiff is “arguably within the zone of interests to be protected or regulated by the statute . . .
in question.” Clarke v. Sec. Indus. Ass’n., 479 U.S. 388,
396 (1987). Nevertheless, the organizational plaintiffs
have made a showing that is stronger, if anything, than
that in East Bay Sanctuary. Plaintiffs’ organizational
standing in that case was premised on various broad “diversion of resources” arguments and the potential loss
of funding. See, e.g., 909 F.3d at 1242 (“The Organizations have also offered uncontradicted evidence that enforcement of the Rule has required, and will continue to
require, a diversion of resources, independent of expenses for this litigation, from their other initiatives.”)

63a
Here, the organizational plaintiffs have made a showing
that the challenged policy directly impedes their mission, in that it is manifestly more difficult to represent
clients who are returned to Mexico, as opposed to being
held or released into the United States. Additionally,
there is no suggestion by defendants that the individual
plaintiffs lack standing. Accordingly, to whatever extent defendants may have challenged standing, there is
no basis to preclude preliminary relief on such grounds. 7
C.

Showing on the merits

1.

Structure of 8 U.S.C. § 1225

The statute at the center of this action is 8 U.S.C.
§ 1225, which is entitled, “Inspection by immigration officers; expedited removal of inadmissible arriving aliens; referral for hearing.” Paragraph (a) of the statute provides generally that aliens who are arriving in
the United States, or who have not already been admitted, are deemed to be applicants for admission and that
they “shall be inspected by immigration officers.”8 Paragraph (b) then divides such applicants for admission
into two categories.
Subparagraph (b)(1) is entitled, “[i]nspection of aliens arriving in the United States and certain other aliens who have not been admitted or paroled.” It provides, in short, that aliens who arrive in the United
Furthermore, defendants have not challenged the standing of
the individual plaintiffs to bring these claims or to seek preliminary
relief.
8
For clarity, all statutory exceptions that are not applicable to
plaintiffs and that are not relevant to the statutory construction
analysis will be omitted from quotations and the discussion in this
order.
7

64a
States without specified identity and travel documents,
or who have committed fraud in connection with admission, are to be “removed from the United States without
further hearing or review” unless they apply for asylum or
assert a fear of persecution. 8 U.S.C. § 1225(b)(1)(A)(i).
This procedure is known as “expedited removal.” 9
Subparagraph (b)(1) provides that aliens who indicate either an intention to apply for asylum or a fear of
persecution are to be referred to an asylum officer for
an interview. § 1225(b)(1)(A)(ii). The officer is to
make a written record of any determination that the alien has not shown a credible fear. § 1225(b)(1)(B)(iii)(II).
The record is to include a summary of the material facts
presented by the alien, any additional facts relied upon
by the officer, and the officer’s analysis of why, in the
light of such facts, the alien has not established a credible fear of persecution. Id.
The alien in that scenario is entitled to review by an
immigration judge of any adverse decision, including an
opportunity for the alien to be heard and questioned by
the immigration judge, either in person or by telephonic
or video connection. § 1225(b)(1)(B)(iii)(II). Additionally, aliens are expressly entitled to receive information concerning the asylum interview and to consult
with a person or persons of the alien’s choosing prior to
the interview and any review by an immigration judge.
§ 1225(b)(1)(B)(iv). Thus, an alien processed for “expe-

Subparagraph (b)(1) also expressly gives defendants discretion
to apply expedited removal to aliens already present in the United
States who have not been legally admitted or paroled, if they are
unable to prove continuous presence in the country for more than
two years. § 1225(b)(1)(A)(iii).
9

65a
dited” removal under subparagraph (b)(1) still has substantial procedural safeguards against being removed to
a place where he or she may face persecution.
Subparagraph (b)(2) is entitled, “[i]nspection of other
aliens” (emphasis added). It provides that aliens seeking admission are “to be detained for a proceeding under
section 1229a of [Title 8]” unless they are “clearly and
beyond a doubt entitled to be admitted.” § 1225(b)(2)(A).
Section 1229a, in turn, is entitled “Removal proceedings” and sets out the procedures under which immigration judges generally “conduct proceedings for deciding
the inadmissibility or deportability of an alien.”
8 U.S.C. § 1229a (a)(1).
Section 1225 subparagraph (b)(2)(B) expressly provides that (b)(2)(A) “shall not apply to an alien . . .
to whom paragraph (1) applies.” Thus, on its face, section 1225 divides applicants for admission into two mutually exclusive categories. Subparagraph (b)(1) addresses aliens who are subject to expedited removal.
Subparagraph (b)(2) addresses those who are either
clearly and beyond a doubt entitled to admission, or
whose application for admission will be evaluated by an
administrative law judge in section 1229a proceedings if
they are not.
Although not expressly addressing mutual exclusivity of the two categories, the Supreme Court has described the operation of section 1225 similarly:
[A]pplicants for admission fall into one of two categories, those covered by § 1225(b)(1) and those covered
by § 1225(b)(2). Section 1225(b)(1) applies to aliens
initially determined to be inadmissible due to fraud,
misrepresentation, or lack of valid documentation.

66a
See § 1225(b)(1)(A)(i) (citing §§ 1182(a)(6)(C), (a)(7)).
. . . Section 1225(b)(2) is broader. It serves as a
catchall provision that applies to all applicants for admission not covered by § 1225(b)(1).
Jennings v. Rodriguez, 138 S. Ct. 830, 837 (2018).
As set out above, there is no dispute that the MPP
purports to be an implementation of the contiguous territory return provision, which appears in the statute as
a sub-subparagraph under subparagraph (b)(2). The
provision states, in full:
In the case of an alien described in subparagraph (A)
who is arriving on land (whether or not at a designated port of arrival) from a foreign territory contiguous to the United States, the Attorney General may
return the alien to that territory pending a proceeding under section 1229a of this title.
8 U.S.C. § 1225(b)(2)(C). 10
On its face, therefore, the contiguous territory return
provision may be applied to aliens described in subparagraph (b)(2)(A). Pursuant to subparagraph (b)(2)(B),
however, that expressly excludes any alien “to whom
paragraph (1) applies.”
Plaintiffs’ complaint includes an assertion that the contiguous
territory return provision may lawfully be applied only to aliens
who are “from” the contiguous territory. Complaint, para. 149.
It may be the individual plaintiffs contend they are not subject to
the provision because they are “from” countries other than Mexico.
Plaintiffs did not advance this point in briefing, and it is not compelling. The statute refers to aliens “arriving on land . . .
from a foreign territory contiguous to the United States.” This
language plainly describes the alien’s entry point, not his or her
country of origin.
10

67a
2.

Application of the contiguous territory return
provision to the individual plaintiffs

At least for purposes of this motion, there is no dispute that the individual plaintiffs are asylum seekers
who lack valid admission documents, and who therefore
ordinarily would be subject to expedited removal proceedings under subparagraph (1) of section 1225. Applying the plain language of the statute, they simply are
not subject to the contiguous territory return provision.
Defendants advance three basic arguments to contend the plain language should not apply and that therefore the MPP represents a legal exercise of DHS’s authority under the contiguous return provision. First,
defendants rely on well-established law, conceded by
plaintiffs, that DHS has prosecutorial discretion to place
aliens in regular removal proceedings under section
1229a notwithstanding the fact that they would qualify
for expedited removal under subparagraph (b)(1). Indeed, defendants are correct that the apparently mandatory language of subparagraph (b)(1)—“the officer
shall order the alien removed from the United States
without further hearing or review. . . . ”—does not
constrain DHS’s discretion.
In Matter of E-R-M- & L-R-M, 25 I. & N. Dec. 520
(BIA 2011) the Board of Immigration Appeals rejected
a contention that aliens subject to expedited removal
could not be placed directly into 1229a proceedings instead.
[W]e observe that the issue arises in the context of a
purported restraint on the DHS’s exercise of its prosecutorial discretion. In that context, we find that
Congress’ use of the term “shall” in section 235(b)(1)

68a
(A)(i) of the Act does not carry its ordinary meaning,
namely, that an act is mandatory. It is common for
the term “shall” to mean “may” when it relates to decisions made by the Executive Branch of the Government on whether to charge an individual and on what
charge or charges to bring.
25 I. & N. Dec. at 522; see also, Matter of J-A-B,
27 I. & N. Dec. 168 (BIA 2017) (“The DHS’s decision to
commence removal proceedings involves the exercise of
prosecutorial discretion, and neither the Immigration
Judges nor the Board may review a decision by the DHS
to forgo expedited removal proceedings or initiate removal proceedings in a particular case.”). Plaintiffs do
not dispute that DHS holds such discretion and even expressly acknowledge it in the complaint. See Complaint, para. 73 (“Although most asylum seekers at the
southern border lack valid entry documents and are
therefore eligible to be placed in expedited removal, it is
well established that the government has discretion to
decline to initiate removal proceedings against any individual; to determine which charges to bring in removal
proceedings; and to place individuals amenable to expedited removal in full removal proceedings instead.”)
Thus, defendants are correct that DHS undoubtedly
has discretion to institute regular removal proceedings
even where subparagraph (b)(1) suggests it “shall order
the alien removed.” The flaw in defendants’ argument,
however, is that DHS cannot, merely by placing an individual otherwise subject to expedited removal into section 1229a regular removal proceedings instead, somehow write out of existence the provision in subparagraph
(b)(2) of section 1225 that the contiguous territory re-

69a
turn provision does not apply to persons to whom subparagraph (b)(1) does apply. Exercising discretion to
process an alien under section 1229a instead of expedited removal under section 1225(b)(1) does not mean
the alien is somehow also being processed under section
1225(b)(2).
DHS may choose which enforcement route it wishes
to take—1125(b)(1) expedited removal, or 1229a regular
removal—but it is not thereby making a choice as to
whether 1125(b)(1) or 1125(b)(2) applies. The language of those provisions, not DHS, determines into
which of the two categories an alien falls.
The E-R-M- & L-R-M decision further illustrates
this distinction. There, as discussed above, the Board
of Immigration Appeals held DHS has discretion to
place aliens subject to expedited removal under subparagraph (b)(1) into regular removal proceedings. Observing that other aliens are entitled to regular removal
under (b)(2), the Board found the express exclusion from
(b)(2) of aliens to whom (b)(1) applies means only that
they are not entitled to regular removal, not that the
DHS lacks discretion to place them in it. 25 I. & N. Dec.
at 523. Thus, the decision recognizes that such persons
remain among those to whom (b)(1) applies and who are
thereby excluded from treatment under (b)(2).
Defendants’ second argument overlaps with their
first. In light of the discretion DHS has to place aliens
eligible for expedited removal into section 1229a proceedings, defendants contend subparagraph (b)(1) only
“applies”—thereby triggering the exclusion from subparagraph (b)(2)—when DHS elects actually to apply it
to a particular alien. This argument is not supportable

70a
under the statutory language. Subparagraph (b)(2) provides that it “shall not apply to an alien . . . to whom
paragraph (1) applies.” The relevant inquiry therefore
is whether the language of subparagraph (b)(1) encompasses the alien, not whether DHS has decided to apply
the provisions of the subparagraph to him or her. Because there is no dispute the language of subparagraph
(b)(1) describes persons in the position of the individual
plaintiffs, the exclusion from subparagraph (b)(2) reaches
them.
Finally, defendants make a statutory intent argument based on the circumstances under which the contiguous return provision was originally enacted. Defendants assert the provision was adopted by Congress
as a direct response to the Board of Immigration Appeals decision in Matter of Sanchez-Avila, 21 I. & N.
Dec. 444 (BIA 1996). In Sanchez-Avila, the government argued it had a long-standing and legal practice of,
in some instances, “[r]equiring aliens to remain in Mexico or Canada pending their exclusion proceedings.”
Id. at 450. The government noted that it has “plenary
power. . . . to preserve its dominion” and a “legal
right to preserve the integrity of its borders and ultimately its sovereignty.” Id. Accordingly, the government argued, “its exclusion policy of requiring certain
aliens to await their exclusion hearings in either Mexico
or Canada” was “a practical exercise of plenary power.”
Id.
The Sanchez-Avila decision concluded that whatever
“plenary power” the government might otherwise have,
it had not shown the alleged practice of returning aliens
to Mexico (or Canada) pending removal proceedings was
“longstanding” with an “unchallenged history.” Id. at

71a
465. Nor could the plaintiffs show there was “explicit
statutory or regulatory authority for a practice of returning applicants for admission at land border ports to
Mexico or Canada to await their hearings.” Id. As a
result, the Board declined to treat the practice as valid.
Id.
Defendants contend that because the contiguous territory return provision purportedly was a direct Congressional response to Sanchez-Avila, it should be seen
as authorizing the return of aliens such as the named
plaintiffs. The first and most fundamental problem
with defendants’ argument, however, is that the plaintiff
alien “returned” to Mexico in Sanchez-Avila was a resident alien commuter whose application for entry was not
granted given apparent grounds to exclude him for “involvement with controlled substances.” Id. at 445.
Thus, there is no indication he was an undocumented applicant for admission subject to expedited removal under subparagraph (b)(1). To the extent Congressional
intent to supersede the result of Sanchez-Avila can be
inferred, doing so would not show Congress intended
the contiguous territory return provision to apply to aliens subject to subparagraph (b)(1).
Plaintiffs insist that, to the contrary, it is reasonable
to assume Congress affirmatively wished to exclude aliens subject to expedited removal from the contiguous
territory return provision. Plaintiffs suggest because
refugees and asylum seekers are among those most
likely to lack proper admission documents and therefore
be subject to expedited removal, it is perfectly sensible
that Congress would expressly exclude them from the
contiguous territory return provision.

72a
The record supports no clear conclusion of any Congressional intent beyond that implemented in the plain
language of the statute. It is certainly possible that if
squarely presented with the question, Congress could
and would choose to authorize DHS to impose contiguous territory return on aliens subject to expedited removal, and that the appearance of the provision in subparagraph (b)(2) was essentially a matter of poor drafting. It is also possible, however, that Congress authorized contiguous return only for aliens not subject to expedited removal because that was the particular issue
presented by Sanchez-Avila and/or because there was
no indication of any pressing need to “return” persons
during the presumably faster process of expedited removal. 11 Given the unambiguous language and structure of the statute, speculation about unexpressed Congressional intent does not advance the analysis.
Finally, the conclusion that plaintiffs and others similarly situated are not subject to the contiguous territory
return provision is neither irrational nor unfair. While

Even assuming plaintiffs are correct that persons subject to expedited removal are more likely to be asylum seekers with credible
fear of persecution if not admitted, that alone would not be a basis to
exclude them from contiguous territory return. If the statute were
amended, or if the statutory construction of this order were rejected
on appeal, that concern would more appropriately be addressed by
adopting appropriate statutory and/or regulatory safeguards against
“refoulement,” rather than simply concluding contiguous territory
return should never be applied to such persons. It is also worth
noting that an asylum seeker from some country other than Mexico
will not automatically be at undue risk of persecution in Mexico, even
if he or she can present an extremely compelling case of persecution
in his or her country of origin.
11

73a
at first blush it might appear they thereby are in a better position than those who are not encompassed by section 1225(b)(1), any such perceived “advantage” flows
only from the exercise of DHS’s prosecutorial discretion. If persons in plaintiffs’ position should not be admitted to this country, DHS retains full statutory authority to process them for expedited removal, and to
detain them pending such proceedings. Accordingly,
plaintiffs have made a strong showing that they are
likely to succeed on the merits with respect to their
claim that the MPP lacks a legal basis for applying the
contiguous territory return provision in this context.
3.

Refoulement safeguards

Even if, contrary to the preceding discussion, the
contiguous territory return provision could be lawfully
applied to the individual plaintiffs and others like them,
that does not end the inquiry. Defendants openly acknowledge they must comply with the government’s legal obligations to avoid refoulement when removing aliens to a contiguous or any other territory pending conclusion of section 1229a proceedings.
The United
States is bound by the United Nations 1951 Convention
relating to the Status of Refugees. 12 Article 33 of the Convention provides:
No Contracting State shall expel or return (“refouler”) a refugee in any manner whatsoever to the
frontiers of territories where his life or freedom
would be threatened on account of his race, religion,

The United States is not a direct party to the Convention, but
is a party to the 1967 Protocol Relating to the Status of Refugees,
which incorporates Articles 2-34 of the Convention.
12

74a
nationality, membership of a particular social group
or political opinion.
The United States has codified at least some of its obligations under the Convention at 8 U.S.C. § 1231(b)(3).
That section is entitled “Restriction on removal to a
country where alien’s life or freedom would be threatened,” and its provisions and the regulations thereunder
provide for hearings and reviews far beyond what is required by the MPP and implementing guidance. DHS
insists section 1231(b)(3) and its regulations do not apply here because it refers only to circumstances where
an alien is removed, as opposed to “returned.”
Defendants’ argument ignores that the section is admittedly intended to implement the United States’ obligations under the Convention, which expressly refer to
“expel or return.” Additionally, while the record is not
completely clear, there is a suggestion the prior statutory language of “deport or return” was amended to substitute the term “remove” only as a result of the consolidation of deportation and exclusion proceedings into
unitary “removal” proceedings in 1996. If so, there
would be no reason to infer the change was intended to
make a substantive alteration to the government’s obligations to avoid refoulement.
That said, it is not clear that defendants would be obligated to provide the full panoply of procedural and substantive protections prescribed under § 1231(b)(3) and
its implementing regulations, even assuming the individual plaintiffs are subject to “return” under the contiguous territory return provision. First, as noted
above and as reflected generally in subdivision (b) of
§ 1231, the potential issues relating to sending an alien
to a contiguous territory as opposed to his or her “home”

75a
country may not be identical. Moreover, in this action
plaintiffs are not contending the protections against refoulement provided under subparagraph (b)(1) of section 1225 for those placed in expedited return are insufficient. Those restrictions are quite clearly less restrictive than are required under § 1231(b)(3).
Second, even though plaintiffs are not contending
that DHS must place them in expedited removal, all
their arguments depend on the fact that the expedited
removal statute applies to them, absent prosecutorial
discretion. Thus, it would be anomalous to conclude
that they necessarily are entitled to greater procedural
and substantive protections against refoulement—i.e.,
those prescribed by § 1231(b)(3)—upon temporary “return” to Mexico than they would receive if the government instead elected simply to remove them permanently on an expedited basis.
Accordingly, to the extent plaintiffs contend section
§ 1231(b)(3) applies to persons being “returned” under
the contiguous territory return provision, they have not
shown they are more likely than not to succeed on the
merits of such an argument. That, however, does not
answer the question of whether the MPP includes sufficient safeguards against refoulement.
At the preliminary injunction stage, it is neither possible nor necessary to determine what the minimal antirefoulement procedures might be. Plaintiffs have established that persons placed in expedited removal proceedings, and persons who ultimately are found removable under section 1229a, all benefit from protections
not extended to the individual plaintiffs here. The issue in this case is only whether the MPP’s protections
for persons like the individual plaintiffs comply with the

76a
law. Even assuming neither § 1231(b)(3) nor the more
limited procedures under expedited removal apply,
plaintiffs have shown they are more likely than not to
prevail on the merits of their contention that defendants
adopted the MPP without sufficient regard to refoulement issues. Notably, the CIS Policy Memorandum,
AR 2273 n.5, expressly acknowledges the government’s
obligations “vis-à-vis the 1951 Convention and 1967 Protocol are reflected in Section 241(b)(3)(B).” The subsequent conclusion of that memo that “the reference to
Section 241(b)(3)(B) should not be construed to suggest
that Section 241(b)(3)(B) applies to MPP,” may ultimately be supportable. It leaves open, however, the
question of what the government’s obligations are.
As noted above, the MPP provides only for review of
potential refoulement concerns when an alien “affirmatively” raises the point. Access to counsel is “currently”
not available. AR 2273. While an CIS officer’s determination is subject to review by a supervisory asylum
officer, no administrative review proceedings are available. AR 2274. These procedures undeniably provide
less protection than prior legislative and administrative
rulemaking procedures have concluded is appropriate
upon removal, either expedited or regular. While it
might be rational to treat “return” differently, the rules
must be adopted in conformance with administrative law
and with governments anti-refoulement obligations.
Without opining as to what minimal process might be
required, plaintiffs’ showing on this point suffices.
4.

Plaintiffs’ specific claims for relief

The first claim for relief set out in the complaint asserts the MPP is “contrary to law” because the contigu-

77a
ous return provision does not apply to persons in the position of the individual plaintiffs. As set out above,
plaintiffs have the better argument on this point.
Plaintiffs’ second claim for relief asserts that under
5 U.S.C. § 553(b) and (c), defendants may not adopt a
“rule” without providing notice and an opportunity for
comment. If it were the case that the MPP represents
a lawful exercise of DHS’s discretion to implement the
contiguous territory return provision, plaintiffs would
have no tenable “notice and comment” claim regarding
that exercise of prosecutorial discretion.
Additionally, even given the conclusion above that
the contiguous return provision does not provide a legal
basis for the MPP, the issue does not rise to a violation
of the notice and comment provisions under the APA.
Rather, plaintiffs’ claim for relief with respect to notice
and comment is implicated if, and only if, they are subject to the contiguous territory return provision, notwithstanding the discussion above. In that instance,
the question would be whether the defendants were obligated to comply with APA notice and comment rules
with respect to adopting procedures to address refoulement concerns. Plaintiffs’ complaint appears to
recognize this point, and focuses on the allegation that
the MPP procedures for addressing an alien’s risk of
persecution upon return to Mexico were not adopted after notice and comment.
If defendants simply were to proceed by applying the
existing procedures and regulations of § 1231(b)(3) to
temporary “returns” under the contiguous territory return provision, they might have a good argument that no
“notice and comment” procedure would be required.
If, however, defendants take the position—which may

78a
be completely reasonable—that a different set of procedures should apply to contiguous territory “returns,”
compliance with APA notice and comment procedures
more likely than not would be required. Accordingly,
plaintiffs have shown they have a likelihood of success
on the merits of their notice and comment claim.
The third claim for relief set out in the complaint alleges, in essence, that the adoption of the MPP was arbitrary and capricious as a whole, and that it effectively
“deprives asylum seekers of a meaningful right to apply
for asylum.” The sixth claim for relief, which may be
duplicative, also asserts impairment of the right to seek
asylum. At this juncture, it is not necessary to determine whether plaintiffs might be able to prove such
broader and/or “catch-all” claims.
Finally, the fourth claim for relief 13 avers the MPP is
contrary to law because it has inadequate provisions to
protect against refoulement. The claim invokes the
UN Convention, the Protocols, section 1231(b)(3), and
its implementing regulations.
As discussed above,
plaintiffs have not shown they are likely to prove section
1231(b)(3) applies directly. Their claims about refoulement nevertheless likely merge with their “notice
and comment” and/or catch-all claims under the second
and third claims for relief. Thus, in the event DHS has
statutory authority to apply the contiguous return provision to plaintiffs and others in their position, plaintiffs
have shown a likelihood of success on the refoulement

As noted above, the present motion does not address the fifth
claim for relief, which is not grounded in the APA.
13

79a
issue, whether that is best characterized as a claim under their second, third, or fourth claims for relief, or
some combination thereof.
C.

Other injunction factors

Under the familiar standards, plaintiffs who demonstrate a likelihood of success on the merits, as plaintiffs
have done here, must also show they are “likely to suffer
irreparable harm in the absence of preliminary relief,
that the balance of equities tips in [their] favor, and that
an injunction is in the public interest.” Winter, 555 U.S.
at 21-22. While the precise degree of risk and specific
harms that plaintiffs might suffer in this case may be
debatable, there is no real question that it includes the
possibility of irreparable injury, sufficient to support interim relief in light of the showing on the merits.
The individual plaintiffs present uncontested evidence that they fled their homes in El Salvador, Guatemala, and Honduras to escape extreme violence, including rape and death threats. One plaintiff alleges she
was forced to flee Honduras after her life was threatened for being a lesbian. Another contends he suffered
beatings and death threats by a “death squad” in Guatemala that targeted him for his indigenous identity.
Plaintiffs contend they have continued to experience
physical and verbal assaults, and live in fear of future
violence, in Mexico.
Defendants attempt to rebut the plaintiffs’ showing
of harm by arguing the merits—contending the individual plaintiffs were all “processed consistent[ly] with applicable law” and had sufficient opportunity to assert
any legitimate fears of return to Mexico. As reflected
in the discussion above, however, plaintiffs have made a

80a
strong showing that defendants’ view of the law on those
points is not correct. The organizational plaintiffs
have also shown a likelihood of harm in terms of impairment of their ability to carry out their core mission of
providing representation to aliens seeking admission,
including asylum seekers. Cf. East Bay Sanctuary,
909 F.3d at 1242 (describing cognizable harms to organizational plaintiffs for standing purposes.)
Finally, the balance of equities and the public interest support issuance of preliminary relief. As observed
in East Bay Sanctuary:
the public has a “weighty” interest “in efficient administration of the immigration laws at the border.”
Landon v. Plasencia, 459 U.S. 21, 34, 103 S. Ct. 321,
74 L. Ed. 2d 21 (1982). But the public also has an
interest in ensuring that “statutes enacted by [their]
representatives” are not imperiled by executive fiat.
Maryland v. King, 567 U.S. 1301, 1301, 133 S. Ct. 1,
183 L. Ed. 2d 667 (2012) (Roberts, C.J., in chambers).
909 F.3d at 1255. Additionally, similar to the situation
in East Bay Sanctuary, while this injunction will bring
a halt to a current and expanding policy, and in that
sense technically does not preserve the “status quo,” it
will only “temporarily restore[] the law to what it had
been for many years prior.” Id.
D.

Scope of injunction

Defendants urge that any injunction be limited in geographical scope. As the East Bay Sanctuary court
recently observed, there is “a growing uncertainty about
the propriety of universal injunctions.” 909 F.3d at
1255.

81a
Nevertheless, as East Bay Sanctuary also noted:
In immigration matters, we have consistently recognized the authority of district courts to enjoin
unlawful policies on a universal basis. Regents of
the Univ. of Cal. v. U.S. Dep’t of Homeland Sec.,
908 F.3d 476, 511 (9th Cir. 2018) (“A final principle
is also relevant: the need for uniformity in immigration policy.”); Hawaii v. Trump, 878 F.3d 662,
701 (9th Cir. 2017), rev’d on other grounds, — U.S.
––, 138 S. Ct. 2392, 201 L. Ed. 2d 775 (2018) (“Because this case implicates immigration policy, a
nationwide injunction was necessary to give Plaintiffs a full expression of their rights.”); Washington [v. Trump], 847 F.3d [1151 (9th Cir. 2017) at
1166-67 (“[A] fragmented immigration policy
would run afoul of the constitutional and statutory
requirement for uniform immigration law and policy.” (citing Texas v. U.S., 809 F.3d 134, 187-88
(5th Cir. 2015))). “Such relief is commonplace in
APA cases, promotes uniformity in immigration
enforcement, and is necessary to provide the
plaintiffs here with complete redress.” Univ. of
Cal., 908 F.3d at 512.
Id. Although issues sometimes arise when a ruling
in a single judicial district is applied nationwide, defendants have not shown the injunction in this case can be
limited geographically. This is not a case implicating
local concerns or values. There is no apparent reason
that any of the places to which the MPP might ultimately be extended have interests that materially differ

82a
from those presented in San Ysidro. Accordingly, the
injunction will not be geographically limited. 14
E.

Bond and stay issues

No party has suggested that it would be appropriate
to condition issuance of a preliminary injunction upon
the posting of a bond under the circumstances of this
case. No bond will be required. 15 At argument, defendants moved orally for a stay pending appeal of any
injunctive relief that might issue. Defendants contend
the MPP was adopted to address certain aspects of a crisis. Even fully crediting defendants’ characterization
of the circumstances, they have not shown that a stay of
this injunction is warranted. See East Bay Sanctuary,
909 F.3d at 1255. Accordingly, the request for a stay
14
While the injunction precludes the “return” under the MPP of
any additional aliens who would otherwise be subject to expedited
removal, nothing in the order determines if any individuals, other
than those appearing as plaintiffs in this action, should be offered
the opportunity to re-enter the United States pending conclusion
of their section 1229a proceedings. Nor does anything in the injunctive relief require that any person be paroled into the country
during such proceedings. DHS will have discretion to detain the
individual plaintiffs and others when they are allowed back across
the border.
15
On its face, Federal Rule of Civil Procedure 65(c) permits a
court to grant preliminary injunctive relief “only if the movant
gives security in an amount that the court considers proper to pay
the costs and damages sustained by any party found to have been
wrongfully enjoined or restrained.” The Ninth Circuit has made
clear, however, that “[d]espite the seemingly mandatory language,
Rule 65(c) invests the district court with discretion as to the amount
of security required, if any.” Johnson v. Couturier, 572 F.3d
1067, 1086 (9th Cir. 2009) (citations and quotations omitted, emphasis in original). This is not a case where a bond would serve to
protect against quantifiable harm in any event.

83a
during the pendency of appeal will be denied. To permit defendants to exercise their right to seek a stay from
the Court of Appeal, however, this order will not take
effect until 5:00 p.m., PST, April 12, 2019.
V.

CONCLUSION

Plaintiffs’ motion for a preliminary injunction is
granted.
Defendants are hereby enjoined and restrained from continuing to implement or expand the
“Migrant Protection Protocols” as announced in the
January 25, 2018 DHS policy memorandum and as explicated in further agency memoranda. Within 2 days
of the effective date of this order, defendants shall permit the named individual plaintiffs to enter the United
States. At defendants’ option, any named plaintiff appearing at the border for admission pursuant to this order may be detained or paroled, pending adjudication of
his or her admission application.
This order shall take effect at 5:00 p.m., PST, April
12, 2012.
IT IS SO ORDERED.

Dated:

Apr. 8, 2019
/s/ RICHARD SEEBORG
RICHARD SEEBORG
United States District Judge

84a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Case No. 19-15716
D.C. No. 3:19-cv-00807-RS
Northern District of California, San Francisco
INNOVATION LAW LAB; CENTRAL AMERICAN
RESOURCE CENTER OF NORTHERN CALIFORNIA;
CENTRO LEGAL DE LA RAZA; UNIVERSITY OF SAN
FRANCISCO SCHOOL OF LAW IMMIGRATION AND
DEPORTATION DEFENSE CLINIC; AL OTRO LADO;
TAHIRIH JUSTICE CENTER, PLAINTIFFS-APPELLEES
v.
CHAD F. WOLF, ACTING SECRETARY OF HOMELAND
SECURITY, IN HIS OFFICIAL CAPACITY;
U.S. DEPARTMENT OF HOMELAND SECURITY;
KENNETH T. CUCCINELLI, DIRECTOR,
U.S. CITIZENSHIP AND IMMIGRATION SERVICES, IN
HIS OFFICIAL CAPACITY; ANDREW DAVIDSON, CHIEF
OF ASYLUM DIVISION, U.S. CITIZENSHIP AND
IMMIGRATION SERVICES, IN HIS OFFICIAL CAPACITY;
UNITED STATES CITIZENSHIP AND IMMIGRATION
SERVICES; TODD C. OWEN, EXECUTIVE ASSISTANT
COMMISSIONER, OFFICE OF FIELD OPERATIONS,
U.S. CUSTOMS AND BORDER PROTECTION, IN HIS
OFFICIAL CAPACITY; U.S. CUSTOMS AND BORDER
PROTECTION; MATTHEW T. ALBENCE, ACTING
DIRECTOR, U.S. IMMIGRATION AND CUSTOMS
ENFORCEMENT, IN HIS OFFICIAL CAPACITY;
US IMMIGRATION AND CUSTOMS ENFORCEMENT,
DEFENDANTS-APPELLANTS

85a
[Filed:

Mar. 4, 2020]
ORDER

Before: FERNANDEZ, W. FLETCHER, and PAEZ, Circuit Judges.
This court issued its opinion in Innovation Law Lab
v. Wolf, No. 19-15716, on Friday, February 28, 2020, affirming the district court’s injunction against implementation and expansion of the Migrant Protection Protocols (“MPP”). That same day, the Government filed an
emergency motion requesting either a stay pending disposition of a petition for certiorari to the Supreme Court
or an immediate administrative stay. That evening, we
granted an administrative stay, along with an accelerated schedule for briefs addressing the request for a
longer-lasting stay. We received a brief from PlaintiffsAppellants on Monday, March 2; we received a reply
brief from the Government on Tuesday, March 3. For
the reasons that follow, we grant in part and deny in part
the requested stay.
With respect to the merits of our holding that the
MPP violates federal law, we deny the requested stay.
With respect to the scope of injunctive relief, we grant
in part and deny in part the requested stay.
I.

Merits

The MPP requires that all asylum seekers arriving at
our southern border wait in Mexico while their asylum
applications are adjudicated. The MPP clearly violates
8 U.S.C. §§ 1225(b) and 1231(b).

86a
A.

8 U.S.C. § 1225(b)

Section 1225(b) divides aliens applying for asylum
into two categories: “[A]pplicants for admission fall
into one of two categories, those covered by § 1225(b)(1)
and those covered by § 1225(b)(2).” Jennings v. Rodriguez, 138 S. Ct. 830, 837 (2018).
Section (b)(1) applicants are those who have no documents or fraudulent documents. In fleeing persecution
in their home countries, typical bona fide asylum seekers have either fraudulent documents or no documents
at all.
Section (b)(2) applicants are “all other” applicants.
Section (b)(2) applicants include spies, terrorists, alien
smugglers, and drug traffickers.
Section 1225 specifies different procedures for the
two categories of applicants. Section (b)(1) applicants
who have expressed a “credible fear” of persecution
have a right to remain in the United States while their
applications are adjudicated. Section (b)(2) applicants
do not have that right. Subsection (b)(2)(C) specifically authorizes the Attorney General to require § (b)(2)
applicants to wait in Mexico while their asylum applications are adjudicated. There is no subsection in § (b)(1)
comparable to subsection (b)(2)(C).
It is easy to understand why § (b)(1) and § (b)(2) applicants are treated differently. Section (b)(1) applicants pose little threat to the security of the United
States. By contrast, § (b)(2) applicants potentially
pose a severe threat.
The MPP applies subsection (b)(2)(C) to § (b)(1) applicants. There is no legal basis for doing so.

87a
B.

8 U.S.C. § 1231(b)

Section 1231(b), previously codified as § 1253(h), was
enacted in 1980 to implement our treaty-based obligation to avoid “refoulement” of refugees. Refoulement
is the act of sending refugees back to the dangerous
countries from which they have come. Section 1231(b)
provides, “[T]he Attorney General may not remove an
alien to a country if the Attorney General decides that
the alien’s life or freedom would be threatened in that
country because of the alien’s race, religion, nationality,
membership in a particular social group, or political
opinion.”
Under the MPP, an asylum officer screening asylum
seekers is not allowed to ask whether they fear that
their “life or freedom would be threatened” upon being
returned to Mexico. The MPP requires asylum seekers
—untutored in asylum law—to volunteer that they fear
being returned to Mexico, even though they are not told
that the existence of such fear could protect them from
being returned.
Uncontradicted evidence in the record shows not
only that asylum officers implementing the MPP do not
ask whether asylum seekers fear returning to Mexico.
It also shows that officers actively prevent or discourage
applicants from expressing such a fear, and that they ignore applicants who succeed in doing so. For example,
Alex Doe, a plaintiff in this case, wrote in a sworn declaration, “When I tried to respond and explain [why I had
left Honduras] the officer told me something like, ‘you
are only going to respond to the questions I ask you,
nothing more.’ ” Frank Doe, another plaintiff, wrote in
a sworn declaration, “He never asked me if I was afraid
of returning to Mexico. At one point, I had to interrupt

88a
him to explain that I didn’t feel safe in Mexico. He told
me that it was too bad. He said that Honduras wasn’t
safe, Mexico wasn’t safe, and the U.S. isn’t safe either.”
Uncontradicted evidence also shows that there is extreme danger to asylum seekers who are returned to
Mexico. For example, Howard Doe, a plaintiff, wrote
in a sworn declaration: “While I was in Tijuana, two
young Honduran men were abducted, tortured and
killed. . . . On Wednesday, January 30, 2019, I was
attacked and robbed by two young Mexican men. . . .
They . . . told me that they knew I was Honduran
and that if they saw me again, they would kill me.” Ian
Doe, another plaintiff, wrote in a sworn declaration, “I
am not safe in Mexico. I am afraid that the people who
want to harm me in Honduras will find me here.” Dennis Doe, another plaintiff, had fled the gang “MS-13” in
Honduras. He wrote in a sworn declaration, “In Tijuana, I have seen people who I believe are MS-13 gang
members on the street and on the beach. . . . I know
that MS-13 were searching for people who tried to escape them. . . . This makes me afraid that the people who were trying to kill me in Honduras will find me
here.” Kevin Doe, another plaintiff, had fled MS-13 in
Honduras because of his work as an Evangelical Christian minister. He wrote in a sworn declaration, “[When I
was returned to Mexico from the United States], I was
met by a large group of reporters with cameras. . . .
I was afraid that the MS-13 might see my face in the
news. . . . They are a powerful, ruthless gang and
have members in Tijuana too.”
It is clear from the text of the MPP, as well as from
extensive and uncontradicted evidence in the record,

89a
that the MPP violates the anti-refoulement obligation
embodied in § 1231(b).
C.

Stay with Respect to the Merits

Two of the three judges on our panel, Judges W.
Fletcher and Paez, held that the MPP clearly violates
both §§ 1225(b) and 1231(b). The third judge, Judge
Fernandez, did not independently reach the question
whether the MPP violates those sections. Judge Fernandez dissented from the panel’s decision based on a
point of appellate procedure.
Because the MPP so clearly violates §§ 1225(b) and
1231(b), and because the harm the MPP causes to plaintiffs is so severe, we decline to stay our opinion pending
certiorari proceedings in the Supreme Court, except as
noted below with respect to the scope of the injunction.
II.

Scope of the Injunction

The district court enjoined the Government from
continuing to implement or expand the MPP, and required the Government to allow the named individual
plaintiffs to enter the United States to pursue their applications for asylum. The injunction provides as follows:
Defendants are hereby enjoined and restrained
from continuing to implement or expand the “Migrant Protection Protocols” as announced in the January 25, 2018 DHS policy memorandum and as explicated in further agency memoranda. Within 2 days
of the effective date of this order, defendants shall
permit the named individual plaintiffs to enter the
United States. At defendants’ option, any named

90a
plaintiff appearing at the border for admission pursuant to this order may be detained or paroled, pending adjudication of his or her admission application.
Innovation Law Lab v. Nielsen, 366 F. Supp. 3d 1110,
1130-31 (N.D. Cal. 2019). When suit was filed in the
district court, the MPP had been applied only at the designated port of entry at San Ysidro, California. There
are eleven named individual plaintiffs.
Because the district court’s order was stayed pending
appeal, the Government expanded the scope of the MPP.
The MPP is now in effect in the four states along our
southern border with Mexico. Two of those states, California and Arizona, are in the Ninth Circuit. New Mexico is in the Tenth Circuit. Texas is in the Fifth Circuit.
For the reasons explained in our opinion, Ninth Circuit case law requires that we affirm the scope of the
district court’s injunction. Plaintiffs challenge the MPP
as inconsistent with § 706(2) of the Administrative Procedure Act, which directs a reviewing court that has
found an agency action “unlawful” to “set aside” that action. 5 U.S.C. § 706(2). Section 706(2) does not tell a
reviewing circuit court to “set aside” the unlawful
agency action only within the geographic boundaries of
that circuit. Further, there is a special need for uniformity in immigration cases, as recognized both by our
court and by the Fifth Circuit. See Regents of the
Univ. of Cal. v. U.S. Dep’t of Homeland Sec., 908 F. 3d
476, 511 (9th Cir. 2018); Texas v. United States, 809 F.3d
134, 187-88 (5th Cir. 2015), aff ’d by an equally divided
Court, 136 S. Ct. 2271 (2016)
However, we recognize that the proper scope of injunctions against agency action is a matter of intense

91a
and active controversy. Dep’t of Homeland Sec. v. New
York, 140 S. Ct. 599, 600-01 (2020) (Gorsuch, J., concurring); Trump v. Hawaii, 138 S. Ct. 2392, 2424-29 (2018)
(Thomas, J., concurring); see also Wolf v. Cook Cty., Ill.,
140 S. Ct. 681, 681-82 (2020) (Sotomayor, J., dissenting).
While we regard the merits of our decision under
§§ 1225(b) and 1231(b) as clearly correct, we do not have
the same level of confidence with respect to the scope of
the injunction entered by the district court. We therefore stay the injunction insofar as it operates outside the
geographical boundaries of the Ninth Circuit.
III. Declarations Filed in Connection with the
Government’s Motion to Stay Pending Disposition
of a Petition for Certiorari
The Government’s motion for stay and reply brief include several sworn declarations. The United States
Ambassador to Mexico writes, “The panel’s decision, unless stayed, will have an immediate and severely prejudicial impact on the bilateral relationship between the
United States and Mexico.” The Assistant Secretary
for International Affairs for the U.S. Department of
Homeland Security writes, “MPP was a carefully negotiated solution with the Government of Mexico.” She
writes further, “The suspension of MPP undermines almost two years’ worth of diplomatic engagement with
the Government of Mexico through which a coordinated
and cohesive immigration control program has been developed.” The Deputy Commissioner of U.S. Customs
and Border Protection writes that enforcement of the
district court’s injunction will cause substantial disruption at our ports of entry and will cost substantial
amounts of money. He writes further that on Friday,

92a
the day our decision was announced, large groups of aliens sought admission to the United States at various
points along the border. The Executive Associate Director of Enforcement and Removal Operations for U.S.
Immigration and Customs Enforcement writes, “[I]f
MPP is discontinued, approximately 25,000 individuals
enrolled in MPP who remain in Mexico may soon arrive
in the United States seeking admission. . . . [I]f
[Customs and Border Protection] is required to process
approximately 25,000 inadmissible aliens in an extremely short timeframe and then transfer those aliens
to [Immigration and Customs Enforcement] custody, it
would overload [Enforcement and Removal Operations’]
already burdened resources and create significant adverse implications for public safety and the integrity of
the United States immigration system.”
The Plaintiffs-Appellants’ brief responding to the
Government’s motion includes two sworn declarations.
Mexico’s Ambassador to the United States from 2007 to
2013 writes, “The government of Mexico has consistently stated that MPP is a policy unilaterally imposed
by the U.S. government. To the extent Mexico agreed
to the policy, it was upon threat of heavy and unprecedented tariffs.” He writes, further, “I reject the notion
that this Court’s determination that MPP is likely unlawful will harm our two nations’ relationship. Rather,
it is MPP itself—and the way the current administration
is conducting policy towards Mexico—that is particularly detrimental to the bilateral relationship between
the United States and Mexico.” An expert on border
and immigration issues writes that it is the MPP that
has created chaos at our southern border, and that the
MPP has not had a significant effect in reducing the flow
of immigrants into the United States.

93a
We are not in a position to assess the accuracy of
these statements.
Conclusion
If the law were less clear—that is, if there were any
serious possibility that the MPP is consistent with
§§ 1225(b) and 1231(b)—we would stay the district
court’s injunction in its entirety pending disposition of
the Government’s petition for certiorari. However, it
is very clear that the MPP violates §§ 1225(b) and
1231(b), and it is equally clear that the MPP is causing
extreme and irreversible harm to plaintiffs.
We stay, pending disposition of the Government’s petition for certiorari, the district court’s injunction insofar as it operates outside the Ninth Circuit. We decline
to stay, pending disposition of the Government’s petition
for certiorari, the district court’s injunction against the
MPP insofar as it operates within the Ninth Circuit.
The Government has requested in its March 3 reply
brief, in the event we deny any part of their request for
a stay, that we “extend the [administrative] stay by at
least seven days, to March 10, to afford the Supreme
Court an orderly opportunity for review.” We grant
the Government’s request and extend our administrative stay entered on Friday, February 28, until Wednesday, March 11. If the Supreme Court has not in the
meantime acted to reverse or otherwise modify our decision, our partial grant and partial denial of the Government’s request for a stay of the district court’s injunction, as described above, will take effect on Thursday, March 12.
So ordered on Mar. 4, 2020.

94a
FERNANDEZ, Circuit Judge, concurring in part and dissenting in part:
I would grant in full the government’s emergency
motion for a stay of the district court’s injunction pending disposition of a petition for certiorari to the Supreme
Court. Thus, I concur in the order to the extent that it
grants the requested stay. I also concur in the order’s
extension of our administrative stay until Wednesday,
March 11. I respectfully dissent from the order to the
extent that it denies the stay.

95a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Case No. 19-15716
D.C. No. 3:19-cv-00807-RS
Northern District of California, San Francisco
INNOVATION LAW LAB; CENTRAL AMERICAN
RESOURCE CENTER OF NORTHERN CALIFORNIA;
CENTRO LEGAL DE LA RAZA; UNIVERSITY OF SAN
FRANCISCO SCHOOL OF LAW IMMIGRATION AND
DEPORTATION DEFENSE CLINIC; AL OTRO LADO;
TAHIRIH JUSTICE CENTER, PLAINTIFFS-APPELLEES
v.
CHAD WOLF, ACTING SECRETARY OF HOMELAND
SECURITY, IN HIS OFFICIAL CAPACITY;
U.S. DEPARTMENT OF HOMELAND SECURITY;
KENNETH T. CUCCINELLI, ACTING DIRECTOR,
U.S. CITIZENSHIP AND IMMIGRATION SERVICES, IN
HIS OFFICIAL CAPACITY; ANDREW DAVIDSON, ACTING
CHIEF OF ASYLUM DIVISION, U.S. CITIZENSHIP AND
IMMIGRATION SERVICES, IN HIS OFFICIAL CAPACITY;
UNITED STATES CITIZENSHIP AND IMMIGRATION
SERVICES; TODD C. OWEN, EXECUTIVE ASSISTANT
COMMISSIONER, OFFICE OF FIELD OPERATIONS,
U.S. CUSTOMS AND BORDER PROTECTION, IN HIS
OFFICIAL CAPACITY; U.S. CUSTOMS AND BORDER
PROTECTION; MATTHEW T. ALBENCE, ACTING
DIRECTOR, U.S. IMMIGRATION AND CUSTOMS
ENFORCEMENT, IN HIS OFFICIAL CAPACITY;
US IMMIGRATION AND CUSTOMS ENFORCEMENT,
DEFENDANTS-APPELLANTS

96a
[Filed:

Feb. 28, 2020]
ORDER

Before: FERNANDEZ, W. FLETCHER, and PAEZ, Circuit Judges.
Appellees’ motion for judicial notice (Dkt. Entry 36)
is hereby GRANTED.

97a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Case No. 19-15716
D.C. No. 3:19-cv-00807-RS
INNOVATION LAW LAB; CENTRAL AMERICAN
RESOURCE CENTER OF NORTHERN CALIFORNIA;
CENTRO LEGAL DE LA RAZA; UNIVERSITY OF SAN
FRANCISCO SCHOOL OF LAW IMMIGRATION AND
DEPORTATION DEFENSE CLINIC; AL OTRO LADO;
TAHIRIH JUSTICE CENTER, PLAINTIFFS-APPELLEES
v.
KEVIN K. MCALEENAN, ACTING SECRETARY OF
HOMELAND SECURITY, IN HIS OFFICIAL CAPACITY;
U.S. DEPARTMENT OF HOMELAND SECURITY;
LEE FRANCIS CISSNA, DIRECTOR, U.S. CITIZENSHIP
AND IMMIGRATION SERVICES, IN HIS OFFICIAL
CAPACITY; JOHN L. LAFFERTY, CHIEF OF ASYLUM
DIVISION, U.S. CITIZENSHIP AND IMMIGRATION
SERVICES, IN HIS OFFICIAL CAPACITY; UNITED
STATES CITIZENSHIP AND IMMIGRATION SERVICES;
TODD C. OWEN, EXECUTIVE ASSISTANT
COMMISSIONER, OFFICE OF FIELD OPERATIONS,
U.S. CUSTOMS AND BORDER PROTECTION, IN HIS
OFFICIAL CAPACITY; U.S. CUSTOMS AND BORDER
PROTECTION; MATTHEW T. ALBENCE, ACTING
DIRECTOR, U.S. IMMIGRATION AND CUSTOMS
ENFORCEMENT, IN HIS OFFICIAL CAPACITY;
U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT,
DEFENDANTS-APPELLANTS

98a
Argued and Submitted: Apr. 24, 2019
San Francisco, California
Filed: May 7, 2019
Motion for Stay of an Order of the United States
District Court for the Northern District of California
Richard Seeborg, District Judge, Presiding
OPINION

Before:
DIARMUID F. O’SCANNLAIN, WILLIAM A.
FLETCHER, and PAUL J. WATFORD, Circuit Judges.
PER CURIAM:
In January 2019, the Department of Homeland Security (DHS) issued the Migrant Protection Protocols
(MPP), which initiated a new inspection policy along the
southern border. Before the MPP, immigration officers would typically process asylum applicants who lack
valid entry documentation for expedited removal. If
the applicant passed a credible fear screening, DHS
would either detain or parole the individual until her
asylum claim could be heard before an immigration
judge. The MPP now directs the “return” of asylum
applicants who arrive from Mexico as a substitute to the
traditional options of detention and parole. Under the
MPP, these applicants are processed for standard removal proceedings, instead of expedited removal.
They are then made to wait in Mexico until an immigration judge resolves their asylum claims. Immigration
officers exercise discretion in returning the applicants
they inspect, but the MPP is categorically inapplicable
to unaccompanied minors, Mexican nationals, applicants

99a
who are processed for expedited removal, and any applicant “who is more likely than not to face persecution or
torture in Mexico.”
Eleven Central American asylum applicants who
were returned to Tijuana, Mexico, and six organizations
that provide asylum-related legal services challenged
the MPP on several grounds in the district court. After concluding that the MPP lacks a statutory basis and
violates the Administrative Procedure Act (APA), the
district court enjoined DHS on a nationwide basis “from
continuing to implement or expand the [MPP].”
DHS has moved for a stay of the preliminary injunction pending its appeal to this court. Our equitable discretion in ruling on a stay motion is guided by four factors: “(1) whether the stay applicant has made a
strong showing that he is likely to succeed on the merits;
(2) whether the applicant will be irreparably injured absent a stay; (3) whether issuance of the stay will substantially injure the other parties interested in the proceeding; and (4) where the public interest lies.” Nken v.
Holder, 556 U.S. 418, 434 (2009) (internal quotation
marks omitted). We begin with a discussion of the first
factor, which turns largely on the plaintiffs’ likelihood of
success on their claim that the MPP lacks statutory authorization.
I
Some background is in order before addressing the
merits of the plaintiffs’ statutory claim. Congress has
established an exhaustive inspection regime for all noncitizens who seek admission into the United States.
See 8 U.S.C. § 1225(a)(3). Applicants for admission are

100a
processed either through expedited removal proceedings or through regular removal proceedings. Section
1225(b)(1) outlines the procedures for expedited removal and specifies the class of non-citizens who are eligible for expedited removal:
If an immigration officer determines that an alien
(other than an alien described in subparagraph (F))
who is arriving in the United States or is described in
clause (iii) is inadmissible under section 1182(a)(6)(C)
or 1182(a)(7) of this title, the officer shall order the
alien removed from the United States without further hearing or review unless the alien indicates either an intention to apply for asylum under section
1158 of this title or a fear of persecution.
§ 1225(b)(1)(A)(i). Simply put, an applicant is eligible
for expedited removal only if the immigration officer determines that the individual is inadmissible on one of two
grounds: fraud or misrepresentation (§ 1182(a)(6)(C)) or
lack of documentation (§ 1182(a)(7)).
All applicants for admission who are not processed
for expedited removal are placed in regular removal
proceedings under § 1225(b)(2)(A). That process generally entails a hearing before an immigration judge
pursuant to § 1229a. Section 1225(b)(2)(B) provides
exceptions to § 1225(b)(2)(A), while § 1225(b)(2)(C) permits applicants processed under § 1225(b)(2)(A) to be returned to the contiguous territory from which they arrived for the duration of their removal proceedings.
Section 1225(b)(2) provides in full:

101a
(A) In general

Subject to subparagraphs (B) and (C), in the
case of an alien who is an applicant for admission,
if the examining immigration officer determines
that an alien seeking admission is not clearly and
beyond a doubt entitled to be admitted, the alien
shall be detained for a proceeding under section
1229a of this title.
(B) Exception

Subparagraph (A) shall not apply to an alien—
(i)

who is a crewman,

(ii) to whom paragraph (1) applies, or
(iii) who is a stowaway.
(C) Treatment of aliens arriving from contiguous
territory

In the case of an alien described in subparagraph (A) who is arriving on land (whether or not
at a designated port of arrival) from a foreign territory contiguous to the United States, the Attorney General may return the alien to that territory
pending a proceeding under section 1229a of this
title.
DHS relies on the contiguous-territory provision in
subsection (b)(2)(C) as the statutory basis for the MPP.
That provision authorizes DHS to return “alien[s] described in subparagraph (A)” to Mexico or Canada.
§ 1225(b)(2)(C). The phrase “described in” refers to
the “salient identifying features” of the individuals subject to this provision. Nielsen v. Preap, 139 S. Ct. 954,

102a
965 (2019) (emphasis and internal quotation marks omitted). Because the plaintiffs in this case are not “clearly
and beyond a doubt entitled to be admitted,” they fit the
description in § 1225(b)(2)(A) and thus seem to fall
within the sweep of § 1225(b)(2)(C).
As the district court interpreted the statute, however, the contiguous-territory provision may not be applied to applicants for admission who could have been
placed in expedited removal under § 1225(b)(1), even if
they were placed in regular removal proceedings. The
crux of this argument is § 1225(b)(2)(B)(ii), which provides that “[s]ubparagraph (A) shall not apply to an alien . . . to whom paragraph (1) applies.” So long as
the applicant is eligible for expedited removal, the district court reasoned, § 1225(b)(1) “applies” to that individual. On this account, it is immaterial that the plaintiffs were not in fact processed for expedited removal
during their inspection at the border.
The primary interpretive question presented by this
stay motion is straightforward: Does § 1225(b)(1) “apply” to everyone who is eligible for expedited removal,
or only to those actually processed for expedited removal? The interpretive difficulty arises mainly because the inadmissibility grounds contained in subsections (b)(1) and (b)(2) overlap. A subset of applicants
for admission—those inadmissible due to fraud or misrepresentation, § 1182(a)(6)(C), and those who do not
possess a valid entry document, § 1182(a)(7)—may be
placed in expedited removal. § 1225(b)(1)(A)(i). But
as we read the statute, anyone who is “not clearly and
beyond a doubt entitled to be admitted” can be processed under § 1225(b)(2)(A). Section 1225(b)(2)(A) is

103a
thus a “catchall” provision in the literal sense, and Congress’ creation of expedited removal did not impliedly
preclude the use of § 1229a removal proceedings for
those who could otherwise have been placed in the more
streamlined expedited removal process. See Matter of
E-R-M- & L-R-M-, 25 I. & N. Dec. 520, 522-24 (BIA
2011).
Because the eligibility criteria for subsections (b)(1)
and (b)(2) overlap, we can tell which subsection “applies”
to an applicant only by virtue of the processing decision
made during the inspection process. Take first the
procedures for designating an applicant for expedited
removal. When the immigration officer “determines”
that the applicant “is inadmissible” under § 1182(a)(6)(C)
or (a)(7), he “shall order the alien removed from the
United States without further hearing” unless the applicant requests asylum or expresses a fear of persecution,
in which case the officer “shall refer the alien for an interview by an asylum officer under subparagraph (B).”
8 U.S.C. § 1225(b)(1)(A)(i)-(ii). In other words, the officer decides inadmissibility on the spot without sending
the matter to an immigration judge. DHS’s regulations further explain that a § 1225(b)(1) determination
entails either the issuance of a Notice and Order of Expedited Removal or the referral of the applicant for a
credible fear screening. 8 C.F.R. § 235.3(b)(2)(i), (4);
see also id. § 208.30. And to “remove any doubt” on the
issue, § 1225(b)(2)(B) clarifies that applicants processed
in this manner are not entitled to a proceeding under
§ 1229a. Ali v. Fed. Bureau of Prisons, 552 U.S. 214,
226 (2008).
In contrast, § 1225(b)(2) is triggered “if the examining immigration officer determines that an alien seeking

104a
admission is not clearly and beyond a doubt entitled to
be admitted.” 8 U.S.C. § 1225(b)(2)(A). Following
this determination, the officer will issue a Notice to Appear, which is the first step in a § 1229a proceeding.
8 C.F.R. § 235.6(a)(1)(i); see also id. § 208.2(b). A Notice to Appear can charge inadmissibility on any ground,
including the two that render an individual eligible for
expedited removal. 8 U.S.C. § 1229a(a)(2). The officer
then sets a date for a hearing on the issue before an immigration judge. See Pereira v. Sessions, 138 S. Ct.
2105, 2111 (2018).
The plaintiffs were not processed under § 1225(b)(1).
We are doubtful that subsection (b)(1) “applies” to them
merely because subsection (b)(1) could have been applied. And we think that Congress’ purpose was to
make return to a contiguous territory available during
the pendency of § 1229a removal proceedings, as opposed to being contingent on any particular inadmissibility ground. Indeed, Congress likely believed that
the contiguous-territory provision would be altogether
unnecessary if an applicant had already been processed
for expedited removal. The plaintiffs are properly subject to the contiguous-territory provision because they
were processed in accordance with § 1225(b)(2)(A).
Though the plaintiffs contend otherwise, our approach is consistent with the subsections’ headings.
Section 1225(b)(1) is titled “Inspection of aliens arriving
in the United States and certain other aliens who have
not been admitted or paroled,” and § 1225(b)(2) is labeled “Inspection of other aliens.” The plaintiffs interpret § 1225(b) to create two mutually exclusive preinspection categories of applicants for admission; as

105a
explained above, we read the statute to create two mutually exclusive post-inspection categories.
In our
view, those who are not processed for expedited removal
under § 1225(b)(1) are the “other aliens” subject to the
general rule of § 1225(b)(2).
Our interpretation is also consistent with Jennings v.
Rodriguez, 138 S. Ct. 830 (2018), the principal authority
on which the plaintiffs rely. There, the Supreme Court
explained that “applicants for admission fall into one of
two categories, those covered by § 1225(b)(1) and those
covered by § 1225(b)(2).” Id. at 837. As the Court
noted, “Section 1225(b)(1) applies to aliens initially determined to be inadmissible due to fraud, misrepresentation, or lack of valid documentation.” Id. (emphasis
added). “Section 1225(b)(2) is broader,” since it “serves
as a catchall provision that applies to all applicants for
admission not covered by § 1225(b)(1).” Id. We think
our interpretation more closely matches the Court’s understanding of the mechanics of § 1225(b), as it is attentive to the role of the immigration officer’s initial determination under § 1225(b)(1) and to § 1225(b)(2)’s function
as a catchall.
For the foregoing reasons, we conclude that DHS is
likely to prevail on its contention that § 1225(b)(1) “applies” only to applicants for admission who are processed under its provisions. Under that reading of the
statute, § 1225(b)(1) does not apply to an applicant who
is processed under § 1225(b)(2)(A), even if that individual is rendered inadmissible by § 1182(a)(6)(C) or (a)(7).
As a result, applicants for admission who are placed in
regular removal proceedings under § 1225(b)(2)(A) may
be returned to the contiguous territory from which they
arrived under § 1225(b)(2)(C).

106a
The plaintiffs have advanced only one other claim
that could justify a nationwide injunction halting the implementation of the MPP on a wholesale basis: that the
MPP should have gone through the APA’s notice-andcomment process. DHS is likely to prevail on this
claim as well, since “general statements of policy” are
exempted from the notice-and-comment requirement.
5 U.S.C. § 553(b)(A). The MPP qualifies as a general
statement of policy because immigration officers designate applicants for return on a discretionary case-bycase basis. See Regents of the Univ. of Cal. v. U.S.
Dep’t of Homeland Sec., 908 F.3d 476, 507 (9th Cir.
2018); Mada-Luna v. Fitzpatrick, 813 F.2d 1006, 1013
(9th Cir. 1987).
II
The remaining factors governing issuance of a stay
pending appeal weigh in the government’s favor. As to
the second factor, DHS is likely to suffer irreparable
harm absent a stay because the preliminary injunction
takes off the table one of the few congressionally authorized measures available to process the approximately
2,000 migrants who are currently arriving at the Nation’s southern border on a daily basis. See East Bay
Sanctuary Covenant v. Trump, 909 F.3d 1219, 1250-51
(9th Cir. 2018). DHS has therefore made a strong
showing on both the first and second factors, which are
the “most critical.” Nken, 556 U.S. at 434.
The other two factors support the issuance of a stay
as well. The plaintiffs fear substantial injury upon return to Mexico, but the likelihood of harm is reduced
somewhat by the Mexican government’s commitment to
honor its international-law obligations and to grant hu-

107a
manitarian status and work permits to individuals returned under the MPP. We are hesitant to disturb this
compromise amid ongoing diplomatic negotiations between the United States and Mexico because, as we have
explained, the preliminary injunction (at least in its present form) is unlikely to be sustained on appeal. Finally, the public interest favors the “efficient administration of the immigration laws at the border.” East
Bay Sanctuary Covenant, 909 F.3d at 1255 (quoting
Landon v. Plasencia, 459 U.S. 21, 34 (1982)).
The motion for a stay pending appeal is GRANTED.
WATFORD, Circuit Judge, concurring:
I agree that the Department of Homeland Security
(DHS) is likely to prevail on the plaintiffs’ primary
claim, as 8 U.S.C. § 1225(b) appears to authorize DHS’s
new policy of returning applicants for admission to Mexico while they await the outcome of their removal proceedings. But congressional authorization alone does
not ensure that the Migrant Protection Protocols (MPP)
are being implemented in a legal manner. As thenSecretary of Homeland Security Kirstjen Nielsen recognized, the MPP must also comply with “applicable domestic and international legal obligations.” One of
those legal obligations is imposed by Article 33 of the
1951 Convention Relating to the Status of Refugees,
which provides:
No Contracting State shall expel or return (“refouler”) a refugee in any manner whatsoever to the
frontiers of territories where his life or freedom
would be threatened on account of his race, religion,

108a
nationality, membership of a particular social group
or political opinion.
Protocol Relating to the Status of Refugees art. I, Jan.
31, 1967, 19 U.S.T. 6223, 6225, 6276 (binding the United
States to comply with Article 33). Article 3 of the Convention Against Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment similarly provides:
No State Party shall expel, return (“refouler”) or extradite a person to another State where there are
substantial grounds for believing that he would be in
danger of being subjected to torture.
Convention Against Torture and Other Cruel, Inhuman
or Degrading Treatment or Punishment art. 3, Dec. 10,
1984, S. Treaty Doc. No. 100-20, at 20 (1988).
DHS’s stated goal is to ensure that the MPP is implemented in a manner that complies with the nonrefoulement principles embodied in these treaty provisions. Specifically, Secretary Nielsen’s policy guidance on implementation of the MPP declares that “a
third-country national should not be involuntarily returned to Mexico pursuant to Section 235(b)(2)(C) of the
INA if the alien would more likely than not be persecuted on account of race, religion, nationality, membership in a particular social group, or political opinion
. . . , or would more likely than not be tortured, if so
returned pending removal proceedings.”
In my view, DHS has adopted procedures so ill-suited
to achieving that stated goal as to render them arbitrary
and capricious under the Administrative Procedure Act.
See 5 U.S.C. § 706(2)(A). Under DHS’s current procedures, immigration officers do not ask applicants being
returned to Mexico whether they fear persecution or

109a
torture in that country. Immigration officers make inquiries into the risk of refoulement only if an applicant
affirmatively states that he or she fears being returned
to Mexico.
DHS’s policy is virtually guaranteed to result in some
number of applicants being returned to Mexico in violation of the United States’ non-refoulement obligations.
It seems fair to assume that at least some asylum seekers subjected to the MPP will have a legitimate fear of
persecution in Mexico.
Some belong to protected
groups that face persecution both in their home countries and in Mexico, and many will be vulnerable to persecution in Mexico because they are Central American
migrants. It seems equally fair to assume that many of
these individuals will be unaware that their fear of persecution in Mexico is a relevant factor in determining
whether they may lawfully be returned to Mexico, and
hence is information they should volunteer to an immigration officer. If both of those assumptions are accurate, DHS will end up violating the United States’ treaty
obligations by returning some number of asylum seekers to Mexico who should have been allowed to remain
in the United States.
There is, of course, a simple way for DHS to help ensure that the United States lives up to its non-refoulement
obligations: DHS can ask asylum seekers whether they
fear persecution or torture in Mexico. I’m at a loss to
understand how an agency whose professed goal is to
comply with non-refoulement principles could rationally
decide not to ask that question, particularly when immigration officers are already conducting one-on-one interviews with each applicant. This policy of refusing to
ask seems particularly irrational when contrasted with

110a
how DHS attempts to uphold the United States’ nonrefoulement obligations in expedited removal proceedings. In that context, immigration officers are required
to ask applicants whether they fear being removed from
the United States and returned to their home countries.
See 8 C.F.R. § 235.3(b)(2)(i) (requiring immigration officers to use Form I-867B). Since the same non-refoulement
principles apply to removal and return alike, DHS must
explain why it affirmatively asks about fear of persecution in the removal context but refrains from asking that
question when applying the MPP.
DHS has not, thus far, offered any rational explanation for this glaring deficiency in its procedures. (One
suspects the agency is not asking an important question
during the interview process simply because it would
prefer not to hear the answer.) As the record stands
now, then, it seems likely that the plaintiffs will succeed
in establishing that DHS’s procedures for implementing
the MPP are arbitrary and capricious, at least in the respect discussed above.
Success on this claim, however, cannot support issuance of the preliminary injunction granted by the district court. We explained recently that the “scope of
the remedy must be no broader and no narrower than
necessary to redress the injury shown by the plaintiff.”
California v. Azar, 911 F.3d 558, 584 (9th Cir. 2018).
Here, the plaintiffs’ injury can be fully remedied without
enjoining the MPP in its entirety, as the district court’s
preliminary injunction currently does. I expect that
appropriate relief for this arbitrary and capricious aspect of the MPP’s implementation will involve (at the
very least) an injunction directing DHS to ask applicants for admission whether they fear being returned to

111a
Mexico. The precise scope of such relief would need to
be fashioned after further proceedings in the district
court. In the meantime, the government is entitled to
have the much broader preliminary injunction currently
in place stayed pending appeal.
W. FLETCHER, Circuit Judge, concurring only in the result:
I strongly disagree with my colleagues.
The question of law in this case can be stated simply:
The Government relies on 8 U.S.C. § 1225(b)(2)(C) for
authority to promulgate its new Migrant Protection
Protocols (“MPP”). If § 1225(b)(2)(C) provides such
authority, the MPP is valid. If it does not, the MPP is
invalid. The question is thus whether § 1225(b)(2)(C)
provides authority for promulgation of the MPP. The
answer can also be stated simply: The Government is
wrong. Not just arguably wrong, but clearly and flagrantly wrong. Section 1225(b)(2)(C) does not provide
authority for the MPP.
* * *
I begin with a short summary of established law.
Under the Illegal Immigration Reform and Immigrant
Responsibility Act of 1996 (“IIRIRA”), arriving aliens
applying for admission into the United States fall into
two separate and non-overlapping categories.
First, there are aliens described in 8 U.S.C. § 1225(b)(1).
These are alien applicants for admission who are traveling with fraudulent documents or no documents. Immigration officers are required by regulation to ask whether
these applicants fear persecution in their home country.
If so, they are referred for a “credible fear” interview

112a
with an asylum officer. If they are found to have a
credible fear of persecution in their home country, and
are therefore potentially eligible for asylum, they are
placed in a regular removal proceeding under 8 U.S.C.
§ 1229a. In that proceeding, an Immigration Judge
(“IJ”) can find them either eligible or ineligible for asylum. Applicants who are referred to regular removal
proceedings are entitled to remain in the United States
while their eligibility for asylum is determined. Applicants found not to have a credible fear are subject to expedited removal without any formal proceeding.
Second, there are aliens described in 8 U.S.C.
§ 1225(b)(2). These are all alien applicants for admission not described in § 1225(b)(1). In the words of the
statute, they are “other aliens.” § 1225(b)(2) (heading).
Section (b)(2) applicants include aliens who are suspected of being, inter alia, drug addicts, convicted criminals, terrorists, or alien smugglers, and who would therefore be inadmissible. See 8 U.S.C. § 1182(a)(1)(A)(iv);
(a)(2); (a)(3)(B); (a)(6)(E). Unlike § (b)(1) applicants,
§ (b)(2) applicants are automatically referred to regular
removal proceedings under § 1229a. In those proceedings, an IJ can determine whether the applicants are, in
fact, inadmissible on a ground specified in § 1182(a).
Also unlike § (b)(1) applicants, § (b)(2) applicants are not
entitled to remain in the United States while their admissibility is determined. At the discretion of the Government, they may be “returned” to a “contiguous territory” pending determination of their admissibility.
§ 1225(b)(2)(C).
This statutory structure has been well understood
ever since the passage of IIRIRA in 1996, and until now
the Government has consistently acted on the basis of

113a
this understanding. The Government today argues for
an entirely new understanding of the statute, based on
arguments never before made or even suggested.
* * *
It is undisputed that plaintiffs are bona fide asylum
applicants under § (b)(1). Although it has long been established that § (b)(1) applicants are entitled to stay in
the United States while their eligibility for asylum is determined, the Government is now sending § (b)(1) applicants back to Mexico. The Government refuses to
treat them as § (b)(1) applicants. Instead, the Government improperly treats them under the MPP as § (b)(2)
applicants who can be “returned” to Mexico under
§ 1225(b)(2)(C). The Government’s arguments in support of the MPP are not only unprecedented. They are
based on an unnatural and forced—indeed, impossible—
reading of the statutory text.
The relevant text of 8 U.S.C. § 1225 is as follows:
(a)

Inspection
(1) Aliens treated as applicants for admission

An alien present in the United States
who has not been admitted . . . shall
be deemed for purposes of this chapter
an applicant for admission.
. . .
(b)

Inspection of applicants for admission
(1) Inspection of aliens arriving in the United
States and certain other aliens who have
not been admitted or paroled

114a
(A) Screening
(i)

In general

If an immigration officer determines that an alien . . .
who is arriving in the United
States . . . is inadmissible
under section 1182(a)(6)(C) or
1182(a)(7) of this title, the officer shall order the alien removed from the United States
without further hearing or review unless the alien indicates
either an intention to apply for
asylum under section 1158 of
this title or a fear of persecution.
(ii) Claims for asylum

If an immigration officer determines that an alien . . .
is inadmissible under section
1182(a)(6)(C) or 1182(a)(7) of
this title and the alien indicates either an intention to apply for asylum under section
1158 of this title or a fear of
persecution, the officer shall
refer the alien for an interview
by an asylum officer under
subparagraph (B).
. . .

115a
(B) Asylum interviews

. . .
(ii) Referral of certain aliens

If the [asylum] officer determines at the time of the interview that an alien has a
credible fear of persecution
. . . , the alien shall be detained for further consideration of the application for asylum.

. . .
(2)

Inspection of other aliens
(A) In general

Subject to subparagraphs (B)
and (C), in the case of an alien who
is an applicant for admission, if the
examining immigration officer determines that an alien seeking admission is not clearly and beyond a
doubt entitled to be admitted, the
alien shall be detained for a proceeding under section 1229a of this
title.
(B)

Exception

Subparagraph (A) shall not apply
to an alien—
(i)

who is a crewman

(ii) to whom paragraph (1) applies,

or

116a
(iii) who is a stowaway.
(C)

Treatment of aliens arriving from
contiguous territory

In the case of an alien described
in subparagraph (A) who is arriving
on land (whether or not at a designated port of arrival) from a foreign
territory contiguous to the United
States, the Attorney General may
return the alien to that territory
pending a proceeding under section
1229a of this title.
The statutory text is unambiguous. There are two categories of “applicants for admission.” § 1225(a). First,
there are applicants described in § 1225(b)(1). Second,
there are applicants described in § 1225(b)(2).
Applicants described in § 1225(b)(1) are those who
may be inadmissible under § 1182(a)(6)(C) (applicants traveling with fraudulent documents) or under § 1182(a)(7) (applicants with no valid documents).
Applicants described in § 1225(b)(2) are distinct. In
the words of the statute, they are “other aliens.” § 1225(b)(2)
(heading). Put differently, again in the words of the
statute, § (b)(2) applicants are applicants “to whom paragraph [b](1)” does not apply. § 1225(b)(2)(B)(ii). That
is, § (b)(1) applicants are those who may be inadmissible
on either of the two grounds specified in that subsection.
Section (b)(2) applicants are all other potentially inadmissible applicants.
Section (b)(1) applicants are more numerous than
§ (b)(2) applicants, but § (b)(2) is a broader category in
the sense that applicants under § (b)(2) are inadmissible

117a
on more grounds than applicants under § (b)(1). Applicants inadmissible under § (b)(2) include, for example,
aliens with “a communicable disease of public health significance” or who are “drug abuser[s] or addict[s]”
(§ 1182(a)(1)(A)(i), (iv)); aliens who have “committed
. . . a crime involving moral turpitude” or who have
“violat[ed] . . . any law or regulation . . . relating to a controlled substance” (§ 1182(a)(2)(A)(i)); aliens
who “seek to enter the United States . . . to violate
any law of the United States relating to espionage or
sabotage,” or who have “engaged in a terrorist activity”
(§ 1182(a)(3)(A), (B)); aliens who are “likely . . . to become a public charge” (§ 1182(a)(4)(A)); and aliens who
are alien “smugglers” (§ 1182(a)(6)(E)).
Just last year, the Supreme Court distinguished between § (b)(1) and § (b)(2) applicants, stating clearly that
they fall into two separate categories:
[A]pplicants for admission fall into one of two categories, those covered by § 1225(b)(1) and those covered by § 1225(b)(2). Section 1225(b)(1) applies to
aliens initially determined to be inadmissible due to
fraud, misrepresentation, or lack of valid documentation. . . . Section 1225(b)(2) is broader. It serves
as a catchall provision that applies to all applicants
for admission not covered by § 1225(b)(1).
Jennings v. Rodriguez, 138 S. Ct. 830, 837 (2018) (emphasis added).
Less than a month ago, the Attorney General of the
United States drew the same distinction and briefly described the procedures applicable to the two categories:
Under section 235 of the Act [8 U.S.C. § 1225], all aliens “arriv[ing] in the United States” or “present in

118a
the United States [without having] been admitted”
are considered “applicants for admission,” who “shall
be inspected by immigration officers.” INA § 235(a)(1),
(3). [8 U.S.C. § 1225(a)(1), (3).] In most cases, those
inspections yield one of three outcomes. First, if an
alien is “clearly and beyond a doubt entitled to be admitted,” he will be permitted to enter, or remain in,
the country without further proceedings.
Id.
§ 235(b)(2)(A). [8 U.S.C. § 1225(b)(2)(A).] Second,
if the alien is not clearly admissible, then, generally,
he will be placed in “proceeding[s] under section 240
[8 U.S.C. § 1229a]” of the Act—that is, full removal
proceedings. Id. Third, if the alien is inadmissible
on one of two specified grounds and meets certain additional criteria, DHS may place him in either expedited or full proceedings. Id. § 235(b)(1)(A)(i)
[8 U.S.C. § 1225(b)(1)(A)(i)]; see Matter of E-R-M- &
L-R-M-, 25 I&N Dec. 520, 524 (BIA 2011).
Matter of M-S-, 27 I. & N. Dec. 509, 510 (BIA April 16,
2019).
The procedures specific to the two categories of applicants are given in their respective subsections.
To some extent, the statutorily prescribed procedures are the same for both categories. If a § (b)(1) applicant passes his or her credible fear interview he or
she will be placed in regular removal proceedings under
8 U.S.C. § 1229a. See 8 C.F.R. § 208.30(f ). A § (b)(1)
applicant may also be placed directly into regular removal proceedings under § 1229a at the discretion of the
Government. See Matter of E-R-M- & L-R-M-, 25 I. & N.
Dec. 520 (BIA 2011). A § (b)(2) applicant who is “not
clearly and beyond a doubt entitled to be admitted” will

119a
also be placed in removal proceedings under § 1229a.
See § 1225(b)(2)(A).
Both § (b)(1) and § (b)(2) applicants can thus be
placed in regular removal proceedings under § 1229a,
though by different routes. But the fact that an applicant is in removal proceedings under § 1229a does not
change his or her underlying category. A § (b)(1) applicant does not become a § (b)(2) applicant, or vice
versa, by virtue of being placed in a removal proceeding
under § 1229a. A homely analogy may help make the
point. Dogs and cats can both be placed in the pound.
But they still retain their separate identities. Dogs do
not become cats, or vice versa.
However, the statutory procedures for the two categories are not identical. Some of the procedures are
exclusive to one category or the other. For example, if
a § (b)(1) applicant fails to pass his or her credible fear
interview, he or she may be removed in an expedited
proceeding without a removal proceeding under § 1229a.
See § 1225(b)(1)(A), (B). There is no comparable procedure for expedited removal of a § (b)(2) applicant.
Further, in some circumstances a § (b)(2) applicant may
be “returned” to a “territory contiguous to the United
States” pending his or her removal proceeding under
§ 1229a. See § 1225(b)(2)(C). There is no comparable
procedure for a § (b)(1) applicant.
The precise question in this case is whether a § (b)(1)
applicant may be “returned” to a contiguous territory
under § 1225(b)(2)(C). That is, may a § (b)(1) applicant
be subjected to a procedure specified for a § (b)(2) applicant? A plain-meaning reading of § 1225(b)—as well as
the Government’s longstanding and consistent practice
—tell us that the answer is “no.”

120a
There is nothing in § 1225(b)(1) to indicate that a
§ (b)(1) applicant may be “returned” under § 1225(b)(2)(C).
Section (b)(1)(A)(i) tells us with respect to § (b)(1) applicants that an “officer shall order the alien removed
. . . without further hearing or review unless the alien
indicates either an intention to apply for asylum . . .
or a fear of persecution.” Section (b)(1)(A)(ii) tells us
that § (b)(1) applicants who indicate an intention to apply for asylum or a fear of persecution “shall” be referred by the immigration officer to an “asylum officer”
for an interview. The remainder of § 1225(b)(1) specifies what happens to a § (b)(1) applicant depending on
the determination of the asylum officer—either expedited removal or detention pending further consideration. § 1225(b)(1)(B)(ii)-(iii). There is nothing in
§ 1225(b)(1) stating, or even suggesting, that a § (b)(1)
applicant is subject to the “return” procedure of
§ 1225(b)(2)(C).
Nor is there anything in § 1225(b)(2) to indicate that
a § (b)(1) applicant may be “returned” under § 1225(b)(2)(C).
Taking § 1225(b)(2) subparagraph by subparagraph, it
provides as follows. Subparagraph (A) tells us that unless a § (b)(2) applicant is “clearly and beyond a doubt
entitled to be admitted,” she or he “shall be detained”
for a removal proceeding under § 1229a. § 1225(b)(2)(A).
Subparagraph (A) is “[s]ubject to subparagraphs (B)
and (C).” Id. Subparagraph (B) tells us that subparagraph (A) does not apply to three categories of aliens—
“crewm[e]n,” § (b)(1) applicants, and “stowaway[s].”
§ 1225(b)(2)(B). Finally, subparagraph (C) tells us that
a § (b)(2) applicant who arrives “on land . . . from a
foreign territory contiguous to the United States,” instead of being “detained” under subparagraph (A) pending his or her removal proceeding under § 1229a, may be

121a
“returned” to that contiguous territory pending that proceeding. § 1225(b)(2)(C). Section (b)(1) applicants are
mentioned only once in § 1225(b)(2), in subparagraph
(B)(ii).
That subparagraph specifies that subparagraph (A)—which tells us what happens to § (b)(2) applicants—does not apply to § (b)(1) applicants.
The “return-to-a-contiguous-territory” provision of
§ 1225(b)(2)(C) is available only for § (b)(2) applicants.
There is no way to read the statute otherwise. Under
a plain-meaning reading of the text, as well as the Government’s longstanding and consistent practice, the
statutory authority upon which the Government now relies simply does not exist.
* * *
In support of its motion to stay the order of the district court pending appeal, the Government makes several arguments. None is persuasive.
The Government first argues that § (b)(1) applicants
are included within the category of § (b)(2) applicants.
See Govt. Brief at 10. Under the Government’s argument, there are two categories of applicants, but the categories are overlapping. There are § (b)(1) applicants,
who are defined in § (b)(1), and there are § (b)(2) applicants, who are defined as all applicants, including, but
not limited to, § (b)(1) applicants.
For this argument, the Government relies on the
phrase “an alien seeking admission” in § 1225(b)(2)(A).
The Government argues that because § (b)(1) and § (b)(2)
applicants are both “aliens seeking admission,” subparagraph (A) of § (b)(2) refers to both categories of applicants. Then, because subparagraph (A) is, by its terms,

122a
“[s]ubject to subparagraphs (B) and (C),” the Government argues that a § (b)(1) applicant may be “return[ed]”
to a “foreign territory contiguous to the United States”
under subparagraph (C).
The Government’s argument ignores the statutory
text, the Supreme Court’s opinion in Jennings last year,
and the opinion of its own Attorney General in Matter of
M-S- less than a month ago.
The text of § 1225(b) tells us that § (b)(1) and § (b)(2)
are separate and non-overlapping categories. Section
1225(b) specifies that § (b)(1) applicants are aliens who
are inadmissible either under § 1182(a)(6)(C) or under
§ 1182(a)(7). Section (b)(2) aliens are “other aliens.”
See § 1225(b)(2) (heading) (“Inspection of other aliens”)
(emphasis added). That is, § (b)(2) covers applicants
“other” than § (b)(1) applicants. In case a reader has
missed the significance of the heading of § (b)(2), the
statute makes the point again, this time in the body of
§ (b)(2). Section (b)(2)(B)(ii) specifically provides that
subparagraph (A) of § (b)(2) “shall not apply to an alien
. . . to whom paragraph [b](1) applies.”
In Jennings, the Supreme Court last year told us explicitly that § (b)(1) and § (b)(2) applicants fall into separate and non-overlapping categories. It wrote, “[A]pplicants for admission fall into one of two categories,
those covered by § 1225(b)(1) and those covered by
§ 1225(b)(2). . . . Section 1225(b)(2) . . . applies
to all applicants for admission not covered by § 1225(b)(1).”
Jennings, 138 S. Ct. at 837 (emphasis added). Finally,
in Matter of M-S-, the Attorney General wrote on April
16 of this year that an applicant is subject to different
procedures depending on whether he or she is a § (b)(1)

123a
or § (b)(2) applicant.
at 510.

Matter of M-S-, 27 I. & N. Dec.

The Government’s second argument follows from its
first. See Govt. Brief at 10-13. For its second argument, the Government relies on subparagraph (B)(ii),
which provides: “Subparagraph (A) shall not apply to
an alien . . . to whom paragraph [b](1) applies.”
§ 1225(b)(2)(B)(ii) (emphasis added). The Government
argues that subparagraph (B)(ii) allows a government
official to perform an act. The act supposedly authorized is to “apply” the expedited removal procedures of
§ (b)(1) to some of the aliens under § (b)(2), as the Government defines § (b)(2) applicants. (The Government
needs to make this argument in order to avoid the consequence of treating all § (b)(1) applicants as § (b)(2) applicants, who are automatically entitled to regular removal proceedings.)
There is a fundamental textual problem with the Government’s argument. “Apply” is used twice in the same
sentence in § (b)(2)(B)(ii). The first time the word is
used, it refers to the application of a statutory section
(“Subparagraph (A) shall not apply”). The second time
the word is used, it is used in the same manner, again
referring to the application of a statutory section (“to
whom paragraph [b](1) applies”). When the word is
used the first time, it tells us that subparagraph (A) shall
not apply. When the word is used the second time, it
tells us to whom subparagraph (A) shall not apply: It
does not apply to applicants to whom § (b)(1) applies.
Neither time does the word “apply” refer to an act performed by a government official.
The Government’s third argument is disingenuous.
The Government argues that § (b)(1) applicants are

124a
more “culpable” than § (b)(2) applicants, and that they
therefore deserve to be forced to wait in Mexico while
their asylum applications are being adjudicated. The
Government argues that returning § (b)(2), but not
§ (b)(1), applicants to a contiguous territory would have
“the perverse effect of privileging aliens who attempt to
obtain entry to the United States by fraud . . . over
aliens who follow our laws.” Govt. Brief at 14. In its
Reply Brief, the Government compares § (b)(1) and
§ (b)(2) applicants, characterizing § (b)(2) applicants as
“less-culpable arriving aliens.” Govt. Reply Brief at 5.
The Government has it exactly backwards.
Section (b)(1) applicants are those who are “inadmissible under section 1182(a)(6)(C) or 1182(a)(7)” of Title
8. Section 1182(a)(6)(C), entitled “Misrepresentation,”
covers, inter alia, aliens using fraudulent documents.
That is, it covers aliens who travel under false documents and who, once they arrive at the border or have entered the country, apply for asylum. Section 1182(a)(7),
entitled “Documentation requirements,” covers aliens
traveling without documents. In other words, § (b)(1)
applies to bona fide asylum applicants, who commonly
have fraudulent documents or no documents. Indeed,
for many applicants, fraudulent documents are their
only means of fleeing persecution, even death, in their
own countries. The structure of § (b)(1), which contains detailed provisions for processing asylum seekers,
demonstrates that Congress recognized that § (b)(1) applicants may have valid asylum claims and should therefore receive the procedures specified in § (b)(1).
The history of § 1225(b)(2)(C) confirms that Congress
did not have § (b)(1) applicants in mind.
Section
1225(b)(2)(C) was added to IIRIRA late in the drafting

125a
process, in the wake of Matter of Sanchez-Avila, 21 I. & N.
Dec. 444 (BIA 1996). The petitioner in Sanchez-Avila
was a Mexican national who applied for entry as a “resident alien commuter” but who was charged as inadmissible due to his “involvement with controlled substances.” Id. at 445. In adding § 1225(b)(2)(C) to what
was to become IIRIRA, Congress had in mind § (b)(2)
applicants like the petitioner in Sanchez-Avila. It did
not have in mind bona fide asylum seekers who arrive
with fraudulent documents or no documents at all.
Contrary to the Government’s argument, § (b)(1) applicants are not more “culpable” than § (b)(2) applicants.
Quite the opposite. The § (b)(1) applicants targeted by
the MPP are innocent victims fleeing violence, often
deadly violence, in Central America. In stark contrast,
§ (b)(2) applicants include suspected drug addicts, convicted criminals, terrorists, and alien smugglers. See
§ 1182(a)(1)(A)(iv); (a)(2); (a)(3)(B); (a)(6)(E). Section
(b)(2) applicants are precisely those applicants who
should be “returned” to a “contiguous territory,” just as
§ 1225(b)(2)(C) provides.
* * *
Acting as a motions panel, we are deciding the Government’s emergency motion to stay the order of the
district court pending appeal. Because it is an emergency motion, plaintiffs and the Government were severely limited in how many words they were allowed.
Our panel heard oral argument on an expedited basis, a
week after the motion was filed.
I regret that my colleagues on the motions panel have
uncritically accepted the Government’s arguments. I

126a
am hopeful that the regular argument panel that will ultimately hear the appeal, with the benefit of full briefing
and regularly scheduled argument, will be able to see
the Government’s arguments for what they are—baseless
arguments in support of an illegal policy that will, if sustained, require bona fide asylum applicants to wait in
Mexico for years while their applications are adjudicated.

127a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 19-15716
D.C. No. 3:10-cv-00807-RS
Northern District of California, San Francisco
INNOVATION LAW LAB, ET AL., PLAINTIFFS-APPELLEES
v.
KEVIN K. MCALEENAN, ACTING SECRETARY OF
HOMELAND SECURITY, IN HIS OFFICIAL CAPACITY;
ET AL., DEFENDANTS-APPELLANTS
Filed:

May 24, 2019
ORDER

Before: O’SCANNLAIN, W. FLETCHER, and WATFORD,
Circuit Judges.
Appellees’ motion for reconsideration of the panel’s
decision to publish the stay order (Dkt. 23) is DENIED.

128a
APPENDIX G

1.

8 U.S.C. 1182 provides in pertinent part:

Inadmissible aliens
(a)

Classes of aliens ineligible for visas or admission

Except as otherwise provided in this chapter, aliens
who are inadmissible under the following paragraphs
are ineligible to receive visas and ineligible to be admitted to the United States:
*
(6)

*

*

*

*

Illegal entrants and immigration violators

*

*

*

*

*

(C) Misrepresentation
(i)

In general

Any alien who, by fraud or willfully misrepresenting a material fact, seeks to procure (or
has sought to procure or has procured) a visa,
other documentation, or admission into the
United States or other benefit provided under
this chapter is inadmissible.
(ii)

Falsely claiming citizenship

(I)

In general

Any alien who falsely represents, or has
falsely represented, himself or herself to be
a citizen of the United States for any purpose or benefit under this chapter (including
section 1324a of this title) or any other Federal or State law is inadmissible.

129a
(II) Exception

In the case of an alien making a representation described in subclause (I), if each natural parent of the alien (or, in the case of an
adopted alien, each adoptive parent of the
alien) is or was a citizen (whether by birth or
naturalization), the alien permanently resided in the United States prior to attaining
the age of 16, and the alien reasonably believed at the time of making such representation that he or she was a citizen, the alien
shall not be considered to be inadmissible
under any provision of this subsection based
on such representation.
(iii) Waiver authorized

For provision authorizing waiver of clause
(i), see subsection (i) of this section.
*
(7)

*

*

*

*

Documentation requirements
(A) Immigrants
(i)

In general

Except as otherwise specifically provided in
this chapter, any immigrant at the time of application for admission—
(I) who is not in possession of a valid
unexpired immigrant visa, reentry permit,
border crossing identification card, or other
valid entry document required by this chapter, and a valid unexpired passport, or other
suitable travel document, or document of

130a
identity and nationality if such document is
required under the regulations issued by the
Attorney General under section 1181(a) of
this title, or
(II) whose visa has been issued without
compliance with the provisions of section
1153 of this title,
is inadmissible.
(ii)

Waiver authorized

For provision authorizing waiver of clause
(i), see subsection (k) of this section.
(B) Nonimmigrants
(i)

In general

Any nonimmigrant who—
(I) is not in possession of a passport
valid for a minimum of six months from the
date of the expiration of the initial period of
the alien’s admission or contemplated initial
period of stay authorizing the alien to return
to the country from which the alien came or
to proceed to and enter some other country
during such period, or
(II) is not in possession of a valid nonimmigrant visa or border crossing identification card at the time of application for admission,
is inadmissible.

131a
(ii)

General waiver authorized

For provision authorizing waiver of clause
(i), see subsection (d)(4) of this section.
(iii) Guam and Northern Mariana Islands visa
waiver

For provision authorizing waiver of clause
(i) in the case of visitors to Guam or the Commonwealth of the Northern Mariana Islands,
see subsection (l).
(iv) Visa waiver program

For authority to waive the requirement of
clause (i) under a program, see section 1187 of
this title.
*
2.

*

*

*

*

8 U.S.C. 1225 provides in pertinent part:

Inspection by immigration officers; expedited removal of
inadmissible arriving aliens; referral for hearing
(a)

Inspection
(1)

Aliens treated as applicants for admission

An alien present in the United States who has not
been admitted or who arrives in the United States
(whether or not at a designated port of arrival and
including an alien who is brought to the United States
after having been interdicted in international or
United States waters) shall be deemed for purposes
of this chapter an applicant for admission.

132a
(2)

Stowaways

An arriving alien who is a stowaway is not eligible
to apply for admission or to be admitted and shall be
ordered removed upon inspection by an immigration
officer. Upon such inspection if the alien indicates
an intention to apply for asylum under section 1158
of this title or a fear of persecution, the officer shall
refer the alien for an interview under subsection
(b)(1)(B) of this section. A stowaway may apply for
asylum only if the stowaway is found to have a credible fear of persecution under subsection (b)(1)(B) of
this section. In no case may a stowaway be considered an applicant for admission or eligible for a hearing under section 1229a of this title.
(3)

Inspection

All aliens (including alien crewmen) who are applicants for admission or otherwise seeking admission
or readmission to or transit through the United States
shall be inspected by immigration officers.
(4)

Withdrawal of application for admission

An alien applying for admission may, in the discretion of the Attorney General and at any time, be permitted to withdraw the application for admission and
depart immediately from the United States.
(5)

Statements

An applicant for admission may be required to
state under oath any information sought by an immigration officer regarding the purposes and intentions
of the applicant in seeking admission to the United
States, including the applicant’s intended length of
stay and whether the applicant intends to remain

133a
permanently or become a United States citizen, and
whether the applicant is inadmissible.
(b)

Inspection of applicants for admission
(1)

Inspection of aliens arriving in the United States
and certain other aliens who have not been admitted or paroled
(A) Screening
(i)

In general

If an immigration officer determines that an
alien (other than an alien described in subparagraph (F)) who is arriving in the United States
or is described in clause (iii) is inadmissible under section 1182(a)(6)(C) or 1182(a)(7) of this title, the officer shall order the alien removed
from the United States without further hearing
or review unless the alien indicates either an
intention to apply for asylum under section
1158 of this title or a fear of persecution.
(ii)

Claims for asylum

If an immigration officer determines that an
alien (other than an alien described in subparagraph (F)) who is arriving in the United States
or is described in clause (iii) is inadmissible under section 1182(a)(6)(C) or 1182(a)(7) of this title and the alien indicates either an intention to
apply for asylum under section 1158 of this title
or a fear of persecution, the officer shall refer
the alien for an interview by an asylum officer
under subparagraph (B).

134a
(iii) Application to certain other aliens
(I)

In general

The Attorney General may apply clauses
(i) and (ii) of this subparagraph to any or all
aliens described in subclause (II) as designated by the Attorney General. Such designation shall be in the sole and unreviewable discretion of the Attorney General and
may be modified at any time.
(II) Aliens described

An alien described in this clause is an alien who is not described in subparagraph
(F), who has not been admitted or paroled
into the United States, and who has not affirmatively shown, to the satisfaction of an
immigration officer, that the alien has been
physically present in the United States continuously for the 2-year period immediately
prior to the date of the determination of inadmissibility under this subparagraph.
(B) Asylum interviews
(i)

Conduct by asylum officers

An asylum officer shall conduct interviews
of aliens referred under subparagraph (A)(ii),
either at a port of entry or at such other place
designated by the Attorney General.
(ii)

Referral of certain aliens

If the officer determines at the time of the
interview that an alien has a credible fear of
persecution (within the meaning of clause (v)),

135a
the alien shall be detained for further consideration of the application for asylum.
(iii) Removal without further review if no credible fear of persecution
(I)

In general

Subject to subclause (III), if the officer
determines that an alien does not have a
credible fear of persecution, the officer shall
order the alien removed from the United
States without further hearing or review.
(II) Record of determination

The officer shall prepare a written record
of a determination under subclause (I). Such
record shall include a summary of the material facts as stated by the applicant, such additional facts (if any) relied upon by the officer, and the officer’s analysis of why, in the
light of such facts, the alien has not established a credible fear of persecution. A copy
of the officer’s interview notes shall be attached to the written summary.
(III) Review of determination

The Attorney General shall provide by
regulation and upon the alien’s request for
prompt review by an immigration judge of a
determination under subclause (I) that the
alien does not have a credible fear of persecution. Such review shall include an opportunity for the alien to be heard and questioned by the immigration judge, either in
person or by telephonic or video connection.

136a
Review shall be concluded as expeditiously
as possible, to the maximum extent practicable within 24 hours, but in no case later
than 7 days after the date of the determination under subclause (I).
(IV) Mandatory detention

Any alien subject to the procedures under this clause shall be detained pending a
final determination of credible fear of persecution and, if found not to have such a fear,
until removed.
(iv) Information about interviews

The Attorney General shall provide information concerning the asylum interview described in this subparagraph to aliens who may
be eligible. An alien who is eligible for such
interview may consult with a person or persons
of the alien’s choosing prior to the interview or
any review thereof, according to regulations
prescribed by the Attorney General. Such
consultation shall be at no expense to the Government and shall not unreasonably delay the
process.
(v)

“Credible fear of persecution” defined

For purposes of this subparagraph, the
term “credible fear of persecution” means that
there is a significant possibility, taking into account the credibility of the statements made by
the alien in support of the alien’s claim and such
other facts as are known to the officer, that the
alien could establish eligibility for asylum under section 1158 of this title.

137a
*
(2)

*

*

*

*

Inspection of other aliens
(A) In general

Subject to subparagraphs (B) and (C), in the
case of an alien who is an applicant for admission,
if the examining immigration officer determines
that an alien seeking admission is not clearly and
beyond a doubt entitled to be admitted, the alien
shall be detained for a proceeding under section
1229a of this title.
(B) Exception

Subparagraph (A) shall not apply to an alien—
(i)

who is a crewman,

(ii) to whom paragraph (1) applies, or
(iii) who is a stowaway.
(C) Treatment of aliens arriving from contiguous
territory

In the case of an alien described in subparagraph (A) who is arriving on land (whether or not
at a designated port of arrival) from a foreign territory contiguous to the United States, the Attorney General may return the alien to that territory
pending a proceeding under section 1229a of this
title.
*

*

*

*

*

138a
3.

8 U.S.C. 1229a provides in pertinent part:

Removal proceedings
(a)

Proceeding

*
(2)

*

*

*

*

Charges

An alien placed in proceedings under this section
may be charged with any applicable ground of inadmissibility under section 1182(a) of this title or any
applicable ground of deportability under section
1227(a) of this title.
*
(c)

*

*

*

*

Decision and burden of proof

*
(4)

*

*

*

*

Applications for relief from removal
(A) In general

An alien applying for relief or protection from
removal has the burden of proof to establish that
the alien—
(i) satisfies the applicable eligibility requirements; and
(ii) with respect to any form of relief that
is granted in the exercise of discretion, that the
alien merits a favorable exercise of discretion.
*

*

*

*

*

139a
4.

8 U.S.C. 1231 provides in pertinent part:

Detention and removal of aliens ordered removed
(a)

Detention, release, and removal of aliens ordered removed
(1)

Removal period
(A) In general

Except as otherwise provided in this section,
when an alien is ordered removed, the Attorney
General shall remove the alien from the United
States within a period of 90 days (in this section
referred to as the “removal period”).
(B) Beginning of period

The removal period begins on the latest of the
following:
(i) The date the order of removal becomes
administratively final.
(ii) If the removal order is judicially reviewed and if a court orders a stay of the removal of the alien, the date of the court’s final
order.
(iii) If the alien is detained or confined (except under an immigration process), the date
the alien is released from detention or confinement.
(C) Suspension of period

The removal period shall be extended beyond a
period of 90 days and the alien may remain in detention during such extended period if the alien
fails or refuses to make timely application in good

140a
faith for travel or other documents necessary to
the alien’s departure or conspires or acts to prevent the alien’s removal subject to an order of removal.
(2)

Detention

During the removal period, the Attorney General
shall detain the alien. Under no circumstance during the removal period shall the Attorney General release an alien who has been found inadmissible under
section 1182(a)(2) or 1182(a)(3)(B) of this title or deportable under section 1227(a)(2) or 1227(a)(4)(B) of
this title.
(3)

Supervision after 90-day period

If the alien does not leave or is not removed within
the removal period, the alien, pending removal, shall
be subject to supervision under regulations prescribed
by the Attorney General. The regulations shall include provisions requiring the alien—
(A) to appear before an immigration officer
periodically for identification;
(B) to submit, if necessary, to a medical and
psychiatric examination at the expense of the
United States Government;
(C) to give information under oath about the
alien’s nationality, circumstances, habits, associations, and activities, and other information the Attorney General considers appropriate; and
(D) to obey reasonable written restrictions
on the alien’s conduct or activities that the Attorney General prescribes for the alien.

141a
(4)

Aliens imprisoned, arrested, or on parole, supervised release, or probation
(A) In general

Except as provided in section 259(a) 1 of title 42
and paragraph (2), 2 the Attorney General may not
remove an alien who is sentenced to imprisonment
until the alien is released from imprisonment.
Parole, supervised release, probation, or possibility of arrest or further imprisonment is not a reason to defer removal.
(B) Exception for removal of nonviolent offenders
prior to completion of sentence of imprisonment

The Attorney General is authorized to remove
an alien in accordance with applicable procedures
under this chapter before the alien has completed
a sentence of imprisonment—
(i) in the case of an alien in the custody of
the Attorney General, if the Attorney General
determines that (I) the alien is confined pursuant to a final conviction for a nonviolent offense
(other than an offense related to smuggling or
harboring of aliens or an offense described in
section 1101(a)(43)(B), (C), (E), (I), or (L) of
this title 3 and (II) the removal of the alien is
appropriate and in the best interest of the
United States; or
See References in Text note below.
So in original. Probably should be “subparagraph(B).”.
3
So in original. Probably should be followed by a closing parenthesis.
1
2

142a
(ii) in the case of an alien in the custody of
a State (or a political subdivision of a State), if
the chief State official exercising authority with
respect to the incarceration of the alien determines that (I) the alien is confined pursuant to
a final conviction for a nonviolent offense (other
than an offense described in section 1101(a)(43)(C)
or (E) of this title), (II) the removal is appropriate and in the best interest of the State, and
(III) submits a written request to the Attorney
General that such alien be so removed.
(C) Notice

Any alien removed pursuant to this paragraph
shall be notified of the penalties under the laws of
the United States relating to the reentry of deported aliens, particularly the expanded penalties
for aliens removed under subparagraph (B).
(D) No private right

No cause or claim may be asserted under this
paragraph against any official of the United States
or of any State to compel the release, removal, or
consideration for release or removal of any alien.
(5)

Reinstatement of removal orders against aliens
illegally reentering

If the Attorney General finds that an alien has
reentered the United States illegally after having
been removed or having departed voluntarily, under
an order of removal, the prior order of removal is reinstated from its original date and is not subject to
being reopened or reviewed, the alien is not eligible
and may not apply for any relief under this chapter,

143a
and the alien shall be removed under the prior order
at any time after the reentry.
(6)

Inadmissible or criminal aliens

An alien ordered removed who is inadmissible under section 1182 of this title, removable under section
1227(a)(1)(C), 1227(a)(2), or 1227(a)(4) of this title or
who has been determined by the Attorney General to
be a risk to the community or unlikely to comply with
the order of removal, may be detained beyond the removal period and, if released, shall be subject to the
terms of supervision in paragraph (3).
(7)

Employment authorization

No alien ordered removed shall be eligible to receive authorization to be employed in the United
States unless the Attorney General makes a specific
finding that—
(A) the alien cannot be removed due to the
refusal of all countries designated by the alien or
under this section to receive the alien, or
(B) the removal of the alien is otherwise impracticable or contrary to the public interest.
(b)

Countries to which aliens may be removed
(1)

Aliens arriving at the United States

Subject to paragraph (3)—
(A) In general

Except as provided by subparagraphs (B) and
(C), an alien who arrives at the United States and
with respect to whom proceedings under section
1229a of this title were initiated at the time of such

144a
alien’s arrival shall be removed to the country in
which the alien boarded the vessel or aircraft on
which the alien arrived in the United States.
(B) Travel from contiguous territory

If the alien boarded the vessel or aircraft on
which the alien arrived in the United States in a
foreign territory contiguous to the United States,
an island adjacent to the United States, or an island adjacent to a foreign territory contiguous to
the United States, and the alien is not a native, citizen, subject, or national of, or does not reside in,
the territory or island, removal shall be to the
country in which the alien boarded the vessel that
transported the alien to the territory or island.
(C) Alternative countries

If the government of the country designated in
subparagraph (A) or (B) is unwilling to accept the
alien into that country’s territory, removal shall
be to any of the following countries, as directed by
the Attorney General:
(i) The country of which the alien is a citizen, subject, or national.
(ii) The country in which the alien was
born.
(iii) The country in which the alien has a
residence.
(iv) A country with a government that will
accept the alien into the country’s territory if
removal to each country described in a previous
clause of this subparagraph is impracticable,
inadvisable, or impossible.

145a
(2)

Other aliens

Subject to paragraph (3)—
(A) Selection of country by alien

Except as otherwise provided in this paragraph—
(i) any alien not described in paragraph
(1) who has been ordered removed may designate one country to which the alien wants to be
removed, and
(ii) the Attorney General shall remove the
alien to the country the alien so designates.
(B) Limitation on designation

An alien may designate under subparagraph
(A)(i) a foreign territory contiguous to the United
States, an adjacent island, or an island adjacent to
a foreign territory contiguous to the United States
as the place to which the alien is to be removed
only if the alien is a native, citizen, subject, or national of, or has resided in, that designated territory or island.
(C) Disregarding designation

The Attorney General may disregard a designation under subparagraph (A)(i) if—
(i) the alien fails to designate a country
promptly;
(ii) the government of the country does not
inform the Attorney General finally, within 30
days after the date the Attorney General first

146a
inquires, whether the government will accept
the alien into the country;
(iii) the government of the country is not
willing to accept the alien into the country; or
(iv) the Attorney General decides that removing the alien to the country is prejudicial to
the United States.
(D) Alternative country

If an alien is not removed to a country designated under subparagraph (A)(i), the Attorney
General shall remove the alien to a country of
which the alien is a subject, national, or citizen unless the government of the country—
(i) does not inform the Attorney General
or the alien finally, within 30 days after the date
the Attorney General first inquires or within
another period of time the Attorney General
decides is reasonable, whether the government
will accept the alien into the country; or
(ii) is not willing to accept the alien into the
country.
(E) Additional removal countries

If an alien is not removed to a country under
the previous subparagraphs of this paragraph, the
Attorney General shall remove the alien to any of
the following countries:
(i) The country from which the alien was
admitted to the United States.
(ii) The country in which is located the foreign port from which the alien left for the

147a
United States or for a foreign territory contiguous to the United States.
(iii) A country in which the alien resided before the alien entered the country from which
the alien entered the United States.
(iv) The country in which the alien was
born.
(v) The country that had sovereignty over
the alien’s birthplace when the alien was born.
(vi) The country in which the alien’s birthplace is located when the alien is ordered removed.
(vii) If impracticable, inadvisable, or impossible to remove the alien to each country described in a previous clause of this subparagraph, another country whose government will
accept the alien into that country.
(F) Removal country when United States is at war

When the United States is at war and the Attorney General decides that it is impracticable, inadvisable, inconvenient, or impossible to remove
an alien under this subsection because of the war,
the Attorney General may remove the alien—
(i) to the country that is host to a government in exile of the country of which the alien
is a citizen or subject if the government of the
host country will permit the alien’s entry; or
(ii) if the recognized government of the
country of which the alien is a citizen or subject

148a
is not in exile, to a country, or a political or territorial subdivision of a country, that is very
near the country of which the alien is a citizen
or subject, or, with the consent of the government of the country of which the alien is a citizen or subject, to another country.
(3)

Restriction on removal to a country where
alien’s life or freedom would be threatened
(A) In general

Notwithstanding paragraphs (1) and (2), the
Attorney General may not remove an alien to a
country if the Attorney General decides that the
alien’s life or freedom would be threatened in that
country because of the alien’s race, religion, nationality, membership in a particular social group,
or political opinion.
(B) Exception

Subparagraph (A) does not apply to an alien deportable under section 1227(a)(4)(D) of this title or
if the Attorney General decides that—
(i) the alien ordered, incited, assisted, or
otherwise participated in the persecution of an
individual because of the individual’s race, religion, nationality, membership in a particular
social group, or political opinion;
(ii) the alien, having been convicted by a final judgment of a particularly serious crime is a
danger to the community of the United States;
(iii) there are serious reasons to believe
that the alien committed a serious nonpolitical

149a
crime outside the United States before the alien arrived in the United States; or
(iv) there are reasonable grounds to believe that the alien is a danger to the security
of the United States.
For purposes of clause (ii), an alien who has been
convicted of an aggravated felony (or felonies) for
which the alien has been sentenced to an aggregate term of imprisonment of at least 5 years shall
be considered to have committed a particularly serious crime. The previous sentence shall not preclude the Attorney General from determining
that, notwithstanding the length of sentence imposed, an alien has been convicted of a particularly
serious crime. For purposes of clause (iv), an alien who is described in section 1227(a)(4)(B) of this
title shall be considered to be an alien with respect
to whom there are reasonable grounds for regarding as a danger to the security of the United
States.
(C) Sustaining burden of proof; credibility determinations

In determining whether an alien has demonstrated that the alien’s life or freedom would be
threatened for a reason described in subparagraph
(A), the trier of fact shall determine whether the alien has sustained the alien’s burden of proof, and
shall make credibility determinations, in the manner described in clauses (ii) and (iii) of section
1158(b)(1)(B) of this title.

150a
(c)

Removal of aliens arriving at port of entry
(1)

Vessels and aircraft

An alien arriving at a port of entry of the United
States who is ordered removed either without a hearing under section 1225(b)(1) or 1225(c) of this title or
pursuant to proceedings under section 1229a of this
title initiated at the time of such alien’s arrival shall
be removed immediately on a vessel or aircraft owned
by the owner of the vessel or aircraft on which the
alien arrived in the United States, unless—
(A) it is impracticable to remove the alien on
one of those vessels or aircraft within a reasonable
time, or
(B)

the alien is a stowaway—

(i) who has been ordered removed in accordance with section 1225(a)(1) of this title,
(ii) who has requested asylum, and
(iii) whose application has not been adjudicated or whose asylum application has been denied but who has not exhausted all appeal
rights.
(2)

Stay of removal
(A) In general

The Attorney General may stay the removal of
an alien under this subsection if the Attorney General decides that—
(i) immediate removal is not practicable
or proper; or

151a
(ii) the alien is needed to testify in the prosecution of a person for a violation of a law of the
United States or of any State.
(B) Payment of detention costs

During the period an alien is detained because
of a stay of removal under subparagraph (A)(ii),
the Attorney General may pay from the appropriation “Immigration and Naturalization Service—
Salaries and Expenses”—
(i)
and

the cost of maintenance of the alien;

(ii) a witness fee of $1 a day.
(C) Release during stay

The Attorney General may release an alien
whose removal is stayed under subparagraph
(A)(ii) on—
(i) the alien’s filing a bond of at least $500
with security approved by the Attorney General;
(ii) condition that the alien appear when
required as a witness and for removal; and
(iii) other conditions the Attorney General
may prescribe.

152a
(3)

Costs of detention and maintenance pending
removal
(A) In general

Except as provided in subparagraph (B) and
subsection (d),4 an owner of a vessel or aircraft
bringing an alien to the United States shall pay
the costs of detaining and maintaining the alien—
(i) while the alien is detained under subsection (d)(1) of this section, and
(ii) in the case of an alien who is a stowaway, while the alien is being detained pursuant
to—
(I) subsection (d)(2)(A) or (d)(2)(B)(i)
of this section,
(II) subsection (d)(2)(B)(ii) or (iii) of this
section for the period of time reasonably
necessary for the owner to arrange for repatriation or removal of the stowaway, including obtaining necessary travel documents, but not to extend beyond the date on
which it is ascertained that such travel documents cannot be obtained from the country
to which the stowaway is to be returned, or
(III) section 1225(b)(1)(B)(ii) of this title,
for a period not to exceed 15 days (excluding
Saturdays, Sundays, and holidays) commencing on the first such day which begins
on the earlier of 72 hours after the time of
the initial presentation of the stowaway for
4

So in original.

Probably should be subsection “(e)”.

153a
inspection or at the time the stowaway is determined to have a credible fear of persecution.
(B) Nonapplication

Subparagraph (A) shall not apply if—
(i)

the alien is a crewmember;

(ii) the alien has an immigrant visa;
(iii) the alien has a nonimmigrant visa or
other documentation authorizing the alien to
apply for temporary admission to the United
States and applies for admission not later than
120 days after the date the visa or documentation was issued;
(iv) the alien has a reentry permit and applies for admission not later than 120 days after
the date of the alien’s last inspection and admission;
(v)(I) the alien has a nonimmigrant visa or
other documentation authorizing the alien to
apply for temporary admission to the United
States or a reentry permit;
(II) the alien applies for admission more
than 120 days after the date the visa or documentation was issued or after the date of the
last inspection and admission under the reentry permit; and
(III) the owner of the vessel or aircraft satisfies the Attorney General that the existence
of the condition relating to inadmissibility could

154a
not have been discovered by exercising reasonable care before the alien boarded the vessel or
aircraft; or
(vi) the individual claims to be a national
of the United States and has a United States
passport.
*
(h)

*

*

*

*

Statutory construction

Nothing in this section shall be construed to create
any substantive or procedural right or benefit that is legally enforceable by any party against the United States
or its agencies or officers or any other person.
*

*

*

*

*

155a
APPENDIX H
MPP Guiding Principles
Date:

Jan. 28, 2019

Topic:

Guiding Principles for Migrant Protection Protocols

HQ POC/Office:

Enforcement Programs Division

•

Effective January 28, 2019, in accordance with the
Commissioner’s Memorandum of January 28, 2019,
the Office of Field Operations, San Diego Field Office, will, consistent with its existing discretion and
authorities, begin to implement Section 235(b)(2)(C)
of the Immigration and Nationality Act (INA) through
the Migrant Protection Protocols (MPP).
• To implement the MPP, aliens arriving from
Mexico who are amenable to the process (see
below), and who in an exercise of discretion the
officer determines should be subject to the
MPP process, will be issued an Notice to Appear (NTA) and placed into Section 240 removal proceedings. They will then be transferred to await proceedings in Mexico.

•

Aliens in the following categories are not amenable
to MPP:
• Unaccompanied alien children,
• Citizens or nationals of Mexico,
• Aliens processed for expedited removal,
• Aliens in special circumstances:

156a
• Returning LPRs seeking admission (subject
to INA section 212)
• Aliens with an advance parole document or
in parole status
• Known physical/mental health issues
• Criminals/history of violence
• Government of Mexico or USG interest,
• Any alien who is more likely than not to face
persecution or torture in Mexico, or
• Other aliens at the discretion of the Port Director
•

Nothing in this guidance changes existing policies
and procedures for processing an alien under procedures other than MPP, except as specifically provided. Thus, for instance, the processing of aliens
for expedited removal is unchanged. Once an alien
has been processed for expedited removal, including
the supervisor approval, the alien may not be processed for MPP.

•

Officers, with appropriate supervisory review, retain discretion to process aliens for MPP or under
other procedures (e.g., expedited removal), on a caseby-case basis. Adverse factors precluding placement in the MPP process include, but are not limited to, factors such as prior removal, criminal history, it is more likely than not that the alien will face
persecution or torture in Mexico, and permanent
bars to readmission.

157a
•

If an alien who is potentially amenable to MPP affirmatively states that he or she has a fear of persecution or torture in Mexico, or a fear of return to
Mexico, whether before or after they are processed
for MPP or other disposition, that alien will be referred to a USCIS asylum officer for screening following the affirmative statement of fear of persecution or torture in, or return to, Mexico, so that the
asylum officer can assess whether it is more likely
than not that the alien will face persecution or torture if returned to Mexico.

•

If USCIS assesses that an alien who affirmatively
states a fear of return to Mexico is more likely than
not to face persecution or torture in Mexico, the alien may not be processed for MPP. Officers retain
all existing discretion to process (or re-process) the
alien for any other available disposition, including
expedited removal, NTA, waivers, or parole.

•

Aliens at the POE who are processed for MPP will
receive a specific immigration court hearing date
and time. Every effort will be made to schedule
similar MPP alien populations (e.g. single adult
males, single adult females, family units) for the
same hearing dates.

•

OFO and USBP will be sharing court dates using
only one existing Immigration Scheduling System
(ISS) queue.

•

Any alien who is subject to MPP will be documented
in the appropriate system of records, SIGMA, and
the proper code will be added.

158a
•

POEs will provide aliens subject to MPP a tear sheet
containing information about the process, as well as
a list of free or low-cost legal service providers.

•

Aliens who return to the POE for their scheduled
hearing and affirmatively state a fear of return to
Mexico will be referred to USCIS for screening
prior to any return to Mexico. If USCIS assesses
that such an alien is more likely than not to face persecution or torture in Mexico, CBP Officers should
coordinate with ICE Enforcement and Removal Operations (ERO) to determine whether the alien may
be maintained in custody or paroled, or if another
disposition is appropriate. Such an alien may not
be subject to expedited removal, however, and may
not be returned to Mexico to await further proceedings.

Hearing date and processing
•

POEs will establish scheduling for the arrival of aliens returning for their hearing to permit efficient
transportation, according to applicable policy.

•

Returning aliens who arrive at the POEs for proceedings will be biometrically identified, screened
to ensure they have requisite documents, and turned
over to ICE ERO.

•

POEs will coordinate with ICE ERO to establish
transfer of custody and expeditious transportation
from the POE to the hearing. ERO is responsible
for the transportation of aliens between the POE
and court location, as well as the handling of the alien during all court proceedings.

159a
•

If the alien receives a final order of removal from an
immigration judge, the alien will be processed in accordance with ERO operations.

•

If the alien’s INA section 240 removal proceedings
are ongoing ERO will transport the alien back to the
POE and CBP officers will escort the alien to the
United States/Mexico limit line.

160a

Jan. 28, 2019
MEMORANDUM FOR: Todd C. Owen
Executive Assistant
Commissioner,
Field Operations
Carla L. Provost
Chief, U.S. Border Patrol
FROM:

SUBJECT:

/s/

Kevin K. McAleenan
KEVIN K. McALEENAN
Commissioner
Implementation of the
Migrant Protection
Protocols

Effective January 28, 2019, and in furtherance of the
provisions of the attached memorandum from the Secretary, U.S. Customs and Border Protection (CBP) will
commence implementation of the Migrant Protection
Protocols (MPP) under its existing discretion and the
authority of Section 235(b)(2)(C) of the Immigration and
Nationality Act (INA).
Section 235(b)(2)(C) of the INA provides that the Secretary of Homeland Security may return certain applicants for admission to the contiguous country from

161a
which they are arriving on land (whether or not at a designated port of entry) pending removal proceedings under Section 240 of the INA.
MPP implementation will begin at the San Ysidro port
of entry on January 28, 2019, and it is anticipated that it
will be expanded in the near future. Please ensure that
each stage of MPP expansion beyond OFO implementation at San Ysidro is coordinated closely with my office.
This memorandum is not intended to, and does not, create any right or benefit, substantive or procedural, enforceable at law or in equity by any party against the
United States, its departments, agencies, or entities, its
officers, employees, or agents , or any other person.

162a

Jan. 28, 2019
MEMORANDUM FOR: Directors, Field Operations
Office of Field Operations
Director, Field Operations
Academy
Office of Training and
Development
FROM:

SUBJECT:

/s/

Todd A. Hoffman
TODD A. HOFFMAN
Executive Director
Admissibility and Passenger
Programs
Office of Field Operations
Guidance on Migrant
Protection Protocols

Effective January 28, 2019, in accordance with the Commissioner’s Memorandum of January 28, 2019, and subject to the terms of policy, the Office of Field Operations
(OFO) San Diego Field Office will, consistent with its
existing discretion and authorities, implement Section
235(b)(2)(C) of the Immigration and Nationality Act (INA).
Under this implementation of section 235(b)(2)(C), referenced as the Migrant Protection Protocols (MPP),

163a
DHS is authorized to return certain applicants for admission who arrive via land at the San Ysidro Port of
Entry, and who are subject to removal proceedings under Section 240 of the INA, to Mexico pending removal
proceedings. Certain aliens, including vulnerable aliens, criminal aliens, or aliens of interest to the Government of Mexico (GoM) or the United States, will not be
placed into MPP in accordance with the Guiding Principles for Migrant Protection Protocols issued today by
the Enforcement Programs Division (HQ) (Guiding
Principles).
The Guiding Principles outline which aliens may be amenable to MPP. As part of the determination of whether
an alien is amenable to MPP, OFO will refer aliens who
are potentially amenable, but who affirmatively state
fear of return to Mexico whether before or after they are
processed for MPP or other disposition, to United States
Citizenship and Immigration Services (USCIS) for screening following the affirmative statement of fear of return
to Mexico. Please see the Guiding Principles for MPP.
This memorandum is not intended to, and does not, create any right or benefit substantive or procedural, enforceable at law or in equity by any party against the
United States, its departments, agencies, or entities, its
officers, employees, or agents or any other person.
Please ensure that this memorandum is disseminated to
all ports of entry within your jurisdiction.

164a

Migrant Protection Protocols (MPP)
FACT SHEET

Feb. 13, 2019

ICE Policy 11088.1:
tection Protocols

Implementation of the Migrant Pro-

On January 25, 2019, Secretary Nielsen issued a memorandum entitled Policy Guidance for Implementation
of the Migrant Protection Protocols, in which she provided guidance for the implementation of the Migrant
Protection Protocols (MPP) announced on December 20,
2018, an arrangement between the United States and
Mexico to address the migration crisis along our southern border. Pursuant to the Secretary’s direction, this
memorandum provides guidance to U.S. Immigration and
Customs Enforcement (ICE) about its role in the implementation of the MPP.
Migrant Protection Protocols Guidance for Enforcement
and Removal Operations Field Office Directors

This memorandum provides operational guidance to impacted Enforcement and Removal Operations (ERO)
field offices to ensure that the Migrant Protection Protocols (MPP) are implemented in accordance with
applicable law, the Secretary’s January 25, 2019, memorandum, Policy Guidance for Implementation of the

165a
Migrant Protection Protocols, Acting Director Vitiello’s
February 12, 2019, memorandum of the same title, and
other applicable policies and procedures.
Last Reviewed/Updated:

02/13/2019

166a

Jan. 25, 2019
ACTION

MEMORANDUM FOR: L. Francis Cissna
Director
U.S. Citizenship and
Immigration Services
Kevin K. McAleenan
Commissioner
U.S. Customs and Border
Protection
Ronald D. Vitiello
Deputy Director and
Senior Official Performing
the Duties of Director
U.S. Immigration and Customs
Enforcement
FROM:

SUBJECT:

/s/

Kirstjen M. Nielsen
KIRSTJEN M. NIELSEN
Secretary
Policy Guidance for
Implementation of the
Migrant Protection Protocols

167a
On December 20, 2018, I announced that the Department of Homeland Security (DHS) consistent with the
Migrant Protection Protocols (MPP), will begin implementation of Section 235(b)(2)(C) of the Immigration
and Nationality Act (INA) on a large-scale basis to address the migration crisis along our southern border.
In 1996, Congress added Section 235(b)(2)(C) to the
INA. This statutory authority allows the Secretary of
Homeland Security to return certain applicants for admission to the contiguous country from which they are
arriving on land (whether or not at a designated port of
entry) pending removal proceedings under Section 240
of the INA. Consistent with the MPP, citizens and nationals of countries other than Mexico (“third-country
nationals”) arriving in the United States by land from
Mexico—illegally or without proper documentation—may
be returned to Mexico pursuant to Section 235(b)(2)(C) for
the duration of their Section 240 removal proceedings.

168a
Section 235(b)(2)(C) and the MPP

The United States issued the following statement on December 20 2018, regarding implementation of the Migrant Protection Protocols:
[T]he United States will begin the process of implementing Section 235(b)(2)(C) . . . with respect to
non-Mexican nationals who may be arriving on land
(whether or not at a designated port of entry) seeking
to enter the United States from Mexico illegally or without proper documentation. Such implementation
will be done consistent with applicable domestic and
international legal obligations. Individuals subject
to this action may return to the United States as necessary and appropriate to attend their immigration
court proceedings.
The United States understands that, according to the
Mexican law of migration the Government of Mexico
will afford such individuals all legal and procedural
protection[s] provided for under applicable domestic
and international law. That includes applicable international human rights law and obligations as a
party to the 1951 Convention relating to the Status of
Refugees (and its 1967 Protocol) and the Convention
Against Torture.
The United States further recognizes that Mexico is
implementing its own, sovereign, migrant protection
protocols providing humanitarian support for and humanitarian visas to migrants.
The United States proposes a joint effort with the
Government of Mexico to develop a comprehensive
regional plan in consultation with foreign partners to

169a
address irregular migration smuggling, and trafficking with the goal of promoting human rights, economic development, and security. 1
The Government of Mexico, in response issued a statement on December 20, 2018. That statement provides
in part, as follows:
1.

For humanitarian reasons [the Government of
Mexico] will authorize the temporary entrance
of certain foreign individuals coming from the
United States who entered that country at a port
of entry or who were detained between ports of
entry have been interviewed by U.S. immigration
authorities, and have received a notice to appear
before an immigration judge. This is based on
current Mexican legislation and the international commitments Mexico has signed such as
the Convention Relating to the status of Refugees, its Protocol and the Convention against
Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, among others.

2.

It will allow foreigners who have received a notice to appear to request admission into Mexican
territory for humanitarian reasons at locations
designated for the international transit of individuals and to remain in national territory. This
would be a “stay for humanitarian reasons” and
they would be able to enter and leave national
territory multiple times.

Letter from Chargé d’Affaires John S. Creamer to Sr. Jesús
Seade, Subsecretaría para América del Norte, Secretaría de Relaciones Exteriores (Dec. 20, 2018).
1

170a
3.

It will ensure that foreigners who have received
their notice to appear have all the rights and
freedoms recognized in the Constitution, the international treaties to which Mexico is a party,
and its Migration Law. They will be entitled to
equal treatment with no discrimination whatsoever and due respect will be paid to their human
rights. They will also have the opportunity to
apply for a work permit for paid employment,
which will allow them to meet their basic needs.

4.

It will ensure that the measures taken by each
government are coordinated at a technical and
operational level in order to put mechanisms in
place that allow migrants who have receive[d] a
notice to appear before a U.S. immigration judge
have access without interference to information
and legal services and to prevent fraud and abuse.2
Prosecutorial Discretion and Non-Refoulement
in the Context of the MPP

In exercising their prosecutorial discretion regarding
whether to place an alien arriving by land from Mexico
in Section 240 removal proceedings (rather than another
applicable proceeding pursuant to the INA), and, if doing so, whether to return the alien to the contiguous
country from which he or she is arriving pursuant to
Section 235(b)(2)(C), DHS official should act consistent
with the non-refoulement principles contained in Article

Secretaría de Relaciones Exteriores, Position of Mexico on the
Decision of the U.S. Government to Invoke Section 235(b)(2)(C) of
its Immigration and Nationality Act (Dec. 20, 2018).
2

171a
33 of the 1951 Convention Relating to the Status of Refugees 3 (1951 Convention) and Article 3 of the Convention Against Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment (CAT). 4 Specifically, a third­country national should not be involuntarily returned to Mexico pursuant to Section 235(b)(2)(C)
of the INA if the alien would more likely than not be
persecuted on account of race religion nationality, membership in a particular social group, or political opinion
(unless such alien has engaged in criminal, persecutory,
or terrorist activity described in Section 241(b)(3)(B) of
the INA) or would more likely than not be tortured, if so
returned pending removal proceedings. The United
States expects that the Government of Mexico will comply with the commitments articulated in its statement of
December 20 2018.

The United States is not a party to the 1951 Convention but is a
party to the 1967 Protocol Relating to the Status of Refugees, which
incorporates Articles 2 to 34 of the 1951 Convention. Article 33 of
the 1951 Convention provides that: “[n]o Contracting State shall expel or return (‘refouler’) a refugee in any manner whatsoever to the
frontiers of territories where his life or freedom would be threatened
on account of his race, religion, nationality membership of a particular social group or political opinion.”
4
Article 3 of the CAT states, “No State Party shall expel return
(‘refouler’) or extradite a person to another State where there are
substantial grounds for believing that he would be in danger of
being subjected to torture.” See also Foreign Affairs Reform
and Restructuring Act of 1998 (FARRA) Pub. L. No. 105-277 Div.
G Title XXII, § 2242(a) (8 U.S.C. § 1231 note) (“It shall be the policy of the United States not to expel, extradite or otherwise effect
the involuntary return of any person to a country in which there are
substantial grounds for believing the person would be in danger of
being subjected to torture regardless of whether the person is physically present in the United States.”).
3

172a
U.S. Citizenship and Immigration Services, U.S. Customs and Border Protection, and U.S. Immigration and
Customs Enforcement will issue appropriate internal
procedural guidance to carry out the policy set forth in
this memorandum. 5
This memorandum is not intended to, and does not, create any right or benefit, substantive or procedural, enforceable at law or in equity by any party against the
United States, its departments, agencies, or entities, its
officers, employees, or agents, or any other person.

A DHS immigration officer, when processing an alien for Section
235(b)(2)(C), should refer to USCIS any alien who has expressed a
fear of return to Mexico for a non-refoulement assessment by an
asylum officer.
5

173a

MIGRANT PROTECTION
PROTOCOLS
Release Date: Jan. 24, 2019
“We have implemented an unprecedented action that
will address the urgent humanitarian and security crisis
at the Southern border. This humanitarian approach
will help to end the exploitation of our generous immigration laws. The Migrant Protection Protocols represent a methodical commonsense approach, exercising
long-standing statutory authority to help address the
crisis at our Southern border.”—Secretary of Homeland
Security Kirstjen M. Nielsen
What Are the Migrant Protection Protocols?

The Migrant Protection Protocols (MPP) are a U.S. Government action whereby certain foreign individuals entering or seeking admission to the U.S. from Mexico—
illegally or without proper documentation—may be returned to Mexico and wait outside of the U.S. for the duration of their immigration proceedings, where Mexico
will provide them with all appropriate humanitarian protections for the duration of their stay.

174a
Why is DHS Instituting MPP?

The U.S. is facing a security and humanitarian crisis on
the Southern border. The Department of Homeland
Security (DHS) is using all appropriate resources and
authorities to address the crisis and execute our missions to secure the borders, enforce immigration and
customs laws, facilitate legal trade and travel, counter
traffickers, smugglers and transnational criminal organizations, and interdict drugs and illegal contraband.
MPP will help restore a safe and orderly immigration
process, decrease the number of those taking advantage
of the immigration system, and the ability of smugglers
and traffickers to prey on vulnerable populations, and reduce threats to life, national security, and public safety,
while ensuring that vulnerable populations receive the
protections they need.
Historically, illegal aliens to the U.S. were predominantly single adult males from Mexico who were generally removed within 48 hours if they had no legal right
to stay; now over 60% are family units and unaccompanied children and 60% are non-Mexican. In FY17, CBP
apprehended 94,285 family units from Honduras, Guatemala, and El Salvador (Northern Triangle) at the
Southern border. Of those, 99% remain in the country
today.
Misguided court decisions and outdated laws have made
it easier for illegal aliens to enter and remain in the U.S.
if they are adults who arrive with children, unaccompanied
alien children, or individuals who fraudulently claim asylum. As a result, DHS continues to see huge numbers of
illegal migrants and a dramatic shift in the demographics

175a
of aliens traveling to the border, both in terms of nationality and type of aliens—from a demographic who could
be quickly removed when they had no legal right to stay
to one that cannot be detained and timely removed.
In October, November, and December of 2018, DHS encountered an average of 2,000 illegal and inadmissible
aliens a day at the Southern border. While not an alltime high in terms of overall numbers, record increases
in particular types of migrants, such as family units,
travelling to the border who require significantly more
resources to detain and remove (when our courts and
laws even allow that), have overwhelmed the U.S. immigration system, leading to a “system” that enables smugglers and traffickers to flourish and often leaves aliens
in limbo for years. This has been a prime cause of our
near-800,000 case backlog in immigration courts and delivers no consequences to aliens who have entered illegally.
Smugglers and traffickers are also using outdated laws
to entice migrants to undertake the dangerous journey
north where on the route migrants report high rates of
abuse, violence, and sexual assault. Human smugglers
and traffickers exploit migrants and seek to turn human
misery into profit. Transnational criminal organizations
and gangs are also deliberately exploiting the situation to
bring drugs, violence, and illicit goods into American communities. The activities of these smugglers, traffickers, gangs and criminals endanger the security of the
U.S., as well as partner nations in the region.
The situation has had severe impacts on U.S. border security and immigration operations. The dramatic increase in illegal migration, including unprecedented number of families and fraudulent asylum claims is making

176a
it harder for the U.S. to devote appropriate resources to
individuals who are legitimately fleeing persecution.
In fact, approximately 9 out of 10 asylum claims from
Northern Triangle countries are ultimately found nonmeritorious by federal immigration judges. Because of
the court backlog and the impact of outdated laws and
misguided court decisions, many of these individuals
have disappeared into the country before a judge denies
their claim and simply become fugitives.
The MPP will provide a safer and more orderly process
that will discourage individuals from attempting illegal
entry and making false claims to stay in the U.S., and
allow more resources to be dedicated to individuals who
legitimately qualify for asylum.
What Gives DHS the Authority to Implement MPP?

Section 235 of the Immigration and Nationality Act
(INA) addresses the inspection of aliens seeking to be
admitted into the U.S. and provides specific procedures
regarding the treatment of those not clearly entitled to
admission, including those who apply for asylum. Section 235(b)(2)(C) provides that “in the case of an alien
. . . who is arriving on land (whether or not at a designated port of arrival) from a foreign territory contiguous to the U.S.,” the Secretary of Homeland Security
“may return the alien to that territory pending a [removal] proceeding under § 240” of the INA.” The U.S.
has notified the Government of Mexico that it is implementing these procedures under U.S. law.
Who is Subject to MPP?

With certain exceptions, MPP applies to aliens arriving
in the U.S. on land from Mexico (including those apprehended along the border) who are not clearly admissible

177a
and who are placed in removal proceedings under INA
§ 240. This includes aliens who claim a fear of return
to Mexico at any point during apprehension, processing,
or such proceedings, but who have been assessed not to
be more likely than not to face persecution or torture in
Mexico. Unaccompanied alien children and aliens in
expedited removal proceedings will not be subject to
MPP. Other individuals from vulnerable populations
may be excluded on a case-by-case basis.
How Will MPP Work Operationally?

Certain aliens attempting to enter the U.S. illegally or
without documentation, including those who claim asylum, will no longer be released into the country, where
they often fail to file an asylum application and/or disappear before an immigration judge can determine the
merits of any claim. Instead, these aliens will be given
a “Notice to Appear” for their immigration court hearing and will be returned to Mexico until their hearing
date.
While aliens await their hearings in Mexico, the Mexican
government has made its own determination to provide
such individuals the ability to stay in Mexico, under applicable protection based on the type of status given to
them.
Aliens who need to return to the U.S. to attend their immigration court hearings will be allowed to enter and attend those hearings. Aliens whose claims are found meritorious by an immigration judge will be allowed to remain in the U.S. Those determined to be without valid
claims will be removed from the U.S. to their country of
nationality or citizenship.

178a
DHS is working closely with the U.S. Department of
Justice’s Executive Office for Immigration Review to
streamline the process and conclude removal proceedings as expeditiously as possible.
Will Migrants in MPP Have Access to Counsel?

Consistent with the law, aliens in removal proceedings
can use counsel of their choosing at no expense to the
U.S. Government. Aliens subject to MPP will be afforded the same right and provided with a list of legal
services providers in the area which offer services at little or no expense to the migrant.
What Are the Anticipated Benefits of MPP?

Every month, tens of thousands of individuals arrive unlawfully at the Southern Border. MPP will reduce the
number of aliens taking advantage of U.S. law and discourage false asylum claims. Aliens will not be permitted to disappear into the U.S. before a court issues a final decision on whether they will be admitted and provided protection under U.S. law. Instead, they will await
a determination in Mexico and receive appropriate humanitarian protections there. This will allow DHS to
more effectively assist legitimate asylum-seekers and
individuals fleeing persecution, as migrants with nonmeritorious or even fraudulent claims will no longer
have an incentive for making the journey. Moreover,
MPP will reduce the extraordinary strain on our border
security and immigration system, freeing up personnel
and resources to better protect our sovereignty and the
rule of law by restoring integrity to the American immigration system.
Keywords: CBP (/keywords/cbp)
Last Published Date: Jan. 24, 2019

179a

Secretary Kirstjen M. Nielsen Announces Historic Action
to Confront Illegal Immigration

U.S. Department of Homeland Security sent this bulletin at 12/20/2018 10:42 AM EST
U.S. DEPARTMENT OF HOMELAND SECURITY
Office of Public Affairs
FOR IMMEDIATE RELEASE
Dec. 20, 2018
Secretary Kirstjen M. Nielsen Announces Historic
Action to Confront Illegal Immigration

Announces Migration Protection Protocols
WASHINGTON—Today, Secretary of Homeland
Security Kirstjen M. Nielsen announced historic action to confront the illegal immigration crisis facing
the United States. Effective immediately, the United
States will begin the process of invoking Section
235(b)(2)(C) of the Immigration and Nationality Act.
Under the Migration Protection Protocols (MPP), individuals arriving in or entering the United States
from Mexico—illegally or without proper documentation—may be returned to Mexico for the duration
of their immigration proceedings.
“Today we are announcing historic measures to bring
the illegal immigration crisis under control,” said

180a
Secretary Nielsen. “We will confront this crisis
head on, uphold the rule of law, and strengthen our
humanitarian commitments. Aliens trying to game
the system to get into our country illegally will no
longer be able to disappear into the United States,
where many skip their court dates. Instead, they
will wait for an immigration court decision while they
are in Mexico. ‘Catch and release’ will be replaced
with ‘catch and return.’ In doing so, we will reduce
illegal migration by removing one of the key incentives that encourages people from taking the dangerous journey to the United States in the first place.
This will also allow us to focus more attention on
those who are actually fleeing persecution.
“Let me be clear: we will undertake these steps consistent with all domestic and international legal obligations, including our humanitarian commitments.
We have notified the Mexican government of our intended actions. In response, Mexico has made an independent determination that they will commit to implement essential measures on their side of the border.
We expect affected migrants will receive humanitarian
visas to stay on Mexican soil, the ability to apply for
work, and other protections while they await a U.S.
legal determination.”
Background
Illegal aliens have exploited asylum loopholes at an
alarming rate. Over the last five years, DHS has
seen a 2000 percent increase in aliens claiming credible fear (the first step to asylum), as many know it
will give them an opportunity to stay in our country,
even if they do not actually have a valid claim to asy-

181a
lum. As a result, the United States has an overwhelming asylum backlog of more than 786,000 pending cases. Last year alone the number of asylum
claims soared 67 percent compared to the previous
year. Most of these claims are not meritorious—in
fact nine out of ten asylum claims are not granted by
a federal immigration judge. However, by the time
a judge has ordered them removed from the United
States, many have vanished.
Process
•

Aliens trying to enter the U.S. to claim asylum
will no longer be released into our country,
where they often disappear before a court can
determine their claim’s merits.

•

Instead, those aliens will be processed by
DHS and given a “Notice to Appear” for their
immigration court hearing.

•

While they wait in Mexico, the Mexican government has made its own determination to
provide such individuals humanitarian visas,
work authorization, and other protections.
Aliens will have access to immigration attorneys and to the U.S. for their court hearings.

•

Aliens whose claims are upheld by U.S. judges
will be allowed in. Those without valid claims
will be deported to their home countries.
Anticipated Benefits

•

As we implement, illegal immigration and false
asylum claims are expected to decline.

•

Aliens will not be able to disappear into U.S.
before court decision.

182a
•

More attention can be focused on more quickly
assisting legitimate asylum-seekers, as fraudsters are disincentivized from making the
journey.

•

Precious border security personnel and resources will be freed up to focus on protecting
our territory and clearing the massive asylum
backlog.

•

Vulnerable populations will get the protection
they need while they await a determination in
Mexico.
# # #

183a

Jan. 28, 2019

PM-602-0169

Policy Memorandum

SUBJECT:

Guidance for Implementing Section
235(b)(2)(C) of the Immigration and
Nationality Act and the Migrant Protection Protocols

Purpose

This memorandum provides guidance to immigration officers in U.S. Citizenship and Immigration Services
(USCIS) regarding the implementation of the Migrant
Protection Protocols (MPP), including supporting the
exercise of prosecutorial discretion by U.S. Customs
and Border Protection (CBP). This memorandum follows the Secretary of Homeland Security’s January 25,
2019, memorandum, Policy Guidance for Implementation of the Migrant Protection Protocols.
Background

Section 235(b)(2)(C) of the Immigration and Nationality
Act (INA) provides that aliens arriving by land from a
foreign contiguous territory (i.e., Mexico or Canada)—
whether or not at a designated port of entry—generally
may be returned, as a matter of enforcement discretion,
to the territory from which they are arriving pending a
removal proceeding under Section 240 of the INA.

184a
On December 20, 2018, Secretary of Homeland Security
Kirstjen M. Nielsen announced that the Department of
Homeland Security (DHS) will begin the process of implementing Section 235(b)(2)(C) of the INA on a large
scale. That statutory provision allows for the return of
certain aliens to a contiguous territory pending Section
240 removal proceedings before an immigration judge.
Under the MPP, aliens who are nationals and citizens of
countries other than Mexico (third-country nationals)
arriving in the United States by land from Mexico—
illegally or without proper documentation—may be returned to Mexico for the duration of their immigration
proceedings as a matter of prosecutorial discretion.
Accord 8 C.F.R. § 235.3(d).
In her January 25, 2019, memorandum, Secretary Nielsen issued general policy guidance concerning DHS’s
implementation of Section 235(b)(2)(C) at the southern
border consistent with the MPP. Memorandum from
Kirstjen M. Nielsen, Secretary of Homeland Security,
Policy Guidance for Implementation of the Migrant
Protection Protocols (Jan. 25, 2019) (Jan. 25, 2019,
Memorandum). The Secretary advised that such authority should be implemented consistent with the nonrefoulement principles contained in Article 33 of the
1951 Convention Relating to the Status of Refugees
(1951 Convention)—as incorporated in the 1967 Protocol
Relating to the Status of Refugees 1—and Article 3 of the
The United States is not a party to the 1951 Convention Relating
to the Status of Refugees but is a party to the 1967 Protocol Relating
to the Status of Refugees, which incorporates Articles 2 to 34 of the
1951 Convention. Article 33 of the 1951 Convention provides that:
“[n]o Contracting State shall expel or return (‘refouler’) a refugee in
any manner whatsoever to the frontiers of territories where his life
1

185a
Convention Against Torture and Other Cruel, Inhuman
or Degrading Treatment or Punishment (CAT). 2
The Secretary specifically advised that, consistent with
those principles, “a third-country national should not be
involuntarily returned to Mexico pursuant to Section
235(b)(2)(C) of the INA if the alien would more likely
than not be persecuted on account of race, religion, nationality, membership in a particular social group, or political opinion (unless such alien has engaged in criminal,
persecutory, or terrorist activity described in Section
241(b)(3)(B) of the INA), or would more likely than not
be tortured, if so returned pending removal proceedings.” Jan. 25, 2019, Memorandum at 3-4. Article 33
of the 1951 Convention and Article 3 of the CAT require
that the individual demonstrate that he or she is “more
likely than not” to face persecution on account of a protected ground or torture, respectively. 3 That is the
or freedom would be threatened on account of his race, religion, nationality, membership of a particular social group or political opinion.”
2
Article 3 of the CAT states, “No State Party shall expel, return
(‘refouler’) or extradite a person to another State where there are
substantial grounds for believing that he would be in danger of being
subjected to torture.” See also Foreign Affairs Reform and Restructuring Act of 1998 (FARRA), Pub. L. No. 105-277, Div. G, Title
XXII, § 2242(a) (8 U.S.C. § 1231 note) (“It shall be the policy of the
United States not to expel, extradite, or otherwise effect the involuntary return of any person to a country in which there are substantial grounds for believing the person would be in danger of being
subjected to torture, regardless of whether the person is physically
present in the United States.”).
3
See INS v. Stevic, 467 U.S. 407, 429-30 (1984); Auguste v. Ridge,
395 F.3d 123, 132-33 (3d Cir. 2005); Pierre v. Gonzales, 502 F.3d 109,
115 (2d Cir. 2007); see also Senate Resolution of Advice and Consent to Ratification of the Convention Against Torture and Other

186a
same standard used for withholding of removal and CAT
protection determinations. See 8 C.F.R. § 208.16(b)(2),
(c)(2); Regulations Concerning the Convention Against
Torture, 64 Fed. Reg. 8478, 8480 (1999).
At the same time, under the MPP, the United States
“understands that, according to the Mexican law of migration, the Government of Mexico will afford such individuals all legal and procedural protection[s] provided
for under applicable domestic and international law,” including the 1951 Convention and the CAT. Letter
from Chargé d’Affaires John S. Creamer to Sr. Jesús
Seade, Subsecretaría para América del Norte, Secretaría de Relaciones Exteriores (Dec. 20, 2018). Further,
“[t]he United States expects that the Government of
Mexico will comply with the commitments articulated in
its statement of December 20, 2018.” 4
The Secretary also advised that, where an alien affirmatively states a concern that he or she may face a risk of
persecution on account of a protected ground or torture
upon return to Mexico, CBP should refer the alien to
USCIS, which will conduct an assessment to determine
whether it is more likely than not that the alien will be
subject to persecution or torture if returned to Mexico.
The Secretary directed USCIS to issue appropriate internal procedural guidance to carry out this policy.
That guidance is explained below.

Cruel, Inhuman or Degrading Treatment or Punishment, S. Treaty
Doc. No. 100-20, II(2), available at https://www.congress.gov/treatydocument/100th-congress/20/resolution-text; Regulations Concerning the Convention Against Torture, 64 Fed. Reg. 8478, 8480 (1999).
4
Jan. 25, 2019, Memorandum at 4.

187a
Guidance

Upon a referral by a DHS immigration officer of an alien
who could potentially be amenable to the MPP, the
USCIS asylum officer should interview the alien to assess whether it is more likely than not that the alien
would be persecuted in Mexico on account of his or her
race, religion, nationality, membership in a particular
social group, or political opinion (unless such alien has
engaged in criminal, persecutory, or terrorist activity
described in Section 241(b)(3)(B) of the INA), 5 or that
the alien would be tortured in Mexico. The process or
procedures described in INA Sections 208, 235(b)(1), (3),
and 241(b)(3) and their implementing regulations, as
well as those in the CAT regulations, do not apply to the
MPP assessments.
A.

Interview

Upon receipt of such a referral, the USCIS officer
should conduct the MPP assessment interview in a nonadversarial manner, separate and apart from the general public. The purpose of the interview is to elicit all
relevant and useful information bearing on whether the
alien would more likely than not face persecution on account of a protected ground, or torture, if the alien is
returned to Mexico pending the conclusion of the alien’s
Section 240 immigration proceedings.
The officer should conduct the assessment in person, via
video teleconference, or telephonically. At the time of
the interview, the USCIS officer should verify that the
The disqualifying grounds for non-refoulement vis-à-vis the 1951
Convention and 1967 Protocol are reflected in Section 241(b)(3)(B)
of the INA. However, the reference to Section 241(b)(3)(B) should
not be construed to suggest that Section 241(b)(3)(B) applies to MPP.
5

188a
alien understands that he or she may be subject to return to Mexico under Section 235(b)(2)(C) pending his
or her immigration proceedings. The officer should
also confirm that the alien has an understanding of the
interview process. In addition, provided the MPP assessments are part of either primary or secondary inspection, DHS is currently unable to provide access to
counsel during the assessments given the limited capacity and resources at ports-of-entry and Border Patrol
stations as well as the need for the orderly and efficient
processing of individuals. 6
In conducting the interview, the USCIS officer should
take into account the following and other such relevant
factors as:

6

1.

The credibility of any statements made by the
alien in support of the alien’s claim(s) and such
other facts as are known to the officer. That includes whether any alleged harm (i.e., the alleged persecution or torture) could occur in the
region in which the alien would reside in Mexico,
pending their removal proceedings, or whether
residing in another region of Mexico to which the
alien would have reasonable access could mitigate against the alleged harm;

2.

Commitments from the Government of Mexico
regarding the treatment and protection of aliens
returned under Section 235(b)(2)(C) (including
those set forth in the Government of Mexico’s

See 8 C.F.R. § 292.5(b).

189a
statement of December 20, 2018), 7 the expectation of the United States Government that the
Government of Mexico will comply with such
commitments, 8 and reliable assessments of current country conditions in Mexico (especially
those provided by DHS and the U.S. Department of State); and
3.

Whether the alien has engaged in criminal, persecutory, or terrorist activity described in Section 241(b)(3)(B) of the INA.
B.

Assessment

Once a USCIS officer assesses whether the alien, if returned to Mexico, would be more likely than not persecuted in Mexico on account of a protected ground (or has
engaged in criminal, persecutory, or terrorist activity
described in Section 241(b)(3)(B) of the INA), or would
be more likely than not tortured in Mexico, the assessment shall be reviewed by a supervisory asylum officer,
who may change or concur with the assessment’s conclusion. DHS staff should inform the alien of the outcome
of the final assessment. USCIS should then provide its
assessment to CBP for purposes of exercising prosecutorial discretion in connection with one or more of the
decisions as to whether to place the alien in expedited
removal or to issue a Notice to Appear for the purpose
of placement directly into Section 240 removal proceedings, and if the latter, whether to return the alien to
Secretaría de Relaciones Exteriores, Position of Mexico on the
Decision of the U.S. Government to Invoke Section 235(b)(2)(C) of its
Immigration and Nationality Act (Dec. 20, 2018); see Jan. 25, 2019,
Memorandum at 2-3.
8
See Jan. 25, 2019, Memorandum at 4.
7

190a
Mexico pending the conclusion of Section 240 proceedings under Section 235(b)(2)(C) pursuant to the MPP,
and, when appropriate, to U.S. Immigration and Customs Enforcement for purposes of making discretionary
custody determinations for aliens who are subject to detention and may be taken into custody pending removal
proceedings.
If an officer makes a positive MPP assessment (i.e., that
an alien is more likely than not either to be persecuted
in Mexico on account of a protected ground and has not
engaged in criminal, persecutory, or terrorist activity
described in Section 241(b)(3)(B) of the INA, or to be
tortured in Mexico), USCIS is not granting withholding
of removal or protection from removal under the CAT
regulations. Nor shall there be further administrative
review, reopening, or reconsideration of the assessment
by USCIS. The purpose of the assessment is simply to
assess whether the alien meets one of the eligibility criteria under the MPP, pursuant to Section 235(b)(2)(C).
Disclaimer

This memorandum is not intended to, and does not, create any right or benefit, substantive or procedural, enforceable at law or in equity by any party against the
United States, its departments, agencies, or entities, its
officers, employees, or agents, or any other person.
Likewise, no limitations are placed by this guidance on
the otherwise lawful enforcement or litigation prerogatives of DHS.
Contact Information

Questions relating to this memorandum must be directed through the appropriate channels to the Asylum
Division Headquarters point of contact.

191a

Feb. 12, 2019
MEMORANDUM FOR: Field Office Directors
Enforcement and Removal
Operations
FROM:

Nathalie R. Asher
/s/ NATHALIE R. ASHER
Acting Executive Associate
Director

Purpose
This memorandum provides operational guidance to impacted Enforcement and Removal Operations (ERO)
field offices to ensure that the Migrant Protection Protocols (MPP) are implemented in accordance with applicable law, the Secretary’s January 25, 2019, memorandum, Policy Guidance for Implementation of the Migrant Protection Protocols, Acting Director Vitiello’s
February 12, 2019, memorandum of the same title, and
other applicable policies and procedures.
Background
On January 25, 2019, Secretary Nielsen issued a memorandum entitled Policy Guidance for Implementation
of the Migrant Protection Protocols, in which she provided guidance for the implementation of the MPP, an

192a
arrangement between the United States and Mexico to
address the migration crisis along our southern border
announced on December 20, 2018. Thereafter, on February 12, 2019, Deputy Director and Senior Official Performing the Duties of the Director Vitiello issued U.S.
Immigration and Customs Enforcement (ICE) Policy
Memorandum 11088.1, Implementation of the Migrant
Protection Protocols, announcing that operational implementation of MPP began at the San Ysidro port of
entry on or about January 28, 2019, and directing that
ICE program offices issue further guidance to ensure
that the MPP is implemented in accordance with the
Secretary’s memorandum applicable law, and policy
guidance and procedures.
Discussion
Under section 235(b)(2)(C) of the Immigration and Nationality Act (INA), the U.S. Department of Homeland
Security (DHS) may, in its discretion, with regard to
certain applicants for admission who are “arriving on
land (whether or not at a designated port of arrival)
from a foreign territory contiguous to the United States,
. . . return the alien[s] to that territory pending a proceeding under [INA section] 240.” return the alien to
Mexico pending removal proceedings pursuant to section 235(b)(2)(C) of the INA, as detailed in ICE Policy
Memorandum 11088.1. Aliens processed under the
MPP will be issued a Notice to Appear (NTA) by CBP
and returned by CBP to Mexico to await their removal
proceedings.
Aliens returned to Mexico under the MPP pursuant to
section 235(b)(2)(C) of the INA will be required to report to a designated POE on their scheduled hearing
dates and will be paroled into the United States by CBP

193a
for purposes of their hearings. As further explained in
the next section, CBP will then transfer the aliens to
ERO custody for transportation to designated Executive Office for Immigration Review (EOIR) court locations for their hearings.
If the alien is granted relief or protection from removal
by the immigration judge or is ordered removed from
the United States, and appeal is not reserved by either
party, the alien will be processed in accordance with
standard procedures applicable to final order cases. If
the immigration judge continues proceedings or enters
an order upon which either party reserves appeal, ERO
will transport the alien back to the POE, whereupon
CBP officers will take custody of the alien to return the
alien to Mexico to await further proceedings.
MPP implementation began at the San Ysidro port of
entry (POE) on or about January 28, 2019, and it is intended that MPP implementation will expand to additional locations along the southern border. This memorandum provides general procedural guidance applicable to ERO personnel in the implementation of the MPP.
Field Office Directors should each assign a lead POC for
MPP issues arising within their AORs and issue local
operational guidance applicable to their individual areas
of responsibility as the MPP is phased in.
Hearing Transportation and Custody
Before returning an alien to Mexico under the MPP to
await his or her removal proceedings, CBP will provide
the alien instructions explaining when and to which POE
to report to attend his or her hearing. On the day of the
hearing, an alien returned to Mexico under the MPP will
arrive at the POE at the time designated—generally, a

194a
time sufficient to allow for CBP processing, prehearing
consultation with counsel (if applicable), and timely appearance at hearings. Once CBP conducts POE processing (including verification of identity and a brief
medical screening), for hearings set at immigration
courts located in the interior of the United States, CBP
will parole the alien into ICE’s custody under INA section 212(d)(5)(A), and ERO will maintain physical custody of the alien during transportation of the alien from
the POE to the designated immigration court location,
making appropriate use of contract support and complying with applicable requirements concerning the transportation of aliens.
In cases in which ICE performs that transportation
function between the POE and an inland immigration
court, the alien is detained in ICE custody as an arriving
alien. 1 ERO should coordinate locally with CBP officials at POEs where the MPP has been implemented, so
that the daily volume of MPP cases can be monitored
and any transportation needs may be properly met.
ERO should also coordinate locally with EOIR concerning security arrangements at the immigration court location. While EOIR is responsible for security inside
the courtroom, and ERO should generally defer to immigration judges’ wishes concerning their presence in

Aliens participating in the MPP who CBP initially encounters at
a POE are “arriving aliens” within the meaning of 8 C.F.R. §§ 1.2
and 1001.1(q) (defining “arriving alien” to include “an applicant for
admission coming . . . into the United States at a port-ofentry”). Moreover, on their hearing dates before an immigration
judge, aliens who CBP initially encountered between the POEs will
come to a POE to attend their hearings, placing them within the “arriving alien” definition, as well.
1

195a
the courtroom, DHS is ultimately responsible for maintaining custody of the alien. If an alien is ordered released by an immigration judge, ERO should coordinate
closely with the ICE Office of the Principal Legal Advisor (OPLA) regarding how to proceed with the case.
After an alien’s removal hearing is over, ERO will
transport him or her back to the POE for return to Mexico or to retrieve property, as applicable. If the alien
has received a final grant of relief or an administratively
final order of removal, ERO will coordinate with CBP
and make appropriate custody determinations.
Access to Counsel
Section 240(b)(4)(A) of the INA provides that an alien in
removal proceedings before an immigration judge “shall
have the privilege of being represented, at no expense
to the Government, by counsel of the alien’s choosing
who is authorized to practice in such proceedings.”
Similarly, section 292 provides that “[i]n any removal
proceedings . . . the person concerned shall have
the privilege of being represented (at no expense to the
Government) by such counsel
. . .
as he shall
choose.” Accordingly, in order to facilitate access to
counsel for aliens subject to return to Mexico under the
MPP who will be transported to their immigration court
hearings by ERO, ERO will depart from the POE with
the alien at a time sufficient to ensure arrival at the immigration court not later than one hour before his or her
scheduled hearing time in order to afford the alien the
opportunity to meet in-person with his or her legal representative.

196a
Non-Refoulement Considerations
In accordance with Secretary Nielsen’s January 25,
2019, memorandum, DHS should implement the MPP
consistent with the non-refoulement principles contained in Article 33 of the 1951 Convention Relating to
the Status of Refugees (1951 Convention) and Article 3
of the Convention Against Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment (CAT).
Specifically, an alien should not be involuntarily returned to Mexico under the MPP if the alien would more
likely than not be persecuted on account of race, religion, nationality, membership in a particular social
group, or political opinion (unless such alien has engaged in criminal, persecutory, or terrorist activity described in section 241(b)(3)(B) of the INA), or would
more likely than not be tortured, if so returned pending
removal proceedings.
If an alien subject to the MPP affirmatively states to an
ERO officer that he or she has a fear of persecution or
torture in Mexico, or a fear of return to Mexico, at any
point while in ERO custody, ERO will notify CBP of the
alien’s affirmative statement so that CBP officials at the
POE may refer the alien to a U.S. Citizenship and Immigration Services (USCIS) asylum officer for screening before any return to Mexico to assess whether it is
more likely than not that the alien will face persecution
or torture if returned to Mexico in accordance with guidance issued by the Director of USCIS.
If USCIS assesses that such an alien is more likely than
not to face persecution or torture in Mexico, ERO will
determine whether the alien may be maintained in custody or paroled, or if another disposition is appropriate.
Such an alien may not be subject to expedited removal;

197a
however, and may not be returned to Mexico to await
further proceedings. 2
Recordkeeping and Reporting
MPP aliens booked in and out of ICE custody must be
appropriately documented in the Enforce Alien Detention Module (EADM) and monitored per a final Form
I-216, Record of Person and Property Transfer. For
MPP aliens booked into ICE custody, the comment “out
to court pursuant to MPP,” must be added to the comments section of EADM.
EADM records for MPP aliens booked out of ICE custody will need to reflect the appropriate court dispositions. Comments in EADM should reflect “MPP, Returned to the POE for Future Hearing;” “MPP, Granted
Relief, Released from Custody;” “MPP, Claimed Fear of
Mexico, returned to the POE;” or “MPP, Ordered Removed,” or similar comments indicating an MPP disposition as appropriate.
Disclaimers
Except as specifically provided in relation to the MPP,
existing policies and procedures for processing and removing aliens remain unchanged. That applies to recordkeeping responsibilities as well as removal authority
and responsibility. The MPP does not change ERO’s
removal operations, and removable aliens will be processed in accordance with standard practices and procedures.
In MPP cases where an immigration judge grants withholding or
deferral of removal to Mexico and appeal is reserved, ERO should
confer with OPLA about appropriate next steps prior to any return
under INA section 235(b)(2)(C).
2

198a
This document is not intended to, and does not, create
any right or benefit, substantive or procedural, enforceable at law or in equity by any party against the United
States, its departments, agencies, or entities, its officers, employees, or agents, or any other person. Likewise, this guidance places no limitations on the otherwise lawful enforcement or litigative prerogatives of
DHS.

199a
APPENDIX I
U.S. Department of Justice

Civil Division
P.O. Box 868, Ben Franklin Station
Washington, D.C. 20044
Oct. 30, 2019
Molly C. Dwyer
Clerk, U.S. Court of Appeals
for the Ninth Circuit
95 Seventh Street
San Francisco, CA 94103
Re: Innovation Law Lab v. McAleenan, No. 19-15716
(9th Cir.) (oral argument held on October 1,
2019, James R. Browning Courthouse, Courtroom 1, San Francisco, California), Rule 28( j)
Letter
Dear Ms. Dwyer:
Defendants inform the Court that, on October 28,
2019, the Department of Homeland Security (DHS) issued an “Assessment of the Migrant Protection Protocols (MPP),” available at https://www.dhs.gov/sites/
default/files/publications/assessment_of_the_migrant_
protection_protocols_mpp.pdf. The Assessment evaluates MPP based on DHS’s nine months of implementation experience.
The Assessment explains, first, that “MPP has been
an indispensable tool in addressing” the immigration
and border crisis. Assessment 2; see Assessment 2-3.

200a
Among other things, “DHS has observed a connection
between MPP implementation and decreasing enforcement actions at the border—including a rapid and substantial decline in apprehensions in those areas where
the most amenable aliens have been processed and returned to Mexico” under MPP. Id. DHS reports that
it “has returned more than 55,000 aliens to Mexico under
MPP.” Id.
Second, the Assessment summarizes continuing efforts to protect migrants subject to MPP. Assessment
4-5. Mexico “has publicly committed to protecting migrants,” the United States is working with international
organizations aiding “migrants in cities near Mexico’s
northern border,” and the United States is continuing
its “engagement” with Mexico on MPP as “part of a
larger framework of regional collaboration.” Id.
Third, the Assessment explains DHS’s judgment that
its fear-assessment protocol is effective and consistent
with non-refoulement obligations. Assessment 5, 7-10.
“Fear screenings are a well-established part of MPP,”
U.S. Citizenship and Immigration Services (USCIS) has
conducted thousands of those screenings, and “the vast
majority of those third-country aliens who express fear
of return to Mexico are not found to be more likely than
not to be tortured or persecuted on account of a protected ground there.” Assessment 5. USCIS also explains its predictive judgment, “informed by USCIS’s
experience conducting credible fear screenings,” that “if
DHS were to change its fear-assessment protocol to affirmatively ask an alien amenable to MPP whether he or
she fears return to Mexico, the number of fraudulent or
meritless fear claims will significantly increase.” Assessment 7. Based on its experience, “DHS does not

201a
believe amending the process to affirmatively ask
whether an alien has a fear of return to Mexico is necessary in order to properly identify aliens with legitimate
fear claims in Mexico.” Assessment 9.
Sincerely,
By:

/s/

EREZ REUVENI
EREZ REUVENI
Assistant Director
United States Department of Justice
P.O. Box 868, Ben Franklin Station
Washington, DC 20044
Phone: (202) 307-4293
Erez.r.reuveni@usdoj.gov

202a
CERTIFICATES

I hereby certify that this filing is 350 words, and
therefore complies with the word limitations of Federal
Rule of Appellate Procedure 28( j) and this Circuit’s local
rules.
I hereby certify that on October 30, 2019, I electronically filed the foregoing letter brief with the Clerk of
the Court by using the appellate CM/ECF system.
Counsel of record are registered CM/ECF users.
/s/

EREZ REUVENI
EREZ REUVENI

203a
Assessment of the Migrant Protection Protocols (MPP)
Oct. 28, 2019
I.

Overview and Legal Basis

The Department of Homeland Security (DHS) remains
committed to using all available tools to address the unprecedented security and humanitarian crisis at the
southern border of the United States.
•

At peak of the crisis in May 2019, there were
more than 4,800 aliens crossing the border
daily—representing an average of more than
three apprehensions per minute.

•

The law provides for mandatory detention of
aliens who unlawfully enter the United States
between ports of entry if they are placed in
expedited removal proceedings. However,
resource constraints during the crisis, as well
as other court-ordered limitations on the ability to detain individuals, made many releases
inevitable, particularly for aliens who were
processed as members of family units.

Section 235(b)(2)(C) of the Immigration and Nationality
Act (INA) authorizes the Department of Homeland Security to return certain applicants for admission to the
contiguous country from which they are arriving on land
(whether or not at a designated port of entry), pending
removal proceedings under INA § 240.
•

Consistent with this express statutory authority, DHS began implementing the Migrant
Protection Protocols (MPP) and returning aliens subject to INA § 235(b)(2)(C) to Mexico,
in January 2019.

204a
•

Under MPP, certain aliens who are nationals
and citizens of countries other than Mexico
(third-country nationals) arriving in the
United States by land from Mexico who are
not admissible may be returned to Mexico for
the duration of their immigration proceedings.

The U.S. government initiated MPP pursuant to U.S.
law, but has implemented and expanded the program
through ongoing discussions, and in close coordination, with the Government of Mexico (GOM).
•

MPP is a core component of U.S. foreign relations and bilateral cooperation with GOM to
address the migration crisis across the shared
U.S.-Mexico border.

•

MPP expansion was among the key “meaningful and unprecedented steps” undertaken by
GOM “to help curb the flow of illegal immigration to the U.S. border since the launch of the
U.S.-Mexico Declaration in Washington on
June 7, 2019.” 1

•

On September 10, 2019, Vice President Pence
and Foreign Minister Ebrard “agree[d] to implement the Migrant Protection Protocols to
the fullest extent possible.” 2

1
https://www.whitehouse.gov/briefings-statements/readout-vicepresident-mike-pences-meeting-mexican-foreign-secretary-marceloebrard/
2
https://www.whitehouse.gov/briefings-statements/readout-vicepresident-mike-pences-meeting-mexican-foreign-secretary-marceloebrard/

205a
•

II.

Therefore, disruption of MPP would adversely impact U.S. foreign relations—along
with the U.S. government’s ability to effectively address the border security and humanitarian crisis that constitutes an ongoing national emergency. 3
MPP Has Demonstrated Operational Effectiveness

In the past nine months—following a phased implementation, and in close coordination with GOM—DHS has
returned more than 55,000 aliens to Mexico under MPP.
MPP has been an indispensable tool in addressing the
ongoing crisis at the southern border and restoring integrity to the immigration system.
Apprehensions of Illegal Aliens are Decreasing

•

Since a recent peak of more than 144,000
in May 2019, total enforcement actions—
representing the number of aliens apprehended between points of entry or found inadmissible at ports of entry—have decreased by
64%, through September 2019.

•

Border encounters with Central American
families—who were the main driver of the crisis and comprise a majority of MPP-amenable
aliens—have decreased by approximately
80%.

•

Although MPP is one among many tools that
DHS has employed in response to the border

https://www.whitehouse.gov/presidential-actions/presidentialproclamation-declaring-national-emergency-concerning-southernborder-united-states/
3

206a
crisis, DHS has observed a connection between MPP implementation and decreasing
enforcement actions at the border—including
a rapid and substantial decline in apprehensions in those areas where the most amenable
aliens have been processed and returned to
Mexico pursuant to MPP.
MPP is Restoring Integrity to the System

•

Individuals returned to Mexico pursuant to
MPP are now at various stages of their immigration proceedings:
some are awaiting
their first hearing; some have completed their
first hearing and are awaiting their individual
hearing; some have received an order of removal from an immigration judge and are now
pursuing an appeal; some have established a
fear of return to Mexico and are awaiting their
proceedings in the United States; some have
been removed to their home countries; and
some have withdrawn claims and elected to
voluntarily return to their home countries.

•

MPP returnees with meritorious claims can
be granted relief or protection within months,
rather than remaining in limbo for years while
awaiting immigration court proceedings in the
United States.
o

The United States committed to GOM to
minimize the time that migrants wait in
Mexico for their immigration proceedings.
Specifically, the Department of Justice
(DOJ) agreed to treat MPP cases such as

207a
detained cases such that they are prioritized according to longstanding guidance
for such cases.
o

The first three locations for MPP
implementation—San Diego, Calexico,
and El Paso—were chosen because of
their close proximity to existing immigration courts.

o

After the June 7, 2019, Joint Declaration
between GOM and the United States
providing for expansion of MPP through
bilateral cooperation, DHS erected temporary, dedicated MPP hearing locations
at ports of entry in Laredo and Brownsville, in coordination with DOJ, at a total
six-month construction and operation cost
of approximately $70 million.

o

Individuals processed in MPP receive initial court hearings within two to four
months, and—as of October 21, 2019—
almost 13,000 cases had been completed
at the immigration court level.

o

A small subset of completed cases have
resulted in grants of relief or protection,
demonstrating that MPP returnees with
meritorious claims can receive asylum, or
any relief or protection for which they are
eligible, more quickly via MPP than under available alternatives.

o

Individuals not processed under MPP
generally must wait years for adjudica-

208a
tion of their claims. There are approximately one million pending cases in DOJ
immigration courts. Assuming the immigration courts received no new cases
and completed existing cases at a pace of
30,000 per month—it would take several
years, until approximately the end of
2022, to clear the existing backlog.
•

MPP returnees who do not qualify for relief or
protection are being quickly removed from
the United States. Moreover, aliens without
meritorious claims—which no longer constitute a free ticket into the United States—are
beginning to voluntarily return home.
o

According to CBP estimates, approximately 20,000 people are sheltered in
northern Mexico, near the U.S. border,
awaiting entry to the United States.
This number—along with the growing
participation in an Assisted Voluntary
Return (AVR) program operated by the
International Organization for Migration
(IOM), as described in more detail below
—suggests that a significant proportion
of the 55,000+ MPP returnees have chosen to abandon their claims.

III. Both Governments Endeavor to Provide Safety
and Security for Migrants

•

The Government of Mexico (GOM) has publicly committed to protecting migrants.
o

A December 20, 2018, GOM statement indicated that “Mexico will guarantee that

209a
foreigners who have received their notice
fully enjoy the rights and freedoms recognized in the Constitution, in the international treaties to which the Mexican State
is a party, as well as in the current Migration Law. They will be entitled to equal
treatment without any discrimination and
due respect to their human rights, as well
as the opportunity to apply for a work
permit in exchange for remuneration,
which will allow them to meet their basic
needs.”

o

▪

Consistent with its commitments,
GOM has accepted the return of aliens
amenable to MPP. DHS understands
that MPP returnees in Mexico are provided access to humanitarian care and
assistance, food and housing, work permits, and education.

▪

GOM has launched an unprecedented
enforcement effort bringing to justice
transnational criminal organizations
(TCOs) who prey on migrants transiting through Mexico—enhancing the
safety of all individuals, including
MPP-amenable aliens.

As a G-20 country with many of its 32
states enjoying low unemployment and
crime, Mexico’s commitment should be
taken in good faith by the United States
and other stakeholders. Should GOM

210a
identify any requests for additional assistance, the United States is prepared to assist.
•

•

Furthermore, the U.S. government is partnering with international organizations offering services to migrants in cities near Mexico’s northern border.
o

In September 2019, the U.S. Department
of State Bureau of Population, Refugees,
and Migration (PRM) funded a $5.5 million project by IOM to provide shelter in
cities along Mexico’s northern border to
approximately 8,000 vulnerable thirdcountry asylum seekers, victims of trafficking, and victims of violent crime in cities along Mexico’s northern border.

o

In late September 2019, PRM provided
$11.9 million to IOM to provide cashbased assistance for migrants seeking to
move out of shelters and into more sustainable living.

The U.S. Government is also supporting options for those individuals who wish to voluntarily withdraw their claims and receive free
transportation home. Since November 2018,
IOM has operated its AVR program from
hubs within Mexico and Guatemala, including
Tijuana and Ciudad Juarez. PRM has provided $5 million to IOM to expand that program to Matamoros and Nuevo Laredo and
expand operations in other Mexican northern
border cities. As of mid-October, almost 900

211a
aliens in MPP have participated in the AVR
program.
•

The United States’ ongoing engagement with
Mexico is part of a larger framework of regional collaboration. Just as United Nations
High Commissioner for Refugees has called
for international cooperation to face the serious challenges in responding to large-scale
movement of migrants and asylum-seekers
travelling by dangerous and irregular means,
the U.S. Government has worked with Guatemala, El Salvador, and Honduras to form
partnerships on asylum cooperation (which includes capacity-building assistance), training
and capacity building for border security operations, biometrics data sharing and increasing access to H-2A and H-2B visas for lawful
access to the United States.

IV. Screening Protocols Appropriately Assess Fear of
Persecution or Torture

•

When a third-country alien states that he or
she has a fear of persecution or torture in
Mexico, or a fear of return to Mexico, the alien
is referred to U.S. Citizenship & Immigration
Services (USCIS). Upon referral, USCIS
conducts an MPP fear-assessment interview
to determine whether it is more likely than
not that the alien will be subject to torture or
persecution on account of a protected ground
if returned to Mexico.
o

MPP fear assessments are conducted
consistent with U.S. law implementing

212a
the non-refoulement obligations imposed
on the United States by certain international agreements and inform whether an
alien is processed under—or remains—in
MPP.
o

•

As used here, “persecution” and “torture”
have specific international and domestic
legal meanings distinct from fear for personal safety.

Fear screenings are a well-established part of
MPP. As of October 15, 2019, USCIS completed over 7,400 screenings to assess a fear
of return to Mexico.
o

That number included individuals who express a fear upon initial encounter, as well
as those who express a fear of return to
Mexico at any subsequent point in their
immigration proceedings, including some
individuals who have made multiple
claims.

o

Of those, approximately 13% have received positive determinations and 86%
have received negative determinations.

o

Thus, the vast majority of those thirdcountry aliens who express fear of return
to Mexico are not found to be more likely
than not to be tortured or persecuted on
account of a protected ground there.
This result is unsurprising, not least because aliens amenable to MPP voluntarily
entered Mexico en route to the United
States.

213a
V.

Summary and Conclusion

In recent years, only about 15% of Central American nationals making asylum claims have been granted relief
or protection by an immigration judge. Similarly, affirmative asylum grant rates for nationals of Guatemala,
El Salvador, and Honduras were approximately 21% in
Fiscal Year 2019. At the same time, there are—as
noted above—over one million pending cases in DOJ immigration courts, in addition to several hundred thousand asylum cases pending with USCIS.
These unprecedented backlogs have strained DHS resources and challenged its ability to effectively execute
the laws passed by Congress and deliver appropriate immigration consequences: those with meritorious claims
can wait years for protection or relief, and those with
non-meritorious claims often remain in the country for
lengthy periods of time.
This broken system has created perverse incentives,
with damaging and far-reaching consequences for both
the United States and its regional partners. In Fiscal
Year 2019, certain regions in Guatemala and Honduras
saw 2.5% of their population migrate to the United
States, which is an unsustainable loss for these countries.
MPP is one among several tools DHS has employed effectively to reduce the incentive for aliens to assert
claims for relief or protection, many of which may be
meritless, as a means to enter the United States to live
and work during the pendency of multi-year immigration proceedings. Even more importantly, MPP also
provides an opportunity for those entitled to relief to obtain it within a matter of months. MPP, therefore, is a

214a
cornerstone of DHS’s ongoing efforts to restore integrity to the immigration system—and of the United
States’ agreement with Mexico to address the crisis at
our shared border.

215a
Appendix A: Additional Analysis of MPP
Fear-Assessment Protocol

U.S. Citizenship and Immigration Services (USCIS)
strongly believes that if DHS were to change its fearassessment protocol to affirmatively ask an alien amenable to MPP whether he or she fears return to Mexico,
the number of fraudulent or meritless fear claims will
significantly increase. This prediction is, in large part,
informed by USCIS’s experience conducting credible
fear screenings for aliens subject to expedited removal.
Credible fear screenings occur when an alien is placed
into expedited removal under section 235(b)(1) of the
Immigration and Nationality Act—a streamlined removal
mechanism enacted by Congress to allow for prompt removal of aliens who lack valid entry documents or who attempt to enter the United States by fraud—and the alien
expresses a fear of return to his or her home country or
requests asylum. Under current expedited removal
protocol, the examining immigration officer—generally
U.S. Customs and Border Protection officers at a port
of entry or Border Patrol agents—read four questions,
included on Form I-867B, to affirmatively ask each alien
subject to expedited removal whether the alien has a
fear of return to his or her country of origin. 4
The percentage of aliens subject to expedited removal
who claimed a fear of return or requested asylum was
once quite modest. However, over time, seeking asylum has become nearly a default tactic used by undocumented aliens to secure their release into the United

4

See 8 C.F.R.§ 235.3(b)(2).

216a
States. For example, in 2006, of the 104,440 aliens subjected to expedited removal, only 5% (5,338 aliens) were
referred for a credible fear interview with USCIS. In
contrast, 234,591 aliens were subjected to expedited removal in 2018, but 42% (or 99,035) were referred to
USCIS for a credible fear interview, significantly straining USCIS resources.
Table A1: Aliens Subject to Expedited Removal and
Share Making Fear Claims, FY 2006-2018

Transitioning to an affirmative fear questioning model
for MPP-amenable aliens would likely result in a similar
increase. Once it becomes known that answering “yes”

217a
to a question can prevent prompt return to Mexico under MPP, DHS would experience a rise in fear claims
similar to the expedited removal/credible fear process.
And, affirmatively drawing out this information from aliens rather than reasonably expecting them to come forward on their own initiative could well increase the meritless fear claims made by MPP-amenable aliens.
It also bears emphasis that relatively small proportions
of aliens who make fear claims ultimately are granted
asylum or another form of relief from removal. Table
A2 describes asylum outcomes for aliens apprehended
or found inadmissible on the Southwest Border in fiscal
years 2013-2018. Of the 416 thousand aliens making
fear claims during that six-year period, 311 thousand
(75 percent) had positive fear determinations, but only
21 thousand (7 percent of positive fear determinations)
had been granted asylum or another form of relief from
removal as of March 31, 2019, versus 72 thousand (23
percent) who had been ordered removed or agreed to
voluntary departure. (Notably, about 70 percent of aliens with positive fear determinations in FY 2013-2018
remained in EOIR proceedings as of March 31, 2019.)

218a
Table A2: Asylum Outcomes, Southwest Border Encounters, FY 2013-2018

Source: DHS Office of Immigration Statistics Enforcement Lifecycle.
Notes for Table A2: Asylum outcomes are current
as of March 31, 2019.

Fear claims include credible fear cases completed by USCIS as
well as individuals who claimed fear at the time of apprehension but
who have no record of a USCIS fear determination, possibly because
they withdrew their claim.
2
Positive fear determinations include positive determinations by
USCIS as well as negative USCIS determinations vacated by EOIR.
3
Asylum granted or other relief includes withholding of removal,
protection under the Convention Against Torture, Special Immigrant Juvenile status, cancelation of removal, and other permanent
status conferred by EOIR.
4
Removal orders include completed repatriations and unexecuted
orders of removal and grants of voluntary departure.
1

219a
Implementing MPP assessments currently imposes a
significant resource burden to DHS. As of October 15,
2019, approximately 10% of individuals placed in MPP
have asserted a fear of return to Mexico and have been
referred to an asylum officer for a MPP fear assessment. The USCIS Asylum Division assigns on average
approximately 27 asylum officers per day to handle this
caseload nationwide. In addition, the Asylum Division
must regularly expend overtime resources after work
hours and on weekends to keep pace with the same-day/
next-day processing requirements under MPP. This
workload diverts resources from USCIS’s affirmative asylum caseload, which currently is experiencing mounting
backlogs.
Most importantly, DHS does not believe amending the
process to affirmatively ask whether an alien has a fear
of return to Mexico is necessary in order to properly
identify aliens with legitimate fear claims in Mexico because under DHS’s current procedures, aliens subject to
MPP may raise a fear claim to DHS at any point in the
MPP process. Aliens are not precluded from receiving
a MPP fear assessment from an asylum officer if they do
not do so initially upon apprehension or inspection, and
many do. As of October 15, 2019 5, approximately 4,680
aliens subject to MPP asserted a fear claim and received
an MPP fear-assessment after their initial encounter or
apprehension by DHS, with 14% found to have a positive
fear of return to Mexico. Additionally, Asylum Division records indicate as of October 15, 2019 6, approximately 618 aliens placed into MPP have asserted multiple fear claims during the MPP process (from the point
5
6

USCIS began tracking this information on July 3, 2019.
USCIS began tracking this information on July 3, 2019.

220a
of placement into MPP at the initial encounter or apprehension) and have therefore received multiple fear assessments to confirm whether circumstances have changed
such that the alien should not be returned to Mexico.
Of these aliens, 14% were found to have a positive fear
of return to Mexico.
Additionally, asylum officers conduct MPP fear assessments with many of the same safeguards provided to aliens in the expedited removal/credible fear context.
For example, DHS officers conduct MPP assessment interviews in a non-adversarial manner, separate and
apart from the general public, with the assistance of language interpreters when needed. 7
In conducting MPP assessments, asylum officers apply
a “more likely than not” standard, which is a familiar
standard. “More likely than not” is equivalent to the
“clear probability” standard for statutory withholding
and not unique to MPP. Asylum officers utilize the
same standard in the reasonable fear screening process
when claims for statutory withholding of removal and
protection under the Convention Against Torture
(CAT). 8 The risk of harm standard for withholding (or
deferral) of removal under the Convention Against Torture (CAT) implementing regulations is the same, i.e.,

USCIS Policy Memorandum PM-602-0169, Guidance for Implementing Section 235(b)(2)(C) of the Immigration and Nationality
Act and the Migrant Protection Protocols, 2019 WL 365514 (Jan. 28,
2019).
8
See INA § 241(b)(3); 8 C.F.R. § 1208.16(b)(2) (same); See
8 C.F.R. § 1208.16(c)(2).
7

221a
“more likely than not.” 9 In addition to being utilized
by asylum officers in other protection contexts, the
“more likely than not” standard satisfies the U.S. government’s non-refoulement obligations.

See 8 C.F.R. § 1208.16(c)(2); Regulations Concerning the Convention Against Torture, 64 Fed. Reg. 8478, 8480 (Feb. 19, 1999) (detailing incorporation of the “more likely than not” standard into U.S.
CAT ratification history); see also Matter of J-F-F-, 23 I&N Dec. 912
(BIA 2006).
9

